<html>
<title> - PELL GRANTS FOR KIDS: IT WORKED FOR COLLEGES. WHY NOT K-12?</title>
<body><pre>[Senate Hearing 108-815]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-815

      PELL GRANTS FOR KIDS: IT WORKED FOR COLLEGES. WHY NOT K-12?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON



EXAMINING THE USE OF PELL GRANTS FOR PRIMARY SCHOOL EDUCATION, FOCUSING 
                 ON SCHOOL CHOICE AND VOUCHER PROGRAMS

                               __________

                             JULY 15, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
94-993                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                   Marguerite Sallee, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JULY 15, 2004

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
    Prepared statement...........................................    30
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island, 
  opening statement..............................................    31
Bell, Michael, Assistant Superintendent for School Choice and 
  Parent Options, Miami-Dade County Public Schools...............    34
    Prepared statement...........................................    36
Hill, Catherine Lucille Brooks, D.C. Parents for School Choice...    38
    Prepared statement...........................................    39
Peterson, Paul E., Henry Lee Shattuck Professor of Government, 
  Department of Government, Harvard University...................    40
    Prepared statement...........................................    42
Allen, Darlene, President, District of Columbia PTA..............    43
    Prepared statement...........................................    45
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, opening statement.................................    50
Goldring, Ellen B., Ph.D., Alexander Heard Distinguished Service 
  Professor and Professor of Education Policy and Leadership, 
  Peabody College Vanderbilt University..........................    57
    Prepared statement...........................................    59
Enlow, Robert C., Executive Director, Milton and Rose Friedman 
  Foundation, Inc................................................    62
    Prepared statement...........................................    65
Kirtley, John, Vice Chairman Alliance for School Choice..........    72
    Prepared statement...........................................    74
Smith, Robert, Superintendent, Arlington Virginia Public Schools.    75
    Prepared statement...........................................    77

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    ``How the GI Bill Changed Higher Education,'' by Milton 
      Greenberg..................................................     5
    Pell Grants for Kids Q&A.....................................     8
    ``Putting Parents in Charge,'' from Education Next by Lamar 
      Alexander..................................................    10
    Article from the Congressional Record, by Mr. Moynihan.......    18
    Hoover Institution on War, Revolution and Peace, Q&A.........    19
    ``A GI Bill for Children,'' article by Lamar Alexander.......    23
    National Coalition for Public Education......................    87
    National Coalition for Public Education: Vouchers are NOT 
      Like Pell Grants...........................................    88

                                 (iii)

  

 
      PELL GRANTS FOR KIDS: IT WORKED FOR COLLEGES. WHY NOT K-12?

                              ----------                              


                        THURSDAY, JULY 15, 2004

                               U.S. Senate,
             Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, presiding.
    Present: Senators Alexander, Dodd, and Reed.
    Senator Alexander. Good morning. I call this subcommittee 
on Children and Families hearing to order.
    Today, we are going to talk about Pell Grants for Kids, the 
idea of giving $500 Federal to every middle- and low-income 
child in America which would then follow that child to the 
school or other approved academic program of the parents' 
choice. It is a new idea for Federal funding of local schools, 
but it is an old idea in the United States of America because 
it has been discussed so much and used in higher education 
since 1944.
    We have a distinguished group of panelists, two panels 
actually. We have a number of interested Senators. Senator Reed 
is here. Senator Dodd may be coming. Others may come and go. 
This is a very busy day in the United States Senate.
    So when the Senators are able to come, what I will do is 
interrupt the hearing and ask them to make their statements and 
then let them stay for as long as they can. I hope the 
witnesses will understand. And then I will ask the two panels 
of witnesses to read their statements. I have read them all, 
and we will be a glad to accept any additions to those 
statements that you have for the next week. What I will try to 
do is take about an hour for each panel and ask each of the 
witnesses to try to summarize your remarks in 5 minutes, and 
that will give the Senators a chance to ask you questions and 
produce a better discussion for the record.
    There is no legislation before us today. What I have done 
is made a proposal. I have sent to each of you, and to my 
colleagues in the Senate, a summary of that proposal. I have 
outlined the proposal in an article in Education Next, which is 
published by Harvard, and Stanford, and other institutions, and 
there are a series of questions and answers that my colleagues 
have and that will be made a part of the record.
    I hope that over the next 6 months, Democratic and 
Republican colleagues and any interested person will give his 
or her ideas about how best to do this and that we will have a 
piece of legislation ready for the next Congress when it 
convenes in January. Basically what I am trying to do is to ask 
for your help in answering this question: Is there anything we 
can learn from how the Federal Government funds higher 
education that we might apply to kindergarten through the 12th 
grade?
    Now I would like to make a brief statement and introduce a 
few things for the record and then I will call on Senator Reed. 
Do you have enough time for that, Senator Reed?
    Senator Reed. Yes, sir, I do. Thank you, Mr. Chairman.
    Senator Alexander. Okay. And then we will go on to the 
witnesses.

             OPENING STATEMENT OF SENATOR ALEXANDER

    Senator Alexander. The question that has often occurred to 
me is that if we have the best colleges, why don't we have the 
best schools? I believe that one reason is because of the 
different way we spend Federal dollars on colleges. We spend 
Federal dollars for colleges one way and we spend Federal 
dollars for schools another way. Federal funding for colleges 
follows students. This year, $14 billion in what we call Pell 
Grants, named after the former Senator from Rhode Island, and 
in work study and $52 billion in Federal student loans follow 
about 60 percent of American college students to the 
institution of their choice. So in Tennessee and Rhode Island, 
60 percent of the college students have a Federal grant or a 
loan that follows them to the college or other academic 
institution of their choice. As a result, colleges compete for 
students just as they do for research dollars and faculty. When 
I was president of the University of Tennessee, I knew that 
those Pell Grants and those student loans could go to Maryville 
College or to Knoxville College or to Vanderbuilt University or 
wherever else. We competed for those students.
    This method of Federal funding for college students began 
with the GI Bill for veterans in 1944. We recently celebrated 
the 60th anniversary of the invasion of Normandy. Well, it is 
also the 60th anniversary of the Servicemen's Readjustment Act 
of 1944 which was then called the GI Bill of Rights. After the 
GI Bill of Rights, which gave, among other things, to returning 
veterans tuition and room and board that they could spend at 
any educational institution of their choice, the Federal 
Government followed that formula and created what we call Pell 
Grants and Stafford Loans and other forms of Federal 
assistance.
    Rarely has the taxpayer gotten so much bang for the buck. 
These Federal vouchers--and that is what they are, Federal 
vouchers--have made it possible for a greater percentage of 
Americans to continue into higher education than in any other 
country. Competition for these students and faculty and $19 
billion a year in Federal research dollars is the major reason, 
I believe, why Shanghai University's recent list of the hundred 
best colleges and universities in the world included 81 from 
the United States. So not only does the United States have 
among the best colleges and universities in the world, it has 
almost all of the best colleges and universities in the world. 
A major concern for Europe is not job outsourcing, but brain 
outsourcing as Europeans, and then in other parts of the world, 
people come to the United States to go to our colleges and 
universities.
    Now, that is Federal funding for colleges. It has followed 
the students to the college of their choice. It does not go to 
the university. It goes to the student. Now compare that with 
Federal funding for elementary and secondary education, which 
has taken just the opposite approach. Federal funding for 
elementary and secondary education did not really begin in a 
significant way until the mid-1960s, and as a percent of the 
total, it is not very much today. We spend about $7,500 per 
student in the United States, more or less, on each elementary 
and secondary student and about 7 or 8 percent of that comes 
from the Federal Government, and many school officials complain 
they get more rules from us than dollars.
    So we spend maybe $650 or $700 per student of Federal 
dollars, but we do not give those dollars to the students to 
then go to the institution of their choice. Instead, we give 
those dollars--$35 billion of those dollars this year--directly 
to the schools or to the States who then give them to the 
schools. And as mentioned, along with these dollars come plenty 
of Federal and State regulations.
    Measured by student learning, we have not been as 
successful with K through 12 in this country as we have been 
with our colleges and universities. In 1999, 8th grade students 
were ranked 19th in math and 18th in science among 38 
industrialized countries. I believe one reason we continue to 
be disappointed by our schools is because Federal dollars do 
not encourage the same kind of competition for students that we 
have in colleges and Federal regulations smother the autonomy 
and independence of individual schools.
    So why not try in our schools what has worked so 
successfully in our colleges? If we have in our colleges the GI 
Bill, the Pell Grants, the Stafford Loans, and many people 
think it is the most successful social legislation we have ever 
had, why not try something like Pell Grants for Kids? That is 
why I propose an annual $500 scholarship that would follow 
every middle- or low-income child in America to the school or 
other approved academic program of his or parents' choice. 
Parents could use these Pell Grants to help their schools pay 
for more English teachers, more art programs, after-school math 
sessions, or parents could purchase such lessons or other 
services that schools do not provide. It would be up to the 
parents how to spend that $500.
    Pell Grants for Kids could do the following things: One, 
provide more Federal dollars for schools with fewer Federal 
strings; two, help pay for the requirements of No Child Left 
Behind. In the testimony of at least one witness, maybe more, 
you have pointed out that No Child Left Behind adds some cost 
to local school districts. This would be new Federal dollars 
that follow middle- and low-income children to schools which 
could help pay for some of those costs. It would reduce school-
by-school inequity in funding. I am not one of those who thinks 
that every school has too much money. I know lots of schools 
who have too little money. In Bryan, Texas, which is next to 
College Station, you have the example of College Station where 
all the Texas A&M professors are. Well, their average property 
value is about $300,000, and across the tracks in Bryan, it is 
about $100,000. So the schools in College Station have a lot 
more money to spend than the schools in Bryan, and that is not 
likely to change because the State of Texas is struggling with 
its tax base. Property taxes are already high, and the Federal 
Government only supplies about 7 percent of the money for K 
through 12. So this could help with that inequity because it 
goes to the children who are from the poorest families.
    Pell Grants for Kids could avoid increased Federal 
regulation of schools as Federal funding inevitably increases. 
Every time we increase Federal funding for K-12 schools, we add 
to the regulatory burden of schools because of the way we do 
it.
    Finally, Pell Grants for Kids would give parents more say 
and more choice in the education of their children. Since about 
60 percent of all children under my proposal would be eligible 
for Pell Grants, this could mean an infusion of quite a large 
amount of unrestricted dollars. For example, in a middle school 
of 600, if 400 students were eligible, that would be $200,000 a 
year in new dollars that would allow the school to add 
teachers, classes, or programs, or which the parents could use 
to buy services from other providers if the school did not 
offer it.
    I suggest that we fund Pell Grants for Kids gradually over 
time, grade by grade, only with new Federal dollars. No program 
needs to be cut. When Congress substantially increases the 
amount of money for Title I, for example, instead of giving it 
directly to the schools, let parents decide how to spend it. A 
new appropriation of $2.5 billion, for example, would provide 
enough money for every middle- and low-income kindergarten and 
first grade student to receive a $500 scholarship. We can 
afford to do that.
    This idea has a long bipartisan history. I have mentioned 
Senator Pell's work in what we now call in higher education the 
Pell Grant. That may or may not be what it should be called in 
K through 12, but it has been there in higher education for 
some time. In 1979, Democratic Senators Pat Moynihan and Abe 
Ribicoff introduced legislation that would have made elementary 
and secondary students eligible for Pell Grants. In 1992, when 
I was the U.S. Education Secretary, President George H.W. Bush 
proposed a so-called GI Bill for Kids which would have provided 
$1,000 scholarships in a pilot program under similar 
guidelines.
    So today's hearing is about how to write legislation that 
would establish for students in elementary and secondary 
schools the same kind of Federal scholarships that college 
students have had since the end of World War II. This fall, I 
hope to work with members of this subcommittee and colleagues 
and people around the country who are interested in doing this. 
I am well aware that there are many, maybe on my side of the 
aisle, who do not favor more Federal spending for local 
schools. I am well aware that there are many on the other side 
of the aisle who are put off by the idea of vouchers. But what 
I would like to say to each side is I can think of no more 
important priority for our Nation than quality schools. We need 
to figure out a fair way of funding them from Washington, D.C. 
without overwhelming them with regulations, and giving parents 
more choices.
    And I would say to my friends on the other side of the 
aisle who are worried about vouchers that we have got 60 years 
of experience with vouchers, with Pell Grants, with student 
loans, now with $8 billion a year of child care certificates, 
and at least in the case of colleges and universities, these 
vouchers have helped public colleges and universities and 
helped create the greatest generation of Americans.
    I would like to ask consent to include at the appropriate 
place in the record the following items, and then I will turn 
to Senator Reed. One is an article by Milton Greenberg, well 
known in education, about how the GI Bill changed education. It 
was in the ``Chronicle'', and it goes through--and I will talk 
more about this during the hearing--the decision that the 
Nation made two or three times over the last 60 years to give 
Federal dollars for higher education, not to the colleges, but 
to the students who then chose the colleges.
    [The information follows:]

                How the GI Bill Changed Higher Education
                          by milton greenberg

    This year of special remembrance and celebration of World War II 
holds special meaning for higher education--it is also the 60th 
anniversary of the passage of the GI Bill. Its passage in June 1944 was 
largely unheralded (the Normandy invasion was in full swing), and its 
consequences totally unforeseen. Nevertheless, the Bill almost 
instantly changed the social landscape of America.
    Contemporary political leaders periodically call for a new GI Bill, 
using the name as a synonym for some vague general aid to education and 
to convey a concept of universal access to higher education. That was 
the effect but not the intent of the GI Bill. It was conceived as a 
partial solution to potential postwar chaos and as a reward for 
military service. The latter purpose has lived on in subsequent, though 
less generous, versions for Korean War and Vietnam War veterans and now 
as an enlistment incentive for all volunteer military personnel under 
the Montgomery GI Bill.
    Nor was its passage through Congress unmarked by controversy. Many 
leading academics of the time expressed concern that the GI Bill was a 
threat to academic quality, and they sought to control and circumscribe 
eligibility. While most of those academics eventually acknowledged the 
high quality motivation of veteran students, the immediate impact of 
older and middle- and lower-class students enrolling at colleges and 
universities altered prewar perceptions of higher education, giving 
rise to today's continuing issues of mission, access, diversity, and 
financing.
    The Servicemen's Readjustment Act of 1944, brilliantly labeled the 
GI Bill of Rights, was a response to the prospective return to civilian 
life of more than 15 million servicemen and about 350,000 women. Four 
years of World War II preceded by 11 years of the Great Depression, 
left the nation, especially those in the veterans' age group, largely 
uneducated, lacking in work experience, and living in substandard and 
overcrowded dwellings. At the war's end, the nation faced a massive 
demobilization of both the military and the domestic wartime economy, 
with attendant dislocation of human and social capital. Political 
leaders genuinely feared the chaotic and revolutionary conditions that 
characterized the decades of the 1920s and 1930s after World War I. It 
is out of that history that the GI Bill was born. The disastrous prewar 
conditions, the war's brutality, and postwar fears are often forgotten 
or cloaked by the glamorous myth of World War II as ``the last great 
war'' and its veterans as ``the greatest generation.''
    The GI Bill provided three extraordinary benefits. The only 
requirements were military service for at least 90 days and an 
honorable discharge. No means test, no tax credits, and minimal red 
tape were required to receive an unemployment allowance of $20 per week 
for up to 52 weeks (the so-called 52--0 Club); loan guarantees for the 
purchase of a home, a farm, or a business; and educational 
opportunities--collegiate, vocational, or on-the-job apprenticeships--
with tuition, fees, and books paid for, and supporting stipends for 
living expenses provided, for up to 48 months depending upon length of 
service.
    The 52-20 Club, feared by some to be a boondoggle, was used by less 
than 57 percent of the 16 million eligible, in most cases for just a 
few weeks, resulting in an expenditure of only 20 percent of the 
projected total costs (kudos for the greatest generation for not taking 
advantage of a free year on what was at that time a lot of money).
    The postwar housing crisis was severe, a result of 15 years of 
depression, war, neglect, and shortages of supplies. The housing crisis 
was not met by construction of government housing projects. Instead, a 
guaranteed-loan program stimulated massive building and purchase of 
homes, farms, and small businesses. That initiated an amazing change in 
the American physical and social landscape and stimulated demand for 
every conceivable consumer good, including education and training. 
Suburbs grew overnight along with roads, schools, churches, and 
shopping centers.
    Under the education provisions, 2.2 million veterans attended 2- 
and 4-year colleges and universities. Even more veterans--3.5 million--
used opportunities at vocational schools. An additional 1.5 million 
were involved in on-the-job training, and about 700,000 used their 
benefits for farm training. Veterans chose any school or training 
program to which they could gain admission.
    The Veterans Administration (now the Veterans Affairs Department) 
administered the education program, not the U.S. Office of Education, 
the education bureaucracies in the States, or the universities and 
colleges themselves. The higher-education associations sought to have 
the funds sent to and administered through the colleges, but Congress, 
to the consternation of the education establishment, deliberately chose 
the VA, which certified eligibility, paid the bills to the college, and 
mailed a stipend to the veteran. That was it.
    The GI Bill is mainly identified with higher education and with 
images of a new American campus life. Before World War II, most 
colleges were characteristically rural, private, small, elitist, white, 
and Protestant, and married students were generally excluded. Public 
institutions were not too dissimilar. In 1940, about 1.5 million 
students were enrolled at all colleges and universities, and less than 
200,000 earned college degrees. In 1950, about 2.7 million enrollments 
resulted in nearly 500,000 college degrees awarded by both private and 
public institutions to students of varied religions and races, most in 
their mid- to late 20s. About half of the veteran students were 
married, and 25 percent had children.
    In 1947, veterans accounted for 49 percent of enrollments, nearly 
half of whom had enrolled at just 38 colleges and universities, 
including the notable private institutions. College life was marked by 
extraordinary crowding of classrooms and living space, and the 
accomplishment of campus leaders in meeting the crisis is noteworthy. 
Indiana University, for example, ballooned from about 3,000 students in 
1944 to over 10,000 in 1946, and its campus ``had the general 
appearance of a vast shipyard in full operation,'' according to Thomas 
D. Clark, the author of a history of the university.
    It is estimated that of the 2.2 million who went to college, about 
1.75 million would have attended anyway, based on prewar data. Hence 
fewer than 500,000 who would otherwise not have gone accepted the 
opportunity.
    To some these numbers may appear small, but before WWII, most 
people had not gone beyond elementary or secondary school; a high-
school diploma was a rare achievement, earned by less than 25 percent 
of the population. Almost all forecasts logically pointed to the 
likelihood of a very modest enrollment response. After all, higher 
education was not only limited and elitist, it was notoriously 
discriminatory with respect to race, sex, and religion. Before WWII 
only one adult in 16 had a college education. Frank T. Hines, the first 
VA administrator, calculated that about 700,000 veterans would attend 
college by the time eligibility under the law expired in 1956.
    Irrespective of the number of veteran students who took advantage 
of it, the GI Bill has influenced higher education to this day in often 
unexpected ways. For example, one can assume that the initial wave of 
GIs on campuses presumed that they would acquire the education 
previously available to the elite. Once exposed to the classroom, 
older, experienced, impatient veteran students pressed for more 
practical applications of their learning and preparation for work. That 
was accompanied by a decline of the liberal arts in favor of 
occupational and technical education, especially in engineering and 
business. Upward mobility, rather than certification of the upper 
classes, marked American higher education thereafter.
    Consider, too, the baby-boom generation, the progeny of WWII 
veterans (about 600,000 more babies were born in 1946 than in 1945), 
who became the college students of the notorious 1960s and 1970s. 
Campus enrollments soared and along with them a need for huge public 
investment in the development and expansion of colleges and 
universities as well as community colleges.
    Today more than 16 million people are enrolled in higher education, 
more than a third of whom are in community colleges. About 1.1 million 
earn bachelor's degrees each year, and an equal number earn associate, 
graduate, and professional degrees. By the early 1980s, one in five 
Americans had a college education, a proportion that has remained 
virtually unchanged.
    It is appropriate to ascribe this growth to the major legacy of the 
GI Bill: the opening of the academy to all classes of people and 
turning what had been a limited privilege to a generalized public 
expectation. If there is a negative side to the story, it may simply be 
that, prompted by the GI Bill, higher education became a hot commodity 
without much agreement on just what the commodity was and covering 
almost any form of postsecondary education or training.
    It is mistakenly presumed that the GI Bill gave instant rise to the 
movement of what became known as adult education, lifelong learning, 
and similar terms including the unfortunate ``non-traditional 
student.'' We made the extraordinary discovery that ``older'' people 
(presumably over 25) could learn. But the fact is that several years 
passed after the WWII GIs left and adults returned to school. The lapse 
is undoubtedly due to the excellent availability of jobs in the 
expanding postwar economy, homeownership spurred by the veterans' home 
loans, the high birthrate of the 1950s, and strong cultural support for 
family life in suburbia that marked the postwar period.
    Currently, almost 40 percent of higher-education enrollment 
comprises students over 25, many in graduate programs, many in 
community colleges or in continuing-education or part-time programs. 
That the return of older students is still treated as somewhat strange, 
``non-traditional,'' and a special burden, separate from traditional 
full-time undergraduates, shows some disconnect with the supposed 
lesson of the GI Bill. As a matter of public policy, there is little 
encouragement for adult students in the way of financial aid or other 
considerations.
    Among the more socially significant revolutions wrought by the GI 
Bill was the impact upon discriminatory practices. Blacks and Jews in 
particular were able to use the GI Bill to break barriers to their 
participation in higher education. Historically black institutions 
experienced sharp increases in enrollments and were granted Federal 
funds for expansion of campus construction. Black veterans in Northern 
urban areas attended formerly all-white institutions. The development 
of a black middle class is a highlight of that generation.
    Nevertheless the opportunities afforded blacks were not equal. It 
is important to recall that the military was racially segregated until 
1948 and that Brown v. Board of Education was still years away, as was 
integration of Southern colleges. In addition, the postwar housing boom 
was carried out under policies of racial segregation and 
discrimination, North and South. We are left now to lament our failure 
to use the GI Bill more effectively on behalf of African-American 
veterans, and the continuing disappointing history of black enrollment 
in colleges and universities.
    Jewish veterans gained entry into elite colleges then known as 
bastions of anti-Semitism and benefited from the growth of public 
institutions in urban areas. The GI Bill moved the children of European 
immigrants, including Catholics, into academe, business, and the 
professions, and essentially eliminated religious bigotry in American 
higher education.
    Women were nearly invisible during those halcyon postwar years. The 
progress made by women who entered the work force as well as the 
military during the war was interrupted during the postwar years. Less 
than 3 percent of veterans (about 64,000) who attended college under 
the GI Bill were women. Preferences for male veterans in education, 
coupled with the crisis in classroom and residential space, negatively 
affected women's enrollment in most schools. Many women's colleges 
enrolled men for the first time.
    With the enormous birth rate and the development of homeownership 
and new communities, it was presumed that women would and should return 
to home care and child rearing, which many of that generation did. When 
their children grew, many did return to college, but it was their 
daughters who formed the base of the women's-liberation movement during 
the 1970s and 1980s. Today women dominate the college scene and are 
prominent in major professional schools. The present status of women in 
higher education can be traced to the GI Bill by linking the higher-
education success of the fathers and grandfathers to that of 
contemporary young women.
    The decision by Congress to finance the GI Bill through the 
students themselves rather than through government bureaucracies or 
higher-education institutions was a crucial and lasting one. It was a 
centralized entitlement-and-voucher program that was based on a 
decentralized market approach, irrespective of financial need or 
previous educational status. It preserved the idea of avoiding Federal 
control over education and established the basic method for subsequent, 
although less generous, veterans' education benefits and for Federal 
loans and grants to college students. There is now serious thought 
being given (and enacted in Colorado) to direct financing by States of 
individual college students rather than through institutions and 
letting the marketplace determine the purposes for which the funds are 
spent. Numerous State and Federal programs, such as AmeriCorps, use GI 
Bill-like incentives to encourage public-service activities or careers 
in teaching or medicine for the price of college tuition benefits or 
student-loan forgiveness.
    Those of us who are WWII veterans were privileged to be afforded an 
extraordinarily generous opportunity to get an education, develop a 
career, enrich our lives, and contribute to society. In contemporary 
terms, the GI Bill may appear to have been a huge welfare program, but 
it would be wrong to treat it as such. It was a special law for a very 
special time, made available only to veterans and unrelated to need. 
The government provided the incentive and made the money available, but 
the individual decided not only how and where to use it but whether to 
use it at all.
    Nevertheless, the major legacy of the GI Bill is the idea that, 
given the opportunity, any person can undertake higher education for 
both personal and societal benefit. Links to the GI Bill of Rights can 
be found in the numerous national and State programs that encourage 
access to higher education with grants, scholarships, and loans. The 
issue now is not whether we should support that legacy but rather for 
whom and at what cost it should be provided. Absent now, happily, are 
the desperate social conditions that evolved from the Great Depression 
and WWII. But the real differences now lie in the vast competition for 
available public funds and the lost shared sense of great national 
purpose which marked post-World War II America.

    Senator Alexander. I would like to also include the 
question and answer that I have written describing the proposed 
Pell Grants for Kids upon which I would hope to base 
legislation.
    [The information follows:]

                        Pell Grants for Kids Q&A
                          by senator alexander

    What is it? An annual $500 Federal scholarship that would follow 
every middle- and low-income child in America to the school or other 
approved academic program of his or her parents' choice.
    Who is eligible? About 30 million or 60 percent of school age 
children--all those who attend kindergarten through the twelfth grade 
and who come from families whose income is below the State median 
family income. As an example, the national median family income for a 
family of four is $63,278.
    Why call it Pell Grant? Because its model is the Pell Grant for 
college students, the Federal scholarship program that has helped make 
American colleges the best in the world. This year $13 billion in Pell 
grants and work-study and $42 billion in Federal student loans follow 
about 60 percent of American college students to the institutions of 
their choice.
    Why do it? (1) To use the same idea that helped create the best 
colleges--letting money follow students to institutions of their 
choice--to help create the best schools; (2) To reduce inequality in 
educational opportunity by giving middle- and low-income children more 
of the same opportunities that wealthier families already have; (3) to 
provide more Federal funds with fewer Federal strings and more local 
control that may be used to implement the requirements of No Child Left 
Behind.
    Why focus on middle- and low-income? Between 1996 and 2000, poor 
students fell further behind their wealthier peers in seven out of nine 
key indicators--including reading, math and science. This especially 
affects minority children. By the 12th grade, only one in six black 
students and one in five Hispanic students are reading at their grade 
level.
    How does it work? By June 1 of each year, parents would sign up to 
spend their child's $500 with a lawfully operating public, charter, or 
accredited private elementary and secondary school or other approved 
academic program of their choice. On August 1, the U.S. Department of 
Education would transfer funds to the schools or academic programs for 
use during the coming school year.
    How would families apply? By using the one page form now used to 
apply for reduced and free lunches at school. Those already eligible 
for free lunches would be automatically eligible for Pell Grants for 
Kids, reducing paperwork.
    How is it funded? With all new Federal money. No program would be 
cut. Congress would substantially increase the amount of money it now 
spends for Title I ($12.3 billion this year), and use that new funding 
to create Pell Grants for Kids.
    What happens to the $12.3 billion now being appropriated for Title 
I? It continues to be appropriated and spent the way it is now.
    Is this a new entitlement program? No. Congress would appropriate 
each year what it could afford.
    How would this affect programs for children with disabilities? Not 
at all. Congress would continue to provide increases for programs for 
children with disabilities.
    So, what would Pell Grants for Kids cost in the first year? In the 
first year, Congress would appropriate $2.5 billion new dollars for 
Pell Grants for Kids, enough to provide every kindergartener and first 
grader with a $500 scholarship. Title I would continue at $12.3 
billion. Other education programs would increase, as Congress deems 
appropriate.
    How long will it take to fully fund Grants in all grades? In his 
first 4 years, President George W. Bush asked for $4 billion new 
dollars for Title I, which would have been enough to create Pell Grants 
for kindergarten through the third grade. Since President George H.W. 
Bush left office in 1992, Congress has appropriated $10 billion new 
dollars for K-12 (excluding funding for children with disabilities), 
enough to provide scholarships for kindergarten though eighth grade.
    What is the cost of full funding? It would cost $15 billion per 
year to provide scholarships to every one of the 30 million middle- and 
low-income K-12 students in America today.
    What is an approved academic program? Programs which States have 
approved for supplementary education services under No Child Left 
Behind.
    Are home-schoolers eligible? Yes, as long as the money is spent for 
approved academic services.
    Is $500 enough to create real choices? 500 parents at a middle 
school each armed with $500 should be able to command the schools 
attention. With that $250,000 the school could provide new English 
teachers, after school programs, advanced math programs or fix the 
roof. Or the parent may use the money at another approved academic 
program for English or music lessons or after school care. At Puente 
Learning Center in South Los Angles, Sister Jennie Lechtenberg teaches 
students of all ages English and clerical skills at an average cost of 
$500 per year.
    Isn't this a voucher? Yes. But the GI Bill for Veterans, Pell 
grants and student loans for college students are all vouchers. So are 
the $8 billion in day care certificates that Congress provides to 
millions of mothers this year, all of whom may choose their child care 
facilities. These vouchers are enormously successful. There is every 
reason to believe the Pell Grants for Kids would be too.
    Why not just give the new Title I money directly to schools? We've 
tried that, but our schools are not as good as they need to be. Now we 
want to transform the way we spend Federal dollars for schools, by 
spending more in the same way we spend it for colleges--by giving 
consumers choices.
    Won't this hurt public schools? Pell grants for colleges helped 
make our system of higher education the best in the world; Pell grants 
for kids should do the same for schools by providing new money for 
programs and involving parents more. Eighty percent of Pell grants for 
college students are spent at public institutions. Most Pell Grants for 
Kids monies are likely to be spent at public schools.
    Is this a Republican or a Democrat idea? It is both. In 1979, 
Democratic Senators Pat Moynihan and Abe Ribicoff introduced 
legislation that would make elementary and secondary school children 
eligible for ``Pell Grants'' that were then available to college 
students. In 1992, Republican President George H.W. Bush proposed the 
``GI Bill for Kids,'' a pilot program that would have funded $1,000 
scholarships that would follow 500,000 middle and low-income children 
to schools or other accredited academic programs of their choice. Both 
Democrats and Republicans have supported Pell Grants, guaranteed 
student loans, and day care certificates--all of which are Federal 
vouchers that follow students to the institutions they or their 
parents' choose.

    Senator Alexander. Next, I would like to include the 
article from ``Education Next'' which describes the proposal in 
more detail.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4993.001
    
    [GRAPHIC] [TIFF OMITTED] T4993.002
    
    [GRAPHIC] [TIFF OMITTED] T4993.003
    
    [GRAPHIC] [TIFF OMITTED] T4993.004
    
    [GRAPHIC] [TIFF OMITTED] T4993.005
    
    [GRAPHIC] [TIFF OMITTED] T4993.006
    
    [GRAPHIC] [TIFF OMITTED] T4993.007
    
    [GRAPHIC] [TIFF OMITTED] T4993.008
    
    Senator Alexander. Next, I would like to include an article 
from the Congressional Record from 1979 that describes the 
proposal that Senator Moynihan and Senator Ribicoff made to 
amend Title IV of the Higher Education Act of 1965 and simply 
make Pell Grants available also to elementary and secondary 
students.
    [The information follows:]

                   Article from Congressional Record
                            by mr. moynihan:

    S. 1101. A bill to amend subpart 1 of part A of title IV of the 
Higher Education Act of 1965 to provide for basic educational 
opportunity grants for elementary and secondary school students, and 
for other purposes; to the Committee on Labor and Human Resources.

 ELEMENTARY AND SECONDARY SCHOOL STUDENT BASIC EDUCATIONAL OPPORTUNITY 
                               GRANT ACT

    Mr. Moynihan. Mr. President, I am today introducing a bill to make 
basic educational opportunity grants available to needy elementary and 
secondary school students. This complements the tuition tax credit bill 
that we recently introduced and in no way substitutes for it. Just as I 
believe that both need-based grant aid and tuition tax credits should 
be available to assist with the costs of college education, so also 
should the two alternatives be available for needy students with 
tuition costs at the elementary and secondary level.
    As amended by the Middle Income Student Assistance Act of 1978, the 
basic grants program covers students from families with income up to 
$25,000; the grants range from $200, for students near the upper end of 
that scale; to $1,800 for students from very low-income families. Many 
students are not eligible for grant aid, and for them we have proposed 
tax credits. Some students would be eligible for grant aid, and they 
will presumably choose the one that suits them best. This will not 
necessarily be the form that produces the most assistance; for some, 
the simplicity of the tax credit may make it more attractive than the 
complex forms required to apply for a basic grant, particularly where 
the respective amounts of aid are not much different. Others, 
particularly the neediest, will plainly fare better under the grant 
program. But there is no redundancy or overlap between the two forms of 
aid: The tax credit would be available only for tuition which the 
student or his family actually pays; insofar as a basic grant (or other 
aid) covers tuition expenses, those expenses would not be eligible for 
a tax credit.
    Precisely the same reasoning ought apply to elementary and 
secondary schooling--if, that is, we are serious about educational 
pluralism and about providing educational choices to low- and middle-
income families that are similar to those routinely available to upper 
income families.
    This was the impulse behind the basic educational opportunity 
grants program as enacted by Congress in 1972. It was the impulse 
behind the Presidential message to Congress that I drafted in 1970 
which proposed such a program. It is the impulse to provide equality of 
educational opportunity to every American, and it is as legitimate and 
important an impulse at the primary and secondary school level as it is 
at the college level.
    The basic grants program, and the other major student aid programs 
authorized under Title IV of the Higher Education Act, will expire 
during the 96th Congress, and one of our important responsibilities in 
the next 18 months is to reform and extend them. I shall have more to 
say on that subject on other occasions. But it is none too early to 
introduce the idea that one reform that must be seriously considered is 
the inclusion of needy elementary and secondary school students.
    It will doubtless be argued by some that this legislation is 
unconstitutional, inasmuch as many students with tuition costs at the 
elementary and secondary level are enrolled in church-related schools. 
I see no distinction of constitutional significance between the aid we 
already provide to students in church-related colleges and that which I 
propose to provide at the primary and secondary level, but I do not 
assert that the Supreme Court will necessarily agree with me. As with 
tuition tax credits, however, this question can only be resolved by the 
Supreme Court, and that can only happen if the authorizing legislation 
is passed by the Congress.

    Senator Alexander. Finally, I would like to include in the 
record three pieces of information about Former President 
Bush's proposed GI Bill for Kids. One would be a question and 
answer document.
    [The information follows:]

            Hoover Institution on War, Revolution and Peace

            Q. AND A.--STATE AND LOCAL GI BILLS FOR CHILDREN

    Question 1. What is the ``State and Local GI Bills for Children'' 
proposal?
    Answer 1. It is a proposal for half-a-billion new Federal dollars 
to help States and communities give each child of a middle- or low-
income family a $1,000 annual scholarship that families may spend at 
any lawfully operating school of their choice--public, private, or 
religious.

    Question 2. Why do this?
    Answer 2. To give middle- and low-income families consumer power--
dollars to spend at any school they choose--which is the muscle parents 
need to transform our education system and create the best schools in 
the world for their children.

    Question 3. Why call it ``State and Local GI Bills for Children''?
    Answer 3. At the close of World War II, the Federal Government 
created the GI Bill giving veterans scholarships to use at any college 
of their choice--public, private or religious. This consumer power gave 
veterans opportunity, helped to create the best system of colleges and 
universities in the world, and gave America a new generation of 
leaders. Now that the Cold War is over, the Federal Government should 
help State and local governments create GI Bills for Children giving 
middle-and low-income parents scholarships to use at the elementary or 
secondary school of their choice--public, private, or religious. This 
consumer power will give opportunity to children and help to create the 
best system of elementary and secondary schools in the world.
    As Anthony Cardinal Bevilacqua said of a Pennsylvania ``GI Bill for 
Kids'' proposal, ``A bill like this gives a choice to everybody. If it 
passes, it will help all schools--public schools, Catholic schools, 
private schools and the schools of other religions.''

    Question 4. Who can apply?
    Answer 4. Once Congress enacts President Bush's proposal for this 
competitive 4-year grant program, any State or locality can apply for 
enough Federal funds to give each child of a middle- or low-income 
family a $1,000 annual scholarship. The governmental unit would have 
to: (1) take significant steps to provide a choice of schools to 
families with schoolchildren in the area; (2) permit families to spend 
the $1,000 Federal scholarships at a wide variety of public and private 
schools; (3) allow all lawfully operating schools in the area--public, 
private, and religious--to participate if they choose.

    Question 5. On what basis are the grantees selected?
    Answer 5. The Secretary of Education would select grantees on the 
basis of: (1) the number and variety of choices made available to 
families of eligible children; (2) the extent to which the applicant 
has provided educational choices to all children, including children 
who are not eligible for scholarships; (3) the proportion of 
participating children who are from low-income families; and (4) the 
applicant's financial support (including private support) for the 
project.

    Question 6. Who gets the money?
    Answer 6. Middle- and low-income families, to be spent at schools 
they believe best meet the needs of their children. Each successful 
State or local applicant would receive $1,000 for a scholarship for 
each eligible child of middle- and low-income families in its 
jurisdiction. The State or locality would establish its own definition 
of ``middle- and low-income,'' subject to a cap based on the higher of 
the State or national median family income. Families would receive the 
$1,000 scholarships to send their children to any lawfully operating 
school of their choice--public, private, or religious. The parents 
could use the scholarship funds for tuition and fees at the school they 
select, for reasonable costs of transportation to the school, or to 
obtain supplementary academic services. If the amount of a grant is 
insufficient to provide a $1,000 scholarship to every eligible child in 
the program area, the scholarship would go to the lowest income 
children first.

    Question 7. At what kind of school can the money be spent?
    Answer 7. At any lawfully operating public, private, or religious 
school. Up to $500 per scholarship could be used for supplementary 
academic services selected by the family.

    Question 8. What are supplementary academic services?
    Answer 8. While the Secretary expects to issue regulations defining 
what may be approved supplementary academic services, the intention of 
this proposal is to encourage schools and others to create a 
marketplace of educational opportunities for children outside 
traditional school hours. Services may include other academic programs 
for children before and after school, on weekends, and during school 
vacation periods.

    Question 9. Can a child spend $500 at a public school and then $500 
at a private after-school program?
    Answer 9. Yes. Or a child can spend $500 at two different public 
school programs or at two different private school programs.

    Question 10. Will $1,000 per child really create more opportunity?
    Answer 10. Yes. $1,000 per pupil in new Federal money would be a 
significant increase in education funding. For example, Mississippi 
spent an average of just $2,900 per student (Federal, State, and local 
funding) in 1988-1989.
    According to the most recent annual data available, average tuition 
was $1,327 for all Catholic schools and $1,915 for all private schools. 
Fifteen percent of all private schools charged less than $500 tuition, 
and 37 percent charged less than $1,000. At the elementary school 
level, 18 percent of all private schools charged less than $500 and 44 
percent charged under $1,000. The average tuition at Catholic 
elementary schools, which enroll about two-thirds of all private 
elementary students, was about $1,000.

    Question 11. Is this a new Federal entitlement?
    Answer 11. No. This will be a discretionary 4-year grant program 
for which States and localities will compete for funding. The Federal 
Government cannot afford one more entitlement program, even for 
education.

    Question 12. Doesn't this proposal cause a church and State 
problem?
    Answer 12. No. The government money is for families, not 
institutions. Just like the original GI Bill and Pell Grants, the 
scholarships are offered on a neutral basis to a broad class of 
beneficiaries, without reference to religion. Parents, not the 
government (at any level), decide where to educate their children and 
where to use the scholarships. This bill provides assistance to a broad 
class of beneficiaries (middle- and low-income children) on a 
religiously-neutral basis. The assistance can be used at a broad range 
of schools, and participation in the program, is in no way based on 
religion, or on attendance at a religious school. It is unquestionably 
constitutional under the Supreme Court precedents.

    Question 13. Is this the first time Federally-funded scholarships 
have gone to students who can then use the scholarships at private or 
religious schools?
    Answer 13. No. College students can take their Pell Grants, 
Stafford Loans, veterans benefits, and other Federal student assistance 
to any accredited institution, public, private or religious. At the 
preschool level, the Dependent Care Tax Credit and the new Child Care 
Certificate are available to be used by parents at the child care 
provider of their choice.

    Question 14. Can public schools participate?
    Answer 14. Of course. The $1,000 Federally-funded scholarships 
provided under the State and Local GI Bills for Children proposal would 
follow each child from a middle- or low-income family to the school 
that child's family chooses--including public schools. There is no 
requirement to change schools to receive the scholarship. Since 90 
percent of all children attend public schools today, presumably most of 
these funds would go for the education of children in public schools.
    For participating children who attend public schools, the portion 
of scholarships not used by parents for supplementary academic services 
would provide flexible Federal funds to be used in the school attended 
by the child for whom the scholarship was issued. Unlike categorical 
grants, teachers and principals would have control over how best to 
spend these funds at the school site to meet the specific needs of that 
school's students, and achieve the high educational standards called 
for by the National Education Goals.

    Question 15. Won't giving families choices of private schools hurt 
public schools?
    Answer 15. No. Giving families more opportunity to choose the 
school that best meets the needs of their children should help make all 
schools better, just as the GI Bill and other Federal scholarships have 
helped make American colleges and universities the best in the world.
    Our experience with a half century of Federally-funded scholarships 
that students can spend at any college is that, today, many more 
students attend college, and a much higher percentage of students 
choose to attend public institutions. After World War II, when the GI 
Bill started, only 5 percent of Americans had college degrees, and less 
than 50 percent of college students attended public institutions. 
Today, 60 percent of high school graduates go to college and nearly 80 
percent of college students attend public institutions. And, today, 
almost half the full-time 4-year college students have a Federal grant 
or loan which they may spend at any college--public, private, or 
religious.

    Question 16. How would the proposal work?
    Answer 16. The following examples will help illustrate the impact 
of the bill. If the communities listed below applied and won a grant, 
estimated funding would be as indicated:
    Indianapolis has approximately 56,000 students in both, private and 
public schools. About 64 percent of these students come from middle- 
and low-income families and would be eligible for $1,000 scholarships 
under the State and Local GI Bills for Children. If Indianapolis won a 
grant, it would mean up to $35.5 million in new Federal funds (over and 
above any other U.S. Department of Education funding the district now 
receives). This would be more than double the $14 million provided by 
the Department of Education in the 1991-1992 school year.
    In Milwaukee, which has about 107,500 school-age children, 67 
percent or 71,600 children come from middle- and low-income families 
and would be eligible to receive scholarships totaling up to $71.6 
million (over and above any other U.S. Department of Education funding 
the district now receives). This would be more than twice the $32 
million in Department of Education grants it received in the 1991-1992 
school year.
    The San Jose, California School District serves 32,800 
schoolchildren, of whom 61 percent come from middle- and low-income 
families and would be eligible for scholarships totaling up to $20.1 
million (over and above any other U.S. Department of Education funding 
the district now receives). This would be about four times the $5.0 
million provided by the Department of Education in the 1991-1992 school 
year.

    Question 17. Can you give an example of how State and Local GI 
Bills can give more flexibility to public school principals and 
teachers?
    Answer 17. Most public school teachers and principals have limited 
if any discretionary money. The State and Local GI Bills, through 
families, will provide new Federal dollars at the school site that 
teachers and principals can use to help all children achieve the high 
educational standards called for by the National Education Goals.
    For example, at Pyne Point Junior High School in Camden, New 
Jersey, principal Vernon Dover and his staff of 77 teachers could 
receive up to $500,000 in new funds. Ninety-five percent of the 571 
children at Pyne Point would be eligible for the State and Local GI 
Bills for Children, as they come from middle- and low-income families.
    At Martin Luther King Junior High School in East St. Louis, 
Illinois, principal Eddie Burns and his staff of 58 teachers could 
receive up to $700,000 from the State and Local GI Bills for Children. 
Virtually all of the 700 children at King Junior High come from middle- 
and low-income families.
    At Amidon Elementary School in Washington, DC, principal Pauline 
Hamlet and the 32 teachers could receive up to $220,000 for their 423 
students. More than half of the Amidon students come from middle- and 
low-income families.

    Question 18. Will this program benefit mainly wealthy families?
    Answer 18. No. Wealthy families already have choices. They can 
afford to move to another school district or to send their children to 
a private school if they wish. Only middle- and low-income families are 
eligible to participate in this program. The goal is to provide these 
families with more of the kinds of educational options that wealthy 
families already have.
    Currently, those groups that express the most dissatisfaction with 
educational options in their communities generally have the least power 
to move to another school district or send their children to a private 
school. In a 1991 Gallup poll, only 27 percent of inner-city residents 
gave high marks to local public schools, compared to 42 percent of the 
general public. Inner-city residents also expressed the greatest desire 
for more educational options, with 70 percent supporting public school 
choice and 57 percent supporting a voucher system.
    As Wisconsin State Representative Polly Williams observed: ``School 
choice empowers low-income families . . . Parents with money can use it 
as a leverage in decision making. Low-income families are stuck in a 
non-responsive system.'' State and Local GI Bills for Children will 
give middle- and low-income families the power to vote with their feet 
if they are not satisfied with the educational product of the school.

    Question 19. Won't choice encourage racial discrimination? What 
about children with disabilities? What about gender discrimination?
    Answer 19. This legislation provides aid to families, not to 
institutions. However, as a condition of participating in this program, 
a school must comply with Federal anti-discrimination provisions: 
section 601 of title VI of the Civil Rights Act of 1964 (race), section 
901 of title IX of the Education Amendments of 1972 (gender), and 
section 504 of the Rehabilitation Act of 1973 (disability).

    Question 20. Does the bill encourage States and private sector 
contributions to supplement scholarships?
    Answer 20. Any State or private funds that would supplement the 
scholarships would be encouraged, and the Secretary would view them as 
a positive factor in evaluating grant applications. Even now, private 
funding is playing an important role in some areas. For example, the 
Bradley Foundation and area businesses in Milwaukee recently pledged $3 
million to expand the number of choices low-income Milwaukee families 
have. In Indianapolis, Indiana, the Golden Rule Insurance Company, 
Chaired by J. Patrick Rooney, created a privately-funded voucher 
program that provides poor, inner-city students with scholarships for 
half of private school tuition costs. In the first year, over 700 
students were given vouchers of up to $800 to attend any school of 
their choosing. This stimulated three San Antonio businessmen, Dr. Jim 
Leininger, W. Lawrence Walker, and Gen. Robert McDermott to create a 
similar private voucher program called the CEO Foundation. The CEO 
Foundation has earmarked $1.5 million in vouchers for up to half of any 
child's school tuition, up to $750.

    Question 21. How does the legislation define ``a middle-income 
family?''
    Answer 21. The State or locality would establish its own definition 
of ``middle- and low-income,'' subject to a cap based on the greater of 
the State or national median family income.

    Question 22. What examples of choice programs exist in the country 
today?
    Answer 22. There are many successful examples. The public-school 
choice program in East Harlem, New York is one of the better known. The 
Milwaukee parental choice program permits any K-12 low-income student 
in the city to attend, at no charge, any nonsectarian private city 
school. The receiving school is required to accept $2,500 in funds as 
full payment. Participation in the program is up 60 percent over the 
first year. Minnesota has been the leader in State-sponsored school 
choice programs. In 1988, it adopted a statewide open enrollment plan 
that allows any family to apply to send their children to public 
schools in areas outside their resident district. Vermont has had a 
``tuitioning'' law since 1869 that allows towns without schools of 
their own to pay for their students to attend any nonsectarian private 
or public secondary school, even those outside the State. Overall, in 
1991, 10 States approved some form of new choice legislation, and 37 
States had choice legislation pending in one form or another.

    Question 23. Won't this program draw off the best students and 
leave behind the neediest students in the worst schools?
    Answer 23. No. Giving all families more choices of all schools 
should make all schools better, and all participating public schools 
would be eligible for funding. Moreover, this has not been the 
experience of the Milwaukee parental choice program, which provides 
State aid to support the enrollment of low-income students in 
participating nonsectarian private schools. Rather than skimming off 
the best students, the Milwaukee program is providing an alternative 
educational environment for many students who are not succeeding in the 
public school system.

    Question 24. How can the State or locality help parents make 
appropriate choices for their children?
    Answer 24. The proposed legislation would require States and 
districts to include in their applications a description of procedures 
for informing families of the project and of the choices available to 
them under the project, including the availability of supplementary 
academic services. High quality parent information would be a 
significant feature of any choice program.
    For example, White Plains, New York has an outstanding parent 
information program as part of its public school controlled-choice 
program. Each year, the district contacts eligible families to inform 
them of the program and to urge them to register their children. The 
district also puts up posters with tear-off information cards in dozens 
of neighborhood locations, including barber shops, laundromats, 
libraries, and churches. Posters in Spanish are placed in stores that 
serve large numbers of Spanish-speaking customers. The district has set 
up a Parent Information Center where staff meet individually with 
parents to answer questions and set up appointments to visit the 
schools, and assist with transportation, child care, and problems with 
teachers.

    Question 25. How does this proposal that includes private schools 
square with the American tradition of public education?
    Answer 25. Public education need not mean education offered by only 
one provider who gives each child--except the wealthy--a choice of one 
school. Instead, public education should be a menu or marketplace of 
educational opportunities offered by many providers that all families 
may choose among based upon what the family feels best fits the needs 
of each child.

    Senator Alexander. One would be an address that I made at 
Ashland University in 1992 describing the proposal.
    [The information follows:]

                       A ``GI Bill For Children''
                           by lamar alexander

               JOHN M. ASHBROOK CENTER FOR PUBLIC AFFAIRS
                           ASHLAND UNIVERSITY

                                FOREWORD

    This lecture was delivered at the Ninth Annual John M. Ashbrook 
Memorial Dinner on September 12, 1992. The subject for the 1991-92 
Major Issues Lecture Series is ``Striving Towards Excellence in 
Education.'' Because, as Governor George Voinovich has said, these 
lectures ``cover topics that are innovative and substantive within the 
educational field,'' and because the ``subject is of particular 
relevance considering the challenges facing our current educational 
system,'' the Ashbrook Center is publishing the lectures under the 
series ``Excellence in Education.'' It is our hope that the wide 
circulation of these monographs, and the book to follow, will add to 
the much needed national dialogue on educational issues. Other speakers 
and authors in the series include: Denis P. Doyle, Pete du Pont, 
Chester Finn, Rita Kramer, Lynne Cheney, and Dinesh D'Souza. The 
opinions expressed in these publications do not necessarily reflect the 
views of the John M. Ashbrook Center or its Board of Advisors. The 
Center is grateful to the John M. Olin Foundation for its generous 
support of the series.
                                          F. Clifton White,
                                         Director, Ashbrook Center.
                                 ______
                                 
    Thank you for the honor of taking part in such a distinguished 
series of lectures. I am honored first because these are John 
Ashbrook's lectures. John was an extraordinary and principled man who 
never did anything halfway.
    I'm honored secondly because it was F. Clifton White himself who 
invited me. To be precise, Clif told me to come, so, of course, I did. 
I am one of the thousands of persons across this county who have 
learned to do what Clif White tells us to do.
    When I set out on my first political venture in 1974 Clif helped 
me. He was already a national hero--the engineer of the Goldwater 
movement; I was a 33-year-old rookie running for governor of Tennessee. 
Unfortunately, it was the Watergate year. For a Republican, my timing 
was just about as good as Caesar's on the Ides of March. But, with 
Clif's help at least I won the Republican primary. Wherever we would 
go, Republicans would come out to see F. Clifton White--and thankfully 
a majority of them remembered to vote for me.
    Clif and I have remained good friends. I've admired his devotion to 
good government, to education and to young people. He has young 
disciples around the world now, learning about government and 
politics--and while I'm not so young anymore, Clif, count me as one of 
those disciples.
    All parents want what is best for their children, especially the 
best education. That is why so many people paid attention when The 
Carnegie Foundation for the Advancement of Teaching recently reported 
that 28 percent of parents said they would like to send their child to 
``some other school, public or private, inside or outside of their 
district.'' \1\
---------------------------------------------------------------------------
    \1\ This report was issued after the speech was given, but before 
final revisions of this text.
---------------------------------------------------------------------------
    This is truly astonishing: 28 percent--parents of at least 12 
million American families--would like to send their child to some other 
school. Nine percent said some other public school; 19 percent said 
some other private school; 2 percent said ``don't know.''
    I want to talk tonight about President Bush's proposal to help 
those 12 million families have the opportunity to find that ``other 
school.'' We call the proposal a ``GI Bill for Children.'' It would 
give $1,000 annual scholarships in new Federal dollars to each child of 
a middle- and low-income family in a participating State or locality. 
Families could spend the scholarships at any lawfully operated school--
public, private, or religious. Up to $500 of each scholarship could be 
spent on ``other academic programs,'' for example, a Saturday program 
to learn more math, or an afternoon program for children with speech 
disabilities, or a summer accelerated course in language or the arts.

        [The] ``GI Bill for Children.'' It would give $1,000 annual 
        scholarships in new Federal dollars to each child of a middle- 
        and low-income family in a participating State or locality.

    Let me emphasize here what most people usually miss: these are 
thousand dollar scholarships that may be spent at any school. That 
means most of the dollars--I would expect more than 75 percent--would 
go to public schools.

        These are thousand dollar scholarships that may be spent at any 
        school. That means most of the dollars--I would expect more 
        than 75 percent--would go to public schools.

    The President's proposal is a demonstration program, but it is the 
largest new program in the fiscal year 1993 Federal budget. It calls 
for a half billion new Federal dollars, enough to provide a scholarship 
for all eligible children (about 60 percent) in 24 cities the size of 
San Jose, or 30 the size of Little Rock or 7 the size of Milwaukee.
    I predict the GI Bill for Children, when enacted, will become much 
more than a demonstration. During the 1990s, it will become the 
principal way the Federal Government helps to change and fund local 
schools. Giving middle- and low-income families new consumer power--
dollars to spend at the schools of their choice--will give families the 
muscle to change the schools and give the schools new dollars to help 
pay for those changes.
    States--discouraged by massive resistance to piece-meal school 
change--will enact legislation chartering thousands of ``break-the-
mold'' schools and academic programs. Then they will create State-
funded ``GI Bills for Children'' that give parents dollars to choose 
among these and other schools and academic programs.
    Such an approach will unite all those who want our children to have 
the best schools in the world: taxpayers, who are reluctant to pour new 
money into a system that is not working; conservatives, who believe 
that parents choosing among schools will introduce competition that 
will make all schools better; and education advocates, who believe 
schools need more money, especially those schools that help children 
from the poorest families. Already, according to Gallup, 70 percent of 
Americans agree it is time to give parents such consumer power--dollars 
to spend at the schools of their choice.
    This solution to the dilemma of parents who want a different school 
for their child seems so obvious that, one would think, this should be 
the end of my speech. It seems fair to give middle- and low-income 
families more of the same choices that wealthy families already have. 
What is more deeply rooted in America than the notion that competition 
helps all competitors improve? Did not the original GI Bill for 
Veterans--now so expanded that about one-half of all 4-year college 
students have a Federal grant or loan--help to create the best system 
of colleges and universities in the world? Why not at least try the 
same idea to help create the best schools in the world?

        [A]ccording to Gallup, 70 percent of Americans agree it is time 
        to give parents such consumer power--dollars to spend at the 
        schools of their choice.

    Surprisingly, what should be apple pie, the American flag, and the 
first plank in any Party's platform has become the most divisive issue 
in American education. Teachers' union leaders are furious. They claim 
``choice,'' which includes all schools, public and private, will 
destroy public education. They have thrown unprecedented resources into 
defeating the President's efforts to literally re-invent our schools 
and give parents choices among them. ``This is a dagger to our heart,'' 
one union leader told me. When I appear before editorial boards trying 
to discuss the President's entire AMERICA 2000 education program, I 
often find myself consuming most of the time arguing with editors who 
have plenty of choices of schools for their own children, yet who worry 
about giving those same choices to parents with less money. Privately, 
educators and others tell me they fear that school choice will hurt 
education, rather than help.
    Perhaps most incongruous of all is the Carnegie report I mentioned 
earlier, the one that found that 28 percent of parents would like to 
send their children to ``some other school.'' The report concludes 
that, although 28 percent of consumer parents are dissatisfied, this 
somehow represents a mandate to keep things the way they are. That is, 
if 70 percent say everything is OK, why change? If we had sent this 
same Carnegie team to Europe 5 years ago, would its members have 
reported that the Berlin Wall was a good idea because only 28 percent 
of East Germans wanted out?
    The Berlin Wall analogy may seem harsh, but is not so far fetched, 
if you step back and think about it. America has stumbled into this 
system where one government agency in each town has been granted the 
franchise to create the only government schools, to operate those 
schools and to tell you which of its schools your child must attend--
unless you have enough money to move to another school district or to 
choose a private school. These well-intentioned local monopolies have 
given us what monopolies in a rapidly changing world might be expected 
to give us--schools in a time warp, schools that stymie teachers and 
too often bore children, schools that leave 28 percent of America 
parents wishing they could send their child to some other school.
    Except for land condemnation, I can think of nothing important in 
the life of law-abiding American citizens quite so coercive as our 
persistent denial of school choice to middle- and low-income families. 
This is certainly not the way America usually operates. What do you 
suppose would happen if some law said you had to drive a Ford instead 
of a Chevrolet? Or live in Cincinnati instead of Cleveland? Or take a 
job as welder instead of a fireman? Or marry this person instead of 
that one? Would it make you feel better if 70 percent of your neighbors 
told you it was good for you to drive the Ford, or live in Cincinnati, 
or be the welder, or marry person X even if you chose to do something 
else? In some countries this has been the norm--not in ours.

        Except for land condemnation, I can think of nothing important 
        in the life of law-abiding American citizens quite so coercive 
        as our persistent denial of school choice to middle- and low-
        income families.

    Congressman Bill Gradison of Ohio, who, with Missouri Senator John 
Danforth, is the principal sponsor of the GI Bill for Children, sits on 
the Ways and Means Committee in the House of Representatives. He has 
noticed that it is common Federal policy to trust poor families to make 
many important decisions for themselves. We don't tell holders of food 
stamps to spend them at only one grocery store, or limit those with 
Medicaid or Medicare benefits to one doctor or one hospital. Two years 
ago Congress gave poor parents vouchers to spend at any day care 
center. And no one would think of telling college students--one-half of 
whom have Federal grants or loans--that they couldn't use those grants 
and loans at Notre Dame, or Brigham Young, or Howard, or Baylor, or 
Yeshiva or any other of our independent or private colleges or 
universities. What would you think if the president of Ohio State went 
to Washington, D.C. and asked Congress not to increase the number of 
Federal grants and loans because some of the students might go to 
Ashland?
    We are talking about something every American parent understands--
wanting the best for your child. Eighty years ago, my grandfather sold 
his Tennessee farm and moved into Maryville so my father could go to a 
better school--a better public school, the same school I attended.
    Over 35 years ago, Bill Clinton's parents drove him into Hot 
Springs, Arkansas, so he could go to a better school--in his case a 
private Catholic school.
    Turn to the real estate ads in any Ohio newspaper. You'll find 
something like this: ``Area 2: four bedrooms. Good schools.'' Ad 
writers know that all parents want what's best for their children.
    So how can we say to parents of 12 million children that what was 
good enough for my father, or for Bill Clinton, or for anyone with 
money is not good enough for their children?
    Before going one step further, it is important to acknowledge those 
who may be thinking, ``Lamar, you are Mr. Johnny-one-note. Choice. 
Choice. Choice. Even if you were right, there is more to an education 
than choice of schools.''
    If that is what you are thinking, you are absolutely right. The 
President agrees with you. I agree with you. Tonight, talking primarily 
about the ``GI Bill for Children'' and choice, I feel a little like the 
preacher, who is on fire to preach the whole Bible, but who knows that, 
because he only has a half hour, he must pick one chapter. The whole 
Bible in my case would be AMERICA 2000, the President's revolutionary 
strategy to help America reach its six National Education Goals.
    I could preach about how the President helped set a new direction 
for American education, called the Governors together in an historic 
summit in 1989, and established ambitious education goals, the first in 
our country's history.
    Or, I could spend the entire evening talking about how education 
begins at home, with families who check homework, turn off the TV, love 
and read to their children, and instill values.
    Or, there is a mighty lesson in AMERICA 2000 itself, a unique 
partnership of the President and the Governors to move community by 
community toward the education goals. Just last week, more than 2,500 
communities were a part of the largest TV Satellite town meeting in our 
country, meeting at the same time from Anchorage to Miami, working on 
those goals. We believe in the African proverb: ``It takes an entire 
village to educate one child.''
    I could preach a chapter on Federal funding: how the President has 
doubled Head Start to reach more 4-year-olds; about record levels of 
spending for college grants and loans; $2.1 billion redirected toward 
math, science and technology education at all levels; Federal funding 
for education under President Bush rising faster than State funding.
    I could preach a chapter on the revolution to help thousands of 
communities start from scratch to create ``break the mold'' schools, 
the nearly 700 design teams that the New American Schools Development 
Corporation has inspired to help those communities, the $200 million 
business is raising to fund the design teams.
    Perhaps the most important chapter is on world-class standards--the 
national standards in at least 7 core subjects that will be ready by 
1994-95.
    I could talk about the President's efforts to get government off 
the teacher's backs, giving them flexibility in their use of Federal 
and State education dollars.
    There is no silver bullet and no quick fix in education. But if we 
are successful in literally reinventing thousand of very different 
schools and academic programs with high standards, and giving these 
schools autonomy, we certainly won't assign children to these schools 
will we? These schools will attract children. Parents will choose the 
schools, and by their choices help to keep standards high, to provide 
additional funds, and to help make those schools the best in the world.
    And if the American dream means making as many of these choices as 
possible available to all children, then a ``GI Bill for Children'' 
seems inevitable--otherwise only parents with money will have a wide 
range of choices of these new schools and academic programs.
    Here is how the ``GI Bill for Children'' would work. Let's say that 
Maria, age 30, likes her job at the hospital. But she is worried about 
her son David, age 11. The school board has assigned David to P.S. 23. 
Some children there have weapons. The teacher has decided David can't 
learn. The school closes at 3 p.m., although Maria, a single parent, 
works until 6 p.m.
    Under the President's plan, since Maria makes less than $46,000 a 
year (the median income in her State), David would receive a $1,000 
scholarship each year. Maria could use that scholarship at any lawfully 
operated school or other academic program that she thinks best meets 
David's needs.
    Let's say the city where Maria lives is about the size of Akron, 
where 39,700 children attend elementary and secondary schools, 24,300 
of whom are from middle- and low-income families. Maria's city could 
therefore obtain $24 million from the Federal Government--enough money 
to give each child the $1,000 scholarship. In order to receive the 
money the city would have to agree, first, to take significant steps to 
open its public schools to David and other children and, second, to let 
Maria spend David's $1,000 scholarship at any lawfully operating 
school--public, private or religious that wishes to participate.
    In Maria's home town, the GI Bill for Children could create at 
least five new school choices for David--plus create new choices of 
public schools for all children.
    New Choice Number One: A different public school. Maria's co-
workers have told her about public schools in a district where children 
feel safe and where an accelerated learning program created by Stanford 
Professor Henry Levin helps at-risk children learn to high standards. 
These schools stay open until 7 p.m. With the $1,000 scholarship, Maria 
could pay for David's 30-minute bus ride to the new school. The rest of 
the money would follow David to that school. Maria would pick up David 
when she leaves her job at 6 p.m. The drive home would provide 30 
minutes of opportunity for conversation, something not always easy with 
an 11-year-old.
    New Choice Number Two: St. Mary's, the Catholic School one block 
away. Most of the kids at St. Mary's are David's neighborhood friends; 
most are from low-income families; only a few are Catholic. The tuition 
is $750 a year.
    New Choice Number Three: The same public school, P.S. 23, greatly 
changed. The district superintendent asks Maria and her neighbors: 
``What will it take to keep David and the others and their $1,000 
scholarships in our neighborhood? Why drive across town? With our 
$5,500 per student in public funds (the national average)--plus your 
$1,000 scholarships--we should be able to have a much better school 
than the Catholic school or the public accelerated learning school 
across town.'' The superintendent and the parents talk about guns in 
schools, about teachers who don't believe all children can learn, about 
the lack of arts and music, about why the school and the playground are 
locked in the afternoons, on Saturday and in the summer. The 
superintendent promises change.
    New Choice Number Four: A new school at the hospital where Maria 
works. The hospital announces it will create on-site from scratch ``one 
of the best schools in the world'' for its employees and their 
families. It will be very different: child care for baby, sixth grade 
for David, language and math for Maria, open every day, all year from 7 
a.m. to 10 p.m. This is good business, it attracts and keeps good 
employees, and it reduces absenteeism when kids are sick. To operate 
this ``break-the-mold school'', the hospital forms a partnership with 
the public school district, a private school management company, and a 
design team from the non-profit New American Schools Development 
Corporation. The hospital will contribute the site and the start-up 
costs, the public school system will permit its $5,500 to follow each 
child to the site, and the employees' children will contribute their 
$1,000 GI Bill scholarships. The hospital will apply for planning money 
that the President has asked Congress to appropriate for jump starting 
the first 500 such New American Schools.
    New Choice Number Five: Other academic programs. This is new and 
exciting. Maria can spend up to $500 of her scholarship to pay for 
special academic programs that help David with his speech problem. This 
way, David can attend the after-school academic programs at the 
Catholic school, even though he (and his remaining $500) stay at P.S. 
23 for the regular school day.
    The opponents of the ``GI Bill for Children'' seem determined to 
dredge up every possible scare tactic to discredit it. Let me mention a 
few of these.

        The opponents of the ``GI Bill for Children'' seem determined 
        to dredge up every possible scare tactic to discredit it.

    <bullet> ``Not enough money,'' they say. But this is half-a-billion 
dollars, for 500,000 children, the largest new program in the Federal 
budget for fiscal year 1993. It is a much bigger beginning than, for 
example, the first Head Start program in 1965.
    <bullet> ``What can $1,000 buy?'' A trip across town to a better 
public school, an after-school academic program, a private school 
education. (The average tuition at a Catholic elementary school is 
about $1,000, and over half of all private school students are enrolled 
in Catholic schools.)
    <bullet> ``Hurts public schools.'' But all this money can go to 
public schools--if they can attract the students. The mayor of 
Milwaukee recently told the president, ``The GI Bill for Children will 
hurt public schools in the same way the original GI Bill hurt public 
universities: it will help to make them the best in the world.''
    <bullet> ``Helps the rich,'' they say. Wrong. This money goes only 
to those children who live in middle- and low-income families.

        ``The GI Bill for Children will hurt public schools in the same 
        way the original GI Bill hurt public universities: it will help 
        to make them the best in the world.''

    <bullet> ``Violates the separation of church and State,'' some say. 
Wrong again. This is aid to families; not aid to schools. No one told 
the G.I.s at the end of World War II they couldn't go to Holy Cross, or 
SMU, or Brigham Young, or Yeshiva, or Howard. Many GIs, in fact, used 
the original GI Bill to get their high school diplomas from Catholic 
schools.
    <bullet> ``Poor families can't make good decisions.'' This is most 
often said by rich people with lots of choices. President Bush says, 
``Trust the parents, instead of the government.''

        President Bush says, ``Trust the parents, instead of the 
        government.''

    ``What about discrimination?'' GI Bill money can only follow 
children to lawfully operated programs; there are anti-discrimination 
provisions relating to race, disability and gender.
    Considering all this, will the school board of say, Akron, or 
Maria's hometown--which now receives about 8.5 million dollars in 
Federal education grants--still reject 24 million in new Federal 
dollars for its children who need the most help just because non-
government schools might attract some of the children?
    Just the other day someone gave me an article from the August, 
1968, issue of Psychology Today entitled, ``A Proposal for a Poor 
Children's Bill of Rights.'' The proposal was to give a Federal coupon 
to perhaps up to 50 percent of American children through their parents 
to be spent at any school. ``By doing so,'' the authors write, ``we 
might both create significant competition among schools serving the 
poor (and thus improve the school) and meet in an equitable way the 
extra costs of teaching the children of the poor.'' The authors were 
Theodore Sizer and Phillip Whitten. Ted Sizer, of course, is today one 
of America's most respected and pioneering educators, Dean of the 
College of Education at Brown University, leader of the coalition of 
Essential Schools.
    1968 was a long time ago. Lyndon Johnson was President. ``Power to 
the people'' was the battle cry. Sizer and Whitten went back much 
earlier than that:

        ``The idea of such tuition grants is not new. For almost 2 
        centuries variant proposals for the idea have come from such 
        figures as Adam Smith, Thomas Paine, John Stuart Mill and more 
        recently from Milton Friedman. Its appeal bridges ideological 
        differences. Yet it had never been tried, quite possibly 
        because the need for it has never been so demonstrably critical 
        as now.''

    The authors quoted Mario Fantini of the Ford Foundation, who spoke 
of a `` `. . . parents lobby with unprecedented motivation . . . [with] 
a tangible grasp on the destiny of their children.' The ability to 
control their own destinies definitely will instill in poor people a 
necessary pride and dignity of which they have been cheated.''
    And what about the argument that this scheme might destroy the 
public schools? Sizer and Whitten said:

        ``Those who would argue that our proposal would destroy the 
        public schools raise a false issue. A system of public schools 
        which destroys rather than develops positive human potential 
        now exists. It is not in the public interest. And a system 
        which blames its society while it quietly acquiesces in, and 
        inadvertently perpetuates, the very injustices it blames for 
        its inefficiency is not in the public interest. If a system 
        cannot fulfill its responsibilities, it does not deserve to 
        survive. But if the public schools serve, they will prosper.''

    Since 1987, we have watched in amazement how rapidly the rest of 
the world is seeking to emulate the American way of life. Everywhere in 
the world, freedom, choice, and opportunity have become the principles 
upon which are built the answers to the most basic human questions. 
Around the world, nothing is quite so much in disfavor as government 
monopolies of important services.
    Even in Poland, the government is now giving families more choices 
of all schools, including private schools, as a way of extending 
opportunity and improving their system of education. Yet, remarkably in 
America school monopolies still close doors to poor children. Would it 
not be ironic if America were the last to try our own ideas?

        Even in Poland, the government is now giving families more 
        choices of all schools, including private schools, as a way of 
        extending opportunity and improving their system of education. 
        Yet, remarkably in America school monopolies still close doors 
        to poor children. Would it not be ironic if America were the 
        last to try our own ideas?

    It is time for local school boards to think of themselves 
differently, as overseer of a system that offers families the widest 
possible range of choices of the best schools, in somewhat the same way 
that an airline looks at its responsibility to offer travelers a wide 
range of opportunities. The airline does not insist upon inventing or 
designing or building its airplanes. It does not insist on owning them. 
It does not even insist upon making reservations. The airline conceives 
its job as making sure that every traveler who wants to fly has a 
widest range of attractive choices at a reasonable cost and its 
passengers can get from A to B safely and on time.
    We should think of a system of public education in much the same 
way. The managers of that system should think of themselves as in 
charge of making sure that every single child has the broadest possible 
number of options at a reasonable cost to enroll in the best schools 
and academic programs, to help each child do that safely, and to leave 
the school having learned what the child needs to know to live, work 
and compete in the world.
    Already many school boards are thinking in this way. Dade County 
(Miami) is putting more elementary schools in hospitals, creating as 
many as 50 break-the-mold schools as it rebuilds after Hurricane 
Andrew. Honeywell has a high school in its corporate headquarters in 
St. Paul. Down the street, there is a kindergarten in a bank. Baltimore 
has hired a private company to help manage nine public schools. 
Minnesota school boards have long had ``contract schools'' that others 
design and operate. California has just authorized 100 ``charter'' 
schools designed by teachers and others, free of the usual regulations. 
Why not invite museums, corporations, groups of teachers, libraries, 
places of business to design and operate schools that arc the best in 
the world and let those schools attract our children? Why employ our 
most creative people only when we want to create missiles that will 
find their way down smokestacks?
    I have a prediction and a suggestion.
    The prediction is that by the time our fifth graders, the class of 
2000, are seniors, school choice will not be an issue. Much of this 
fury will subside as soon as educators read the President's legislation 
and begin to realize--as most do not now--that all of the money can go 
to public schools and most of it will. This is a lot of money--for 
example, in the average elementary school in Akron, 360,000 new dollars 
every year without strings to a school of 600 students. It will be hard 
for a school district to turn its back on this money for the poorest 
Americans when its only reason for doing so is that some of these poor 
families might choose to change from one school to a school that is 
better for their children.

        The prediction is that by the time our fifth graders, the class 
        of 2000, are seniors, school choice will not be an issue.

    Watch for California to lead the way as it grapples with enormous 
challenges to its education system. According to Education Secretary 
Maureen Demarco, 200,000 new children--more than attend all the schools 
in Detroit--will arrive in California schools every year. Twenty-two 
percent of the children in California schools don't speak English. 
Something has to give. The school structures were never designed for 
such challenges. Drastic changes--and more money--will be required.
    California's response this year was to enact legislation creating 
100 charter schools, taking off State and union rules, and inviting 
teachers to create new schools that meet the needs of children. 
California also tried to create vouchers for its exiting schools by 
referendum, which did not quite secure the necessary number of valid 
signatures to get on the ballot. (But the referendum is slated for 
consideration in 1994.) What if California combined the demand for 
different kinds of schools, the demand for school choice, and the 
demand for new funds into a single movement: chartering 1,000 new 
schools each year for the next 10 years, and establishing a California 
GI Bill for Children creating scholarships that parents could use at 
any California school? The Federal GI Bill for Children could then 
supplement California legislation by providing additional dollars for 
parents of middle- and low-income children.

        What if California combined the demand for different kinds of 
        schools, the demand for school choice, and the demand for new 
        funds into a single movement: chartering 1,000 new schools each 
        year for the next 10 years, and establishing a California GI 
        Bill for Children creating scholarships that parents could use 
        at any California school?

    Which leads me to my suggestion. This one is for some Ashbrook 
Scholar who will be writing a thesis in the year 2000, when today's 
fifth graders are seniors. Make your subject parental choice of 
schools. By then, it will be a matter of history. Your colleagues will 
wonder along with you as you examine this strange era when we granted 
government monopolies control of the most valuable and important 
enterprises in town, and so many people fought furiously to keep doors 
to many of the best schools closed to poor children. Your colleagues 
will ask, how could this have ever happened in America, at a time when 
the ideas of freedom, choice and opportunity were sweeping the rest of 
the world? It will be your challenge as a scholar at the Ashbrook 
Center to help them understand why.

                            ABOUT THE AUTHOR

    On January 22, 1991, President Bush nominated Lamar Alexander as 
U.S. Secretary of Education. He was unanimously confirmed by the Senate 
on March 14, 1991.
    Immediately before taking office, Secretary Alexander was president 
of The University of Tennessee, a position he had held since July 1988. 
He served as governor of Tennessee from 1979 to 1987. As Chairman of 
the National Governors' Association, he led the 50-State education 
survey, Time for Results. In 1988 the Education Commission of the 
States gave him the James B. Conant Award for ``distinguished national 
leadership in education.''
    He is a Phi Beta Kappa graduate of Vanderbilt University and was a 
law review editor at New York University. He was born July 3, 1940. He 
and his wife, Honey, have four children: Drew, 21; Leslee, 19; Kathryn, 
17; and Will, 12.

    Senator Alexander. And, finally, I would include a copy of 
the legislation itself from which we might learn some things 
about developing legislation that involves elementary and 
secondary schools.
    [This legislation is maintained in the subcommittee files.]
    [The prepared statement of Senator Alexander follows:]

                Prepared Statement of Senator Alexander

    If we have the best colleges, why don't we have the best 
schools?
    One reason is the different way we spend Federal dollars on 
colleges than on local schools.
    Federal funding for colleges follows students. This year 
$14 billion in ``Pell grants'' and work study and $52 billion 
in Federal student loans follow 60 percent of American college 
students to the institutions of their choice. As a result, 
colleges compete for students just as they do for research 
dollars and faculty.
    This method of Federal funding for college students began 
with the GI Bill for veterans in 1944. Pell grants, Stafford 
loans and other forms of Federal financial assistance followed. 
Rarely has the taxpayer gotten so much bang for the buck. These 
Federal vouchers have made it possible for a greater percentage 
of Americans to continue into higher education than in any 
other country. Competition for these students, faculty and for 
$19 billion a year in Federal research dollars is a major 
reason why Shanghai University's recent list of the 100 best 
college and universities in the world included 81 from the U.S.
    Federal funding for elementary and secondary education has 
taken just the opposite approach. Instead of allowing tax 
dollars to follow students to the schools of their parents' 
choice, the Federal Government gives $35 billion directly to 
the schools themselves (or to the States, which then give it to 
schools). Along with these dollars come plenty of Federal and 
State regulations.
    Measured by student learning, rarely has the taxpayer 
gotten so little bang for the buck. In 1999, 8th grade students 
in this country were ranked 19th in math and 18th in science 
among 38 industrialized countries. We continue to be 
disappointed because Federal dollars do not encourage 
competition for students, and Federal regulations smother the 
autonomy of schools.
    So why not try in our schools what has worked in our 
colleges? Why not try ``Pell Grants for Kids''?
    I propose annual $500 scholarships that would follow every 
middle- and low-income child in America to the school or other 
approved academic program of his or her parents' choice. 
Parents could use these Pell grants to help their schools pay 
for more English teachers or art programs or after school math 
sessions--or parents could purchase such lessons or other 
services that schools don't provide.
    Pell Grants for Kids would:
    <bullet> Provide more Federal dollars for schools with 
fewer Federal strings;
    <bullet> Help pay for the requirements of No Child Left 
Behind;
    <bullet> Reduce school-by-school inequity in funding;
    <bullet> Avoid increased Federal regulation of schools as 
Federal funding inevitably increases;
    <bullet> Give parents more say and more choice in the 
education of their children.
    Since about 60 percent of all children would be eligible 
for Pell grants, this could mean quite an infusion of 
unrestricted dollars. For example, in a middle school of 600, 
if 400 students were eligible, $200,000 a year in new dollars 
would allow the school to add teachers, classes, programs--or 
which the parents could buy from other providers if the school 
did not offer it.
    We should fund Pell Grants for Kids gradually, only with 
new Federal dollars. No program need be cut. When Congress 
substantially increases the amount of money for title I (which 
we have by $4 billion since President Bush took office), 
instead of giving it directly to schools, let parents choose 
how to spend it. A new appropriation of $2.5 billion, for 
example, would provide enough money for every middle- and low-
income kindergarten and first grade student to receive a $500 
scholarship.
    This idea has a long, bipartisan history. In 1979, 
Democratic Senators Moynihan and Ribicoff introduced 
legislation that would have made elementary and secondary 
students eligible for Pell grants. In 1992, when I was U.S. 
Education Secretary, President George H.W. Bush proposed a ``GI 
Bill for Kids'' which would have provided $1,000 scholarships 
in a pilot program under similar guidelines.
    On Thursday, July 15, I will chair a hearing in the Senate 
Health, Education, Labor, and Pensions Committee exploring how 
to best write legislation that would establish ``Pell Grants 
for Kids'' This fall, I hope to work with interested Members of 
Congress to write that legislation and introduce it next year.
    If letting scholarships follow students to the colleges of 
their choice helped us build the best university system in the 
world, then why not use the same idea to help create the best 
schools?

    Senator Alexander. Senator Reed.

               OPENING STATEMENT OF SENATOR REED

    Senator Reed. Well, thank you very much, Mr. Chairman, and 
I thank you for your efforts in this regard, not just here on 
the subcommittee, but as the Secretary of Education in a 
previous administration and president of the University of 
Tennessee. You bring a thoughtful and very sincere approach to 
try to deal with the issue that has been, as you indicated in 
your opening statement, with us for decades now.
    One point I would like to make, and you have made it quite 
succinctly, is that the essence of your proposal is a Federal 
voucher program. That raises concerns, I think legitimate 
concerns. Another point I would like to make, and I know you 
are using this as shorthand because it is such a powerful 
image, but I think comparing a Pell Grant for higher education 
with a Federal voucher for elementary and secondary education 
misses some significant differences between the educational 
experience at college and beyond and elementary and secondary 
education, and I think it is important to recognize these 
differences. The most obvious one, of course, is that 
elementary and secondary education is compulsory. Higher 
education is not. Routinely, colleges choose who they want to 
accept based upon different criteria. In any public education 
system, schools have a mandate to educate every child, and that 
I think is a profound difference. We also recognize, I believe, 
that the resources existing today for public education provided 
at every level, Federal, State, and local, are not sufficient 
yet to fulfill the higher expectation and the high quality that 
we all demand.
    I think another aspect of this notion of choice is the fact 
that choice is limited in respect to elementary and secondary 
education by the fact that you generally are eligible to go to 
school in the place you live, but not in other places, and if 
we are talking about real choice for parents, I do not know if 
this proposal requires every school system to accept every 
child regardless of where they live. If they do, I think that 
will be a dramatic change to public education in the United 
States. But, effectively, every college that considers an 
applicant under a Pell Grant, I do not believe can discriminate 
based upon where that person lives in this United States. This 
is just one example of, I think, the profound differences 
between higher education and elementary and secondary 
education, and to make an appealing, but I think perhaps 
oversimplified, analogy between the Pell Grant or the GI Bill 
and a Federal voucher program for elementary and secondary 
education is a disservice as we go forward.
    There is also the suggestion that this just goes to the 
child and that the institutions are sort of passive recipients, 
they just cash the checks. In fact, we require colleges who 
participate in the Pell Grant Program to be subject to the 
Federal civil rights laws, including Title VI of the Civil 
Rights Act of 1964 which prohibits discrimination on the basis 
of race, color, and national origin; Title IX of the Education 
Amendments of 1972 which prohibits sex discrimination; Section 
504 of the Rehabilitation Act of 1973 which prohibits 
discrimination on the basis of disability; Title II of the 
Americans with Disabilities Act of 1990 which prohibits 
disability discrimination by public entities whether or not 
they receive Federal financial assistance; and the Age 
Discrimination Act of 1975.
    One of the aspects of private elementary and secondary 
education is the right of such schools to make principle 
choices about who they want to educate because they are private 
entities. They are not generally required to follow all of 
these restrictions as are colleges. In addition, we require 
that institutions of higher education maintain a rather 
significant infrastructure to monitor all the money that the 
students bring into them. They have to have rules on fund 
management they have to follow. They have to demonstrate 
financial responsibility and administrative capability to 
handle these funds and other mandates imposed by Congress, many 
of them in response to examples of fraud that we witnessed. In 
fact, Mr. Chairman, I think you were Secretary during the many 
hearings about the abuses of Pell Grants by proprietary schools 
in particular.
    So as a result, again, I think we come to a situation where 
the analogy might be appealing on the surface, but as you look 
below, the analogy is not precise and is not compelling. It 
does represent, I think when you strip away the Pell name, a 
proposal which has been made before, and there are principle 
arguments on both sides regarding providing vouchers to private 
schools by the Federal Government. There is another issue here 
too, and that is the issue of sectarian schools, and there is a 
difference, I think, between a college like Providence College, 
Boston College or Notre Dame educating a student, and an 
elementary or secondary school with a sectarian curriculum, of 
which I am a product. There are differences in terms of the 
educational process and the maturity of the student. There are 
a host of differences.
    And, in fact, the Supreme Court, in validating Pell Grants 
for religious-based schools, essentially made that distinction. 
I believe the case is Hilton v. Richardson where the Court said 
because the religious indoctrination is not a substantial 
purpose of the church-related colleges, it is less likely than 
with primary and secondary schools that you will have a 
sectarian-driven curriculum. Again, having been a graduate of a 
Catholic school, I can tell you the nuns were pretty insistent 
about the curriculum, the doctrine, and the dogma, and that, I 
think, raises significant issues, Constitutional issues.
    Then there is funding. We have talked about these issues, 
and I appreciate that the Chairman would not present this as a 
way to take money away from existing programs, but inevitably 
the money comes from some place. It comes from either 
additional resources for title I or other existing or any new 
program, and that is the case if this is a voucher program for 
Federal funds or it is a proposal to give more money to school 
libraries. The money has to come from some place.
    And just in conclusion, I would point out that Senator Pell 
had an opportunity to vote on some of these proposals. Senator 
Hatch proposed an amendment, as did Senator Coats, to create a 
demonstration program for vouchers, and Senator Pell made the 
point better than I can make it. He said: ``Our scarce Federal 
resources should be directed to meeting those needs which are 
particularly acute in our public schools. We must make those 
schools truly the best in the world.''
    ``Unfortunately, public and private schools do not compete 
on an even playing field. Public schools must accept all 
students. Private schools may turn down or expel students with 
behavior problems, disabilities, or academic problems. The 
demonstration program proposed by the Senator from Utah will 
not change that situation and will not, therefore, be a true 
test of choice.''
    So again, I think this hearing is more than appropriate. 
This is an important opportunity to talk about these issues, 
but I do think, Mr. Chairman, we should begin to call these the 
Alexander Grants.
    Thank you.
    Senator Alexander. That is very generous of you, Senator, 
but I am still a freshman, and what we call the grants is not 
as important, and as Senator Reed knows, I am calling them Pell 
Grants for Kids really as a working title out of respect to the 
former Chairman of the Education Subcommittee here.
    I very much appreciate your comments, Senator, and this 
will be a long discussion. You have made a lot of good points. 
Thank you for coming by. I will not take the witnesses' time 
now to go back over those, except to say one thing just for the 
record.
    Your point about Federal regulations that affect civil 
rights or disabilities is a good point and one which we ought 
to be thinking about over the next several months. In President 
Bush's proposal in 1992 for the GI Bill for Kids, it 
specifically provided that any school or provider of academic 
services under the Act had to comply with the anti-
discrimination provisions of Title VI of the Civil Rights Act 
of 1964 and Title IX of the Education Amendments of 1972 and 
Section 504 of the Rehabilitation Act of 1973, which are the 
disability laws. So I take your point. I think you have made a 
good point about that and that ought to be thought about.
    Now I will give the witnesses who have distinguished 
backgrounds very brief introductions. In fact, if I do not find 
the paper, they will be extremely brief.
    I will introduce all four of you and then ask you just to 
testify one after the other.
    Michael Bell is Assistant Superintendent for School Choice 
and Parent Options for Miami-Dade County Public Schools in 
Miami, FL. Catherine Hill is a parent with the District of 
Columbia Parents for School Choice in Washington, D.C., whose 
children have attended schools in the D.C. system. Paul 
Peterson is Director of the Program on Education Policy and 
Governance at Harvard University in Cambridge, MA, and has 
written a great deal about education. He is a professor of 
government, and he has been a scholar of school choice in this 
country. Ms. Darlene Allen is the president of the District of 
Columbia Parent Teachers Associations. She has been a member of 
the PTA for more than 20 years. She says she became involved in 
1996 when she volunteered to become the parent coordinator of 
her son's junior high school PTA and nobody else wanted the 
job.
    Now, there is much more I could say about each of the four 
of you, but I would rather let you speak for yourselves in the 
time you have available. So why don't we start with you, Mr. 
Bell.

STATEMENT OF MICHAEL BELL, ASSISTANT SUPERINTENDENT FOR SCHOOL 
  CHOICE AND PARENT OPTIONS, MIAMI-DADE COUNTY PUBLIC SCHOOLS

    Mr. Bell. Thank you, Senator Alexander.
    As you said in the introduction, my name is Michael Bell, 
Assistant Superintendent of Miami-Dade County Public Schools, 
accountable for school choice and parental options in the 
fourth largest school district in the Nation. I appreciate the 
opportunity to appear before you today and share my experiences 
undertaken to provide students with the opportunities to access 
educational venues that more appropriately match their 
interests and abilities. These options reflect not only special 
programs, but schools that have proven more effective in 
nurturing successful students.
    It is my particular endeavor to reach out and encourage 
those students that require guidance in making their 
aspirations a reality. I am enthusiastic about the 
possibilities that the Pell Grant for Kids entails in enhancing 
the prospects of struggling individual students and the 
realization of the educational vision of our Nation.
    The Pell Grant for Kids is an opportunity to successfully 
provide appropriate and effective academic experiences for the 
astounding 60 percent of school-age children whose family 
income is below the State median level. In the State of 
Florida, the percentage of school-age children from low-income 
families is 68 percent. The disparity between the academic 
performance of this group, primarily minority children, and 
their wealthier peers is gradually increasing.
    Robert F. Ferguson, writing in the May 2004 ``Phi Delta 
Kappan'' warns that ``achievement disparities among today's 
students foreshadow socioeconomic disparities among tomorrow's 
families and melee the foundation for a politically dangerous 
future of our society.'' Decades of intervention with Federal 
funding to the school systems accompanied by controls have 
proven inadequate. The Pell Grant for Kids model is generated 
by the significantly successful Pell Grant for college students 
and addresses the same factors.
    Empowering middle- and low-income children to emulate 
wealthier families in enrolling in institutions of their choice 
stimulates not only the students, but prompts the schools to be 
more effective as a consequence of the competition for 
increased funding due to Pell Grant enrollment.
    In 1998, Miami-Dade created an administrative division 
designated as school choice and parental options to assist 
parents in navigating the broad range of possibilities being 
offered. This department evaluates, implements, and analyzes 
programs under its aegis, assisting parents in accessing an 
appropriate placement for their child. It also develops new 
concepts in response to identified needs and encourages 
community involvement. In so doing, school choice and parental 
options is closing the achievement gap between the children of 
affluent parents and those of the low socioeconomic group. This 
was also documented in our school district's choice achievement 
report last year.
    The money from the Pell Grant for kids would allow each 
recipient to facilitate his or her participation in a program 
or a school of choice. While enrollment does not hinge on a 
financial requirement, other factors such as a need for 
tutoring to enhance substandard skills in order to survive a 
more challenging academic setting, the purchase of uniforms, 
payment of fees for after-school enrichment programs, and 
enrollment in intensive language programs, purchase of devices 
such as calculators or musical instruments, computers with 
Internet access, and the list goes on and on, all of these draw 
from discretionary funds that are not available in lower-income 
households. These factors are inherent in the success of the 
more affluent students and add to the disadvantage of the 
struggling child.
    Furthermore, exercising the right to enroll in a school of 
choice often entails accepting responsibility for transporting 
students by the parents. This cost often precludes 
consideration for such opportunities.
    A Pell Grant for kids would diminish or eliminate many of 
the above hindrances and make a more level playing field for 
all of our children. We cannot know how many capable, diligent, 
and even gifted children have been confined to a minimal 
realization of their potential, denying the individual and our 
Nation of the possibilities of great achievement. A Pell Grant 
for Kids could be instrumental in dramatically re-writing the 
future of a particular student and through him or her the 
society that he or she will impact throughout life.
    A dramatic example of intervention of this sort is 
illustrated in the experience of the 2003 valedictorian of 
North Miami Beach Senior High School. North Miami Beach has a 
biomedical environmental studies magnet program in which this 
student was excelling her peers. The faculty noticed that she 
remained at school every evening until as late as she was 
allowed to in order to access the Internet. She was a member of 
an impoverished household that could not afford a computer. Due 
to time limitations, she was unable to inform herself to the 
extent her classmates did with their own home computers and 
began falling behind. Distressed by this development, the 
teachers took up a collection and purchased a secondhand 
computer for her to use at home, which proved critical to her 
ultimate academic triumph.
    This student was both deserving and fortunate. Fortunate, 
however, is not an acceptable component of our educational 
system. If we help to avoid the worst case scenario of a future 
comprised of a significant proportion of low socioeconomic 
families draining our resources and threatening our security, 
we must empower today's students to access the most effective 
education possible.
    And I know that my time is up, and I would like to thank 
you for that, and you can read my full testimony which is on 
record.
    [The prepared statement of Mr. Bell follows:]

                   Prepared Statement of Michael Bell

    I am Michael Bell, Assistant Superintendent of Miami-Dade County 
Schools, accountable for School Choice and Parental Options in the 
fourth largest school district in the Nation. I appreciate the 
opportunity to appear before you today and share my experiences 
undertaking to provide students with opportunities to access 
educational venues that more appropriately match their interests and 
abilities. These options reflect not only special programs but schools 
that have proven more effective in nurturing successful students. It is 
my particular endeavor to reach and encourage those students that 
require guidance in making their aspirations a reality. I am 
enthusiastic about the possibilities that The Pell Grant for Kids 
entails in enhancing the prospects of struggling individual students 
and the realization of the educational vision of our Nation.
    The Pell Grant for Kids is an opportunity to successfully provide 
appropriate and effective academic experiences for the astounding 60 
percent of school age children whose family income is below the State 
median income. In the State of Florida, the percentage of school age 
children from low income families is 68 percent. The disparity between 
the academic performance of this group, primarily minority children, 
and their wealthier peers is gradually increasing. Robert F. Ferguson 
writing in the May 2004 Phi Delta Kappan warns that achievement 
disparities among today's students foreshadow socioeconomic disparities 
among tomorrow's families and may lay the foundation for a politically 
dangerous future of our society. Decades of intervention with Federal 
funding to the school system accompanied by controls have proven 
inadequate. The Pell Grant for Kids model is generated by the 
significantly successful Pell Grant for college students and addresses 
the same factors. Empowering middle- and low- income children to 
emulate wealthier families in enrolling in institutions of their choice 
stimulates not only the students but prompts the schools to be more 
effective as a consequence of the competition for increased funding due 
to Pell Grant enrollment.
    The 1971 school desegregation order prompted Miami-Dade County 
Public Schools to create a magnet school program which offers a wide 
range of school options that have been successful in diminishing 
concentrations of low-income students and improving student 
achievement. Federal funds originally made available to effect 
desegregation have largely diminished in availability. Programs such as 
Schools of Choice are one of the first to be impacted by challenges to 
the school budget. The Pell Grant for Kids would address this 
situation.
    Our magnet program today is comprised of 70 magnet programs. 
Educational options have been expanded to include 31 charter schools, 
16 controlled choice schools, two satellite schools hosted by major 
employers on their sites, and a Voluntary Public School Choice program, 
``I Choose!''. There are currently 13 ``I Choose!'' schools operating 
in the system that offer parents unique programs and facilities that 
mitigate toward higher student achievement. As of the 2004-2005 school 
year, approximately 14 percent of the total school population are 
participating in public school choice. The success of Miami-Dade County 
School Choice programs was recognized by the United States Department 
of Education, when it selected it as one of the top five school 
districts in the country. In 1998 Miami-Dade created an administrative 
division designated as School Choice and Parental Options to assist 
parents in navigating the broad range of possibilities being offered. 
This department evaluates, implements, and analyzes programs under its 
aegis, assists parents in accessing an appropriate placement for their 
child, develops new concepts in response to identified needs, and 
encourages community involvement. In so doing, School Choice and 
Parental Options is closing the achievement gap between the children of 
affluent parents and those of the low economic group which was 
documented in the district's Choice Achievement Report 2003.
    According to a study by Gary Orfield and Susan E. Eaton published 
in 1996, the actual benefits to low achieving students enrolled in 
schools serving a more affluent population ``come primarily from access 
to the resources and connections of institutions that have always 
received preferential treatment, and from the expectations, competition 
and values of successful middle-class educational institutions that 
routinely prepare students for college.'' These findings would suggest 
that enabling students from financially disadvantaged families to 
enroll in schools of choice rather than those that reflect the 
environment of their residences is of critical importance. Supporting 
this position is research done in 1994 by Amy Stuart Wells and Robert 
Crain in the St. Louis metropolitan area in which it was determined 
that 24 percent of all students enrolled in central city public schools 
graduated from high school contrasted with 50 percent of their fellow 
students attending suburban schools.
    The money from the Pell Grant for Kids would allow each recipient 
to facilitate his or her participation in a program or school of 
choice. While enrollment does not hinge on a financial requirement, 
other factors such as a need for tutoring to enhance substandard skills 
in order to survive in a more academically challenging setting, 
purchase of uniforms, payment of fees for after school enrichment 
programs, enrollment in intensive language programs, purchase of 
devices such as calculators or musical instruments, computers with 
Internet access, etc. draw on discretionary funds that are not 
available in lower income households. These factors are inherent in the 
success of the more affluent students and add to the disadvantage of 
the struggling child. Furthermore, exercising the right to enroll in a 
school of choice often entails accepting the responsibility for 
transporting students by the parents. This cost often precludes 
consideration of opportunities. A Pell Grant for Kids would diminish or 
eliminate many of the above hindrances and make more level the playing 
field for all of our children.
    We cannot know how many capable, diligent, and even gifted children 
have been confined to a minimal realization of their potential denying 
the individual and our Nation the possibilities of great achievement. A 
Pell Grant for Kids could be instrumental in dramatically rewriting the 
future of a particular student and through him or her, the society that 
he or she will impact throughout life. A dramatic example of 
intervention of this sort is illustrated in the experience of the 2003 
Valedictorian of North Miami Beach High School. North Miami Beach has a 
Bio-Medical/Environmental Magnet Program in which this student was 
excelling her peers. The faculty noticed that she remained at school 
every evening until as late as she was allowed in order to access the 
Internet. She was a member of an impoverished household that could not 
afford a computer. Due to time limitations, she was unable to inform 
herself to the extent that her classmates did with their home computers 
and began falling behind. Distressed by this development, her teachers 
took up a collection and purchased a secondhand computer for her to use 
at home which proved critical to her academic triumph. This student was 
both deserving and fortunate. ``Fortunate'' is not an acceptable 
component of our educational system.

                               CONCLUSION

    If we hope to avoid the worst case scenario of a future comprised 
of a significant proportion of low socioeconomic families draining our 
resources and threatening our security we must empower today's students 
to access the most effective education possible. Our history of funding 
schools to accomplish this goal has proven a failure. The Pell Grant 
for Kids is a realistic and positive response that will impact both the 
individual's prospects as well as those of our Nation. It has a proven 
history of effectiveness and addresses the very factors that underlie 
the failures in our current proposals and responses. Thank you very 
much.

Endnotes:

Lamar Alexander, Putting Parents in Charge, (Education Next: A Journal 
    of Opinion and Research, 2004).
Office of Civil Rights and Diversity Compliance of Miami-Dade County 
    Public Schools, Baseline Diversity Factors 2002-2003 Public School 
    Choice Programs Student Achievement Report. 2004.
Ronald F. Ferguson, An Unfinished Journey: The Legacy of Brown and the 
    Narrowing of the Achievement Gap, (Phi Delta Kappan, Bloomington: 
    May 2004. Vol. 85, Iss. 9: pg. 658, 14 pages).
Gary Orfield and Susan E. Eaton, Dismantling Desegregation: The Quiet 
    Reversal of Brown V. Board of Education, (New York: New Press, 
    1996), p.7.
Amy Stuart Wells and Robert E. Grain, Stepping Over the Color Line: 
    African American Students in White Suburban Schools, (New Haven: 
    Yale University Press, 1997).
U.S. Department of Education, Office of Innovation and Improvement, 
    Creating Strong District School Choice Programs (May 2004).

    Senator Alexander. Thank you, Mr. Bell, for your testimony. 
I have read it, and I look forward to talking with you more.
    Ms. Hill, thank you for being here. If you could pull the 
microphone up close to your mouth, we will hear you better.

          STATEMENT OF CATHERINE LUCILLE BROOKS HILL, 
                 D.C. PARENTS FOR SCHOOL CHOICE

    Ms. Hill. Good morning. My name is Catherine Hill. I was 
born October 5, 1937 in Prince George's County, Maryland. My 
parents named me Catherine Lucille Brooks. I was eighth of 
eleven children.
    When I was 4 years old, my family moved to Railroad Avenue 
in Southeast D.C. I then began school at Van Ness Elementary 
and went on to Langley Junior High School and on to Cardozo. 
Before I graduated in 1954, the Supreme Court Brown v. Board of 
Education ruling was made, and because of integration, I 
transferred to Eastern High School where I later graduated.
    In 1958, at the age of 19, I married my husband James. My 
first daughter, Janice, was born later that year. In 1962, my 
son James was born. In 1963, my daughter Dana was born.
    In 1963, my daughter Janice started school. This is the 
time I began looking for ways my children could get a better 
education. I looked into scholarships, but at that time, there 
were not many options. When my daughter entered the 7th grade, 
I was able to obtain a scholarship so she could attend Potomac 
private school in McLean, Virginia. After all my children were 
in school, I worked various jobs to bring in extra income. I 
also volunteered at various places, including my children's 
schools. I volunteered at Cooperative Play Program from the 
District of Columbia Recreation Center, Dunbar High School, 
Park View Elementary and Nativity.
    In 1984, I took on the responsibilities of raising my 
oldest grandson, Keith, and in 1989, I started raising Kenneth. 
Both are sons of my youngest daughter. In 1988, I enrolled 
Keith in Park View Elementary School. At that time, the school 
was not progressing along with education standards. So I 
transferred him to Noyes Elementary School. After completing 1 
year there, I transferred him to Option Public Charter School.
    My youngest grandson, Kenneth, entered his boundary school, 
which was Park View Elementary, from kindergarten to 2nd grade. 
During his 2nd grade year, I applied for a Washington 
scholarship. After 2nd grade, Kenneth was granted a scholarship 
and he entered into Nativity Catholic School. Kenneth graduated 
in June of 2004, and he will be attending Archbishop Carroll 
High School in the fall.
    I am now also raising a niece and nephew, Eric and Erica 
Brooks. I enrolled them at Park View Elementary School, and 
their grades were average. So I decided to apply for the D.C. 
K-12 scholarship so they could receive a better education. 
Through the grace of God, our Lord and Savior, I was blessed to 
receive a full scholarship for both children. I was one of the 
parents that fought for this scholarship program to receive 
funding for the quality education they needed and deserved.
    In conclusion, I feel that my work is not done because I am 
presently still speaking on behalf of the D.C. scholarship 
program. Our schools today are failing us. Our children are 
being left behind. Not only just the teaching part, also, the 
buildings are deteriorating, and when children leave home from 
a place that is not adequate and they go into a building and 
they see the same thing, they have no incentive to learn. We 
must make sure all of our children get a decent education so 
they can go on and live productive lives and take care of their 
families in a way that their parents are not able to do as of 
now.
    Thank you.
    [The prepared statement of Ms. Hill follows:]

          Prepared Statement of Catherine Lucille Brooks Hill

    I was born on October 5, 1937 in Prince George's County Maryland. 
My parents named me Catherine Lucille Brooks. I was the eighth of 
eleven children. When I was 4 years old, my family moved to Railroad 
Avenue in Southeast D.C. I then began school at Van Ness Elementary. I 
went onto Langston Junior High School, then to Cardozo High school. 
Before I graduated, the 1954 Supreme Court Brown v. Board of Education 
ruling was made and because of integration, I was transferred to 
Eastern High school where I later graduated.
    In 1958 at the age of 19, I married my husband James Allen Hill. My 
first daughter, Janice Hill was born later that year in 1958. In 1962, 
James L. Hill and in 1963 my youngest daughter Dana Hill was born. In 
1963, my daughter Janice started school. At this time, I began looking 
for ways my children could get the best education. I looked into 
scholarships, but at that time there weren't many options. When my 
daughter entered the 7th grade I was able to attain a scholarship so 
she could attend Potomac Private School in McLean, Virginia.
    After all of my children were in school, I worked various jobs to 
bring in extra income. I also volunteered at Cooperative Play Program 
for the Department of Recreation, Dunbar High School, Park View 
Elementary School and Nativity Catholic School.
    In 1984, I took on the responsibility of raising my oldest 
grandson, Keith Hill and in 1989, I started raising my youngest 
grandson, Kenneth Hill. In 1988, I enrolled Keith into our neighborhood 
school, Park View Elementary School. At that time I believed Keith 
needed more one-on-one help with reading and math skills and smaller 
classes. As a way to help my grandson to improve in his education I 
enrolled him into Noyes Elementary School and the following year he 
went to Options Public Charter School.
    My youngest grandson, Kenneth Hill, attended Park View Elementary 
from grades kindergarten to 2nd grade. After 2nd grade, Kenneth was 
granted a scholarship and I enrolled him into Nativity Catholic School 
in June 2004. He will be attending Archbishop John Carroll High School 
in fall 2004.
    Now I am also raising my niece and nephew, Erica and Eric Brooks. I 
enrolled them in Park View Elementary School and their grades were 
average. So I decided to apply for the D.C. K-12 Scholarship so they 
could receive a better education. Through the grace of God our Lord and 
Savior I was blessed to receive a full scholarship for both children. I 
was one of the parents who fought for this scholarship program to 
receive funding for the quality education that I feel that all children 
deserve.
    In conclusion, I feel that my work is not done, because I am 
presently speaking on behalf of the D.C. K-12 Scholarship Program.

    Senator Alexander. Thank you, Ms. Hill.
    Dr. Peterson.

STATEMENT OF PAUL E. PETERSON, HENRY LEE SHATTUCK PROFESSOR OF 
    GOVERNMENT, DEPARTMENT OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Peterson. Senator Alexander, thank you very much for 
inviting me here today, and I hope that you will insert in the 
record the statement that I have handed to the subcommittee.
    Senator Alexander. I have in your case and in each case.
    Mr. Peterson. The American educational system today needs 
three key reforms: transparency, accountability, and choice. 
These three, Senator, these three, transparency, 
accountability, and choice, and the greatest of these is 
choice--I think somebody by the name of Paul said something 
like that before.
    Anyhow, the greatest of these is choice. We have moved 
forward in the transparency and accountability areas, and there 
are real signs that progress is being made as a result of No 
Child Left Behind, but we now need to put the third leg of the 
reform stool into place. We need to provide genuine choice for 
our families in the way that we have at the college level. The 
U.S. system of higher education is the envy of the world, and 
in large part, that is due to the fact that students have a 
broad range of college choice.
    I just talked with somebody from Germany the other day, and 
students are assigned to their colleges there. Our students are 
not assigned to college. You have a choice, and that is just a 
tremendous fact.
    Now, it is the case that the higher education system in 
this country is not perfect. There are lots of ways it can be 
improved, but the problems in elementary and secondary schools 
are so deeply rooted that we really have to look for bold new 
initiatives to address them. It is quite striking that the 
United States once led the world in high school graduation 
rates. We were the world's leader. Today, we are the average 
industrialized country. You look at the OECD average, and that 
is where the United States is in high school graduation rates, 
and the graduates trail the world's leaders in math and science 
by as much as four grade levels, and there has been very little 
improvement over the last 35 years.
    We are hardly any better today in reading and math, 
according to the NAPE, than we were in 1970. We are not getting 
better. We are stagnating.
    So, Senator, you are really to be congratulated for 
proposing Pell Grants for Kids, because this is a program that 
reminds everybody that we can do at the elementary and 
secondary education level some things that could do what the GI 
Bill, the Pell Grants, students loans have done for higher 
education. Now, as you pointed out, it is unfortunate that when 
the Elementary and Secondary Education Act was put into place 
in 1965, that the money was directed to the schools and not to 
the students. I am a member of the independent review panel for 
title I, this law, currently, and I just listened to a review 
of all of the studies of title I programs, and the main 
conclusion that was presented to our panel was there was no 
evidence, no evidence, that the program has had any positive 
effect on student learning. In other words, our title I dollars 
are not being used effectively.
    So we really need to think about whether we are going to 
use any additional title I dollars in the old traditional way 
or move on to new, more creative approaches such as you are 
doing and whether we want to reconsider how we allocate some of 
our existing ones to make them more effective, and I think both 
of these things should be thought about as we move forward 
building on the proposal you have made as the legislation is 
constructed.
    We know that choice is effective. We just found out that in 
Chicago, the choice that is occurring under NCLB is having very 
positive effects on the students in the program and the 
students in the public schools from which these students came. 
So you bring competition and you are seeing improvements 
already in the one city we have been able to get some good 
measures on what is going on. And we know that the voucher 
programs that have been tried out there are having major 
effects for African American students, so that in over a 3-year 
period of time, they are gaining one to two grade levels beyond 
what they would otherwise achieve.
    So there is evidence out there that school choice can make 
a difference. Furthermore, there is evidence that the 
traditional public schools when they face competition respond 
positively to that competition. I will not go into the details, 
but they are in the record.
    Pell Grants should be given to States and districts that 
provide meaningful choice for students. The choice could be 
choice within the district, between districts, magnet schools, 
charter schools ideally, including private schools as well. So 
the biggest bang for the Pell Grant buck can be done by asking 
States to come up with meaningful choice programs.
    Let me also say, in conclusion, that if States were asked 
to come up with a matching grant for at least a portion of the 
Pell Grant idea, you could get even bigger bang for the buck. 
Right now, Pell Grants as you propose them are running about 5 
percent of the average cost of schooling. That is significant. 
That is not trivial, but, you know, if you could figure ways to 
move it to 10 percent, you could get change even more rapidly.
    So thank you very much. I wanted just to comment slightly 
on the questions as to whether or not higher education is 
really different from elementary and secondary education, and 
it is true elementary and secondary education is compulsory, 
although not all the way through high school. It is not. The 
very fact that it is compulsory means it is all the more 
important to give choice to families; and, second, at the 
college level, colleges do discriminate on the basis of where 
you live. If you live within a State, you pay lower tuition 
than if you come in from out of State. So you can still have a 
choice-based system that gives preferences to people who are in 
the immediate environment. And, finally, of course, any kind of 
choice-based program has got, as you suggested, has got to be 
designed in such a way as to not include provisions that would 
allow recipients of these Pell Grants to discriminate. So I 
think that is a very cautionary word.
    Thank you very much.
    [The prepared statement of Mr. Peterson follows:]

                 Prepared Statement of Paul E. Peterson

    America's public schools today are in need of three key reforms: 
transparency, accountability and choice.\1\
---------------------------------------------------------------------------
    \1\ Koret Task Force on K-12 Education, ``Findings and 
Recommendations,'' In Paul E. Peterson, ed., Our Schools and Our Future 
(Hoover, 2003), pp. 3-24.
---------------------------------------------------------------------------
    Transparency and accountability are rapidly being put into place by 
No Child Left Behind, the most important piece of Federal education 
legislation in over 30 years. Schools are becoming more transparent in 
that every school must report its students average math and reading 
scores. Accountability is on the rise, because those schools that 
consistently fail to perform must give parents the opportunity to 
obtain extra services or attend a public school elsewhere. If a school 
does not improve, it must be reconstituted.
    Research shows that these reforms are beginning to work. Those 
States that were the first to introduce accountability are making more 
rapid gains on the Nation's report card, the National Assessment of 
Educational Progress (NAEP).\2\ Those places with the strongest 
accountability systems are particularly effective. The evidence from 
Chicago and Florida is particularly compelling.\3\
---------------------------------------------------------------------------
    \2\ Eric A. Hanushek and Margaret E. Raymond, School Accountability 
and the Black-White Test Score Gap,'' Paper presented before the 
Conference on ``Fifty Years after Brown: What Has Been Accomplished and 
What Remains to Be Done,'' Program on Education Policy and Governance, 
Harvard University, April 23-24, 2004. Revised version to be published 
in Paul E. Peterson, The Next Generation (Brookings, forthcoming).
    \3\ Brian A. Jacob, ``A Closer Look at Achievement Gains Under 
High-Stakes Testing in Chicago,'' in Paul E. Peterson and Martin R. 
West, No Child Left Behind (Brookings 2003); Jay P. Greene and Marcus 
A, Winters, ``Competition Passes the Test,'' Education Next ((Summer 
2004) 66-71.
---------------------------------------------------------------------------
    Now the third leg of reform needs to be put into place--genuine 
school choice for families comparable to the college choice that 
students in the United States have long enjoyed.
    The U.S. system of higher education is the envy of the world, 
drawing students from across the globe to one of its thousands of 
excellent teaching and research institutions. In most countries, 
government money flows to the universities, not to the students. But in 
the United States, much of the Federal and State money either flows 
directly to students--either directly through grants or loans or by 
conditioning aid upon college enrollments. Because students have a 
broad range of college choice, the country enjoys a dynamic, constantly 
improving system.
    Sure, one can find problems in higher education. But the problems 
in elementary and secondary education are more deeply rooted. The 
United States once led the world in high school graduation rates. 
Today, we do no better than the average industrialized country. Nor do 
the high-schoolers who remain achieve excellence. On the contrary, they 
trail the world's leaders in math and science by as much as four grade 
levels. Neither has there been much improvement over the past 35 years. 
Although some gains have taken place recently, as late as 2000, U.S. 
students were doing no better on the NAEP than they did in 1970.\4\
---------------------------------------------------------------------------
    \4\ Paul E. Peterson, ``Ticket to Nowhere: School Achievement 
Remains Minimal,'' Education Next III (Spring 2003), 39-46. Paul E. 
Peterson, ed., Our Schools and Our Future (Hoover, 2003).
---------------------------------------------------------------------------
    Senator Alexander is thus to be congratulated for proposing Pell 
Grants for Kids. Under his innovative program, monies would be given 
directly to low and moderate income families to be directed to the 
school their child attends, to be spent on school tuition, or to be 
used for extra school services.
    By giving the money to families, the program is designed along the 
same lines as many Federal programs in higher education. Beginning 
after World War II, and continuing down to the present, the Federal 
Government, by means of such student-choice programs as the GI Bill, 
Pell Grants, and student loans, created a dynamic higher education 
system, and, at the same time, provided greater college access to 
students with limited resources.
    Unfortunately, Federal efforts to improve the lower tiers of 
American education were not designed in the same way. Instead of giving 
choice to low-income parents, Title I of the Elementary and Secondary 
Education Act directed funding toward school districts. The results 
have been very disappointing. As a member of the Independent Review 
Panel for Title I, I have recently had the opportunity to listen to a 
review of the major studies of the compensatory education program. The 
main conclusion presented to our panel: There is no evidence that the 
program has had any positive effect on student learning.
    Using title I dollars to fund Pell Grant for Kids would put these 
valuable dollars to a more constructive purpose. Research shows that 
where parents have a choice, their children, especially the 
disadvantaged ones, learn more. For example, students in Chicago who 
are exercising choice under NCLB are scoring higher on the tests of 
achievement in that city. Nationwide, African American students who 
attend private schools do better than equivalent students in public 
schools. And a variety of studies show that African American students 
who receive vouchers do better than their peers who remain in public 
schools.
    Research has also shown that students in traditional public schools 
do better, if that school faces competition. When students have the 
option of attending a charter school or receiving a voucher, or even if 
there is the possibility of a voucher opportunity, traditional public 
schools respond positively to the competition.\5\ In short, Pell Grants 
for Kids can build on the successes of existing school choice programs.
---------------------------------------------------------------------------
    \5\ For a review of this research, see William G. Howell and Paul 
E. Peterson, with Patrick J. Wolf and David E. Campbell, The Education 
Gap (Brookings, 2002).
---------------------------------------------------------------------------
    For Pell Grants to stimulate the choice and competition that 
American education needs, States and school districts need to offer 
parents meaningful school choices. That choice should involve a choice 
of public schools within the district, a choice of schooling among 
school districts, a choice among numerous charter schools, and, 
ideally, a choice of private schools. By conditioning Pell Grants for 
Kids on providing the same kind of meaningful choice in elementary and 
secondary education as exists in higher education, this program will 
give States and school districts strong incentives to reform the 
Nation's schools.
    Senator Alexander proposes that the size of Pell Grants be 
initially set at $500, about 5 percent of the average cost of schooling 
in the United States today (which is now roughly $10,000 a year). Even 
this modest amount could have a large initial impact.
    An even larger impact could be obtained, if the Federal Government 
were to fund the program at about 10 percent of the total cost of 
schooling, about the same level as the Federal Government funds 
elementary and secondary schooling more generally. And a still larger 
impact could be obtained, if the program asked participating States to 
match the Federal dollars.
    Whatever the initial amount, these new Pell Grants should increase 
at the same rate the cost of schooling increases. The income limit 
should rise annually at the same rate as average household income 
rises. And the amount that parents receive should phase out gradually 
so as not to discourage families from remaining economically 
productive.
    American education today is beginning to have the transparency and 
accountability that it desperately needs. Properly designed, Pell 
Grants for Kids can provide meaningful school choice, the school reform 
stool can acquire its badly needed third leg.

    Senator Alexander. Thank you, Dr. Peterson.
    Ms. Allen, welcome.

                  STATEMENT OF DARLENE ALLEN, 
              PRESIDENT, DISTRICT OF COLUMBIA PTA

    Ms. Allen. Good morning. As president of the District of 
Columbia PTA, I am here representing National PTAs 6 million 
members as well as the parents, teachers, school 
administrators, and other child advocates that make up the 
District of Columbia. Before I begin my testimony, I want to 
thank you, Chairman Alexander, Ranking Member Dodd, and the 
other members of the subcommittee for inviting me here today to 
address Senator Alexander's proposal.
    The PTA has always supported increased funding for 
education, especially funding targeted to assist low- and 
middle-income students. We have also long supported Pell Grants 
for college students. These grants allow many students who 
could not otherwise afford it to pursue higher education; 
however, I believe that Senator Alexander's proposal, despite 
its name, does not operate like a true Pell grant and will hurt 
rather than assist the intended beneficiaries. The original 
Pell Grant program is the largest needs-based Federal post-
secondary student financial aid program administered by the 
U.S. Department of Education. It was designed to increase 
enrollment of low-income students by providing them with the 
financial means to achieve their dreams of post-secondary 
education. If the program did not exist, tens of thousands of 
students throughout the country would not be able to afford 
college, and when I was coming through college, I used the BEOG 
grants that were in place. So I was a recipient.
    Senator Alexander's initiative, however, is not needed to 
increase public education and elementary and secondary school 
enrollment. Unlike higher education, elementary and secondary 
school education in this country is both compulsory and free. 
No incentives are needed to encourage enrollment. As such, 
Senator Alexander's initiative is simply a voucher program, a 
program I have come to know well as the president of the 
District of Columbia PTA and a program that the D.C. PTA and 
National PTA strongly oppose because of the negative impact 
that it has on public education. When it was first debated, the 
D.C. and National PTA opposed the D.C. voucher program for the 
following reasons: Public funds should be used for public 
education. There is no evidence that vouchers increase student 
achievement. Vouchers undermine public accountability. And 
vouchers do not expand parents' educational choices because the 
choice lies in the hand of the private schools's admissions 
policies; and students with limited English language 
proficiency and students with disabilities, there is the 
possibility that these students will be discriminated against. 
We opposed vouchers then and we oppose vouchers now no matter 
what form they may come in or by whatever name they are called.
    Senator Alexander's voucher program raises many of the same 
concerns that the D.C. Federal program raised. In just its 
first year, the program would divert up to $2.5 billion of 
scarce public funds away from the public schools and title I 
programs. In the following years, the cost of this program 
rises to a staggering $15 billion a year. The $500 vouchers 
that would be provided under the program are not required to be 
spent on public school programs. Instead, families would be 
allowed to use the money for any type of public or private 
academic expense, including child care, music lessons, or art 
supplies. While all of these areas are important, the proposal 
fails to address the true financial crisis facing public 
schools.
    And I might add, in the District of Columbia, even though 
lower-income families may not be able to afford instruments and 
that sort of thing, there are numerous programs throughout the 
city and have always been. We have the D.C. Youth Orchestra 
Program, the D.C. Youth Chorale Program, arts programs that 
have always been available to our students. It is just a matter 
of parents learning about the opportunities and taking 
advantage of the opportunities.
    And I see that my time is getting short and you have the 
testimony that we have here. So I just wanted to comment on a 
couple of things with the colleges, and although the colleges, 
as you have stated, Dr. Peterson, have discrimination between 
in-State and out-of-State tuition, they do not discriminate. I 
mean, if you are able to pay via having loans, having grants, 
if you are admitted by their criteria, you are still able to 
become a student in the particular college through the system, 
albeit paying a higher fee.
    Thank you.
    [The prepared statement of Ms. Allen follows:]

                  Prepared Statement of Darlene Allen

    Good morning. As president of the District of Columbia PTA, I am 
here representing National PTA's 6 million members, as well as the 
parents, teachers, school administrators, and other child advocates 
that make up the District of Columbia PTA.
    Before I begin my testimony, I want to thank Chairman Alexander, 
Ranking Member Dodd, and the other members of the subcommittee for 
inviting me here today to address Senator Alexander's proposal.
    The PTA has always supported increased funding for education, 
especially funding targeted to assist low- and middle-income students. 
We have also long supported Pell Grants for college students. These 
grants allow many students who could not otherwise afford it, to pursue 
higher education. However, I believe that Senator Alexander's proposal, 
despite its name, does not operate like a true Pell Grant and will 
hurt, rather than assist, the intended beneficiaries.
    The original Pell Grant program is the largest needs-based Federal 
postsecondary student financial aid program administered by the U.S. 
Department of Education. It was designed to increase enrollment of low-
income students by providing them with the financial means to achieve 
their dreams of postsecondary education. If the program did not exist, 
tens of thousands of students throughout the country would not be able 
to afford college.
    Senator Alexander's initiative, however, is not needed to increase 
public elementary and secondary school enrollment. Unlike higher 
education, elementary and secondary education in this country is both 
compulsory and free. No incentives are needed to encourage enrollment. 
As such, Senator Alexander's initiative is simply a voucher program--a 
program I have come to know well as President of the District of 
Columbia PTA, and a program that D.C. and National PTA strongly oppose 
because of the negative impact it has on public education.
    When it was first debated, the D.C. and National PTA opposed the 
D.C. Federal voucher program for the following reasons: public funds 
should be used for public education; there is no evidence that vouchers 
increase student achievement; vouchers undermine public accountability; 
vouchers do not expand parents' educational choices because the choice 
lies in the hands of the private schools' admission policies; and 
vouchers discriminate against children with disabilities and students 
with limited English proficiency. We opposed vouchers then and we 
oppose vouchers now, no matter what form they may come or by what name 
they are called.
    Senator Alexander's voucher program raises many of the same 
concerns that the D.C. Federal voucher program raised. In just its 
first year, the program would divert up to $2.5 billion of scarce 
public funds away from public schools and title I programs. In the 
following years, the cost of this program rises to a staggering $15 
billion a year.
    The $500 vouchers that would be provided under the program are not 
required to be spent on public school programs. Instead, families would 
be allowed to use the money for any type of public or private academic 
expense, including childcare, music lessons, or art supplies. While all 
of these areas are important, the proposal fails to address the true 
financial crisis facing public schools.
    This year alone, programs authorized under the No Child Left Behind 
Act are underfunded by more than $9 billion. Programs authorized under 
the Individuals with Disabilities Education Act are underfunded by more 
than $11 billion. If new money is available, we strongly recommend that 
it be allocated to funding No Child Left Behind programs and 
requirements and IDEA programs and requirements, rather than to an 
experimental voucher program such as this one.
    Senator Alexander's initiative will not only divert new money from 
public education, full implementation of this program will clearly lead 
to cuts in existing programs. While proponents of the program have 
claimed that the annual expense of $15 billion could be achieved 
without cutting existing programs, that is difficult to believe given 
the swelling deficits faced by the Federal, State, and local 
governments, increased costs associated with implementation of the No 
Child Left Behind Act, inflation, and population increases.
    Senators, when you passed the No Child Left Behind Act, it was 
stated that one of your primary reasons for doing so was to make 
schools accountable. Yet, in addition to the huge cost, and unlike 
education programs funded by real Pell Grants, Senator Alexander's 
voucher program would directly undermine that accountability. Polling 
data indicate that a majority of Americans believe that private schools 
that accept government funds should be accountable in the same way as 
public schools. Public schools and higher education institutions funded 
by real Pell Grants are held to rigorous eligibility requirements. Yet, 
as with other voucher programs, the private programs receiving funds 
under this initiative would likely not be held to the same strict NCLB 
requirements and accountability measures that apply to public schools.
    In addition, while the $500 scholarships that would be provided 
under Senator Alexander's proposal are clearly Federal aid, applicable 
Federal civil rights laws that prohibit discrimination based on race, 
disability, and gender will be virtually unenforceable. Under this 
proposal, there are no clear mechanisms for the Federal Government to 
monitor the civil rights compliance of entities receiving funds under 
this program, and it will be impossible for the Federal Government to 
determine whether private schools and institutions receiving these 
Federal funds are avoiding compliance with Federal civil rights laws 
and engaging in discriminatory policies or practices.
    I also believe that this program will hinder, rather than help, 
even those public schools receiving funds. Under the program, parents 
would designate by June 1 of each year a public or private school or 
other academic program to be the recipient of the funds, which would be 
transferred by the U.S. Department of Education by August 1 for use 
during the school year. Accordingly, local school districts would not 
learn of the available amount until funds were in hand, rendering 
appropriate budgeting, hiring, facilities management, and other 
planning processes impossible.
    Lastly, this program is being touted as offering parents more power 
to improve schools. Yet, without any requirements that the money be 
spent on public school programs, this power is meaningless. If you 
truly want to give parents more power, then provide our Nation's public 
schools with adequate funding designed to help all children.
    Fully fund the No Child Left Behind Act so that class sizes can be 
reduced, teacher quality improved, and deteriorating schools mended and 
modernized. If children are entering kindergarten unprepared, support 
early childhood education programs that are aligned with school-
readiness standards. If students need extra assistance to meet high 
academic standards, provide expanded learning opportunities and on-site 
before- and after-school. If parents need help improving their 
children's schools, support programs that promote and facilitate parent 
involvement.
    The Senate has repeatedly rejected vouchers in the past, and should 
do so again. Please do not be fooled by the lingo. This proposal is an 
expensive diversion from the real challenges facing our schools today. 
Voucher programs such as this one, even when called by a different 
name, will do nothing to help our Nation's public schools. The only way 
to ensure that every child has an equal and valuable education is to 
invest and improve our public school system.
    Thank you for your commitment to our children, and for giving me 
this opportunity to share my concerns. I would be happy to respond to 
any questions.

    Senator Alexander. Thank you very much, Ms. Allen.
    Let me thank all four witnesses for excellent testimony, 
excellent statements, and I think we will go for a few minutes 
with this panel for questions.
    Let me go back, Dr. Peterson, if I may. First, let me ask 
you this: Would you consider the GI Bill Scholarships for 
Veterans a voucher?
    Mr. Peterson. It looks very much like a voucher program. 
The money goes to the student and the student has a choice of 
school, wherever they want to go.
    Senator Alexander. Would you consider the Pell Grant for 
college students a voucher?
    Mr. Peterson. Yes.
    Senator Alexander. Mr. Goldberg said in his article that 
when Congress created the GI Bill for veterans in 1944 that 
they gave, the Administration, the program to the Veterans 
Administration and that created consternation among the higher 
education institutions who wanted Congress to give the money to 
the institutions. Dr. Goldberg also says later on that: ``The 
decision by Congress to finance the GI Bill to the students 
themselves rather than through the Government bureaucracies or 
higher education was a crucial and lasting decision. It was a 
centralized entitlement and voucher program that was based on a 
decentralized market approach irrespective of financial need or 
previous educational status.''
    You have been a scholar of American education. Can you tell 
us anything more about the controversy that might have existed 
at the end of World II or the time that Pell Grants were 
created and why did Congress at that time decide to give the 
money to the students rather than to the educational 
institutions? How did that happen?
    Mr. Peterson. Well, Senator, I am not an expert on the 
history of higher education. So I do not know all of the 
details, but my sense of it was there was a big issue as to 
whether the money should go to public universities or to 
private universities. The issue of church and State was out 
there just as it is today, and this was a solution to that 
problem. Congress did not have to get into the question of 
which colleges should get how much money. You just would give 
it to the students and let them decide. It was really 
remarkable. It was so far ahead of its time that you wonder how 
something like that can get through the legislative process, 
but they were as creative then as you are today, Senator.
    Senator Alexander. Well, thanks for that, but it may have 
just been an accident. It may have been that no one thought 
about it at the end of World War II, and they just said here 
come the veterans, let us give them the money, and the rush to 
do that was so powerful that they did. There were no, as I 
understand the record, there were no serious restrictions on 
the educational institutions that the veterans could choose 
among, and many veterans went to vocational schools. Many did 
not have high school degrees. Many took their GI Bill for 
Veteran Scholarships and went to Catholic high school. So we 
did have in this country right after World War II thousands of 
high school students who used Federal vouchers to attend 
Catholic schools. I guess the interest in helping and gratitude 
for the returning veterans was such that it overwhelmed that.
    I am going to do a little more studying on what we call the 
Pell Grants. That was a very fundamental decision that Congress 
made in 1960s and 1970s not to give the money to Harvard 
University or the University of Tennessee or Yoshiva. They gave 
the money to the students and said you apply to Harvard, you 
apply to the University of Tennessee, you go to Howard if you 
choose. And I can recall as president of the University of 
Tennessee it never occurred to me to come to Congress and say, 
I sure hope you do not appropriate any new money for Pell 
Grants because someone might go to Fisk or someone might go to 
Vanderbilt or someone might go to Harvard. That never occurred 
to me, and I know that in talking to some United States 
Senators, it never occurred to them that the Pell Grant is a 
voucher. I wondered how we got from such a single-minded 
attitude toward higher education to such a different attitude 
toward K through 12.
    Mr. Peterson. Well, the interesting thought that your 
comments suggest is that once you give people choice, you can 
never take it away. So even if it happened as an accident at 
the beginning, once it was put in place, it was unthinkable to 
do it any other way in higher education. So Congress kept 
expanding and expanding with Pell Grants and student loans and 
so forth, and I think that is what would happen with your 
proposal. If your proposal were put into effect, it would never 
go away because people love choice.
    Senator Alexander. I have one other question for you. 
Congress appropriated--actually, the only argument we had this 
year was about how much money to spend on it. Everybody was 
competing to see who could spend more, including Republicans. 
On the child care certificates, we spend about $8 billion a 
year. More than 2 million families, mothers mostly, receive a 
child care certificate which they then can spend at any 
provider of child care that is accredited. Would you consider 
that a voucher?
    Mr. Peterson. Oh, yeah. We have vouchers for medical 
services. That is what Medicare is. Medicare is a voucher 
program because you tell people go see the doctor of your 
choice and the Government will help pay for your cost, go to 
the hospital of your choice. It is really extraordinary that we 
do so many things, the Government does so many things through 
vouchers, but that when it comes to elementary and secondary 
education, for some historical reasons, we just find it 
difficult to think that this is not an acceptable way to do it 
when it comes to funding education.
    Senator Alexander. Mr. Bell, you are in the middle of 
elementary and secondary education, one of the largest school 
districts in America. Why is it that Pell Grants and child care 
certificates are good vouchers and the idea of a voucher for 
elementary and secondary students is a bad voucher? Why is 
that?
    Mr. Bell. I think it is the perception of voucher programs 
and the fact that the perceived notion is that it is going to 
create a dual-class school system. I know that we are perhaps 
infantile in terms of choice being such a new movement that we 
do not have years of data. We have many choice programs in 
Miami-Dade County. We have two State-mandated voucher programs 
that do provide for, you know, private school tuition support.
    Interestingly enough, with the door wide open with school 
choice in Miami-Dade County, most parents are choosing public 
schools when they are making educational choices. I do not see 
it as a voucher program.
    I do not know if you wanted to introduce the Senator or if 
I should continue.
    Senator Alexander. I will in just a minute. I certainly 
will.
    Go ahead. Please finish your thoughts.
    Mr. Bell. I look at this program as a wonderful avenue of 
support for parents who are for exercising their choice. Even 
under No Child Left Behind where the choice is to other public 
schools, oftentimes you have a child who is leaving a school, a 
low-performing school, and by virtue of leaving that school, 
they are also losing some of the support that exists in that 
school through title I dollars, and this is, you know, a great 
way for some support to follow that student as they make the 
choice.
    I do not know if I fully addressed your question.
    Senator Alexander. Let me pursue that, and then I will call 
on Senator Dodd for anything he may want to say. There are 
about how many students in the Miami-Dade County system?
    Mr. Bell. About 362,000, K-12.
    Senator Alexander. And it is the fourth largest system?
    Mr. Bell. Yes, sir.
    Senator Alexander. Do you know about how many qualify for 
free and reduced lunch?
    Mr. Bell. I believe we are right about 70 percent.
    Senator Alexander. So if 70 percent of 370,000 students got 
$500 scholarships that they could then spend at your schools or 
any other accredited academic program in Miami-Dade County, by 
my quick figuring, that would bring $120 million or $130 
million new Federal dollars into Miami-Dade County parents' 
hands every year. What do you think would actually happen with 
that money?
    Mr. Bell. I think the impact, you know, would be phenomenal 
in terms of increased competition for those dollars. What we 
have seen with choice already is that it is really improving 
the end program that every school is engaging in in Miami-Dade 
County in terms of improving academic programs, the quality of 
instruction. I think there would be tremendous value added to 
oftentimes students who may be overlooked because of lack of 
resources. It is a huge amount of money. I cannot see anything 
but there being a positive impact.
    Senator Alexander. Taking the figures another way, if we 
took $2.5 million new dollars--and again, I am talking about 
new Federal dollars. I am a Republican talking about spending 
more money, not taking money away from any existing program, 
but spending more money. If we took just $2.5 billion new 
dollars, we could give every middle- and low-income child in 
the country who is in kindergarten or the first grade a $500 
scholarship. If you had limited funds and were able to start 
with scholarships like that, where would you start? Would you 
start with lower grades? Would you start with higher grades?
    Mr. Bell. You know, I think from looking at all the 
research about the importance of early intervention and starts, 
and I would definitely look for the early grades, because what 
we do there is so critical to what happens later on in a 
child's K-12 educational experience.
    Senator Alexander. And if you had a choice with the same 
amount of money of giving a $1,000 scholarship to the 30 
percent of the students who are the poorest or a $500 
scholarship to the 65 percent who we might call middle- and 
low-income, which would you do?
    Mr. Bell. Looking at it as a practitioner, I think 
spreading the wealth would have some advantage, because I think 
that, you know, the aggregate amount of that number of kids 
potentially coming to a school, choosing a school, I mean, the 
impact would be so much greater in terms of encouraging 
improvement in schools that, you know, I would go with the 
spreading it around approach.
    Senator Alexander. Ms. Hill, Ms. Allen, I have questions I 
would like to ask you too and Senator Dodd may too. Senator 
Dodd is the Ranking Member of our subcommittee. He is 
especially interested in early childhood efforts, and I would 
like to step back and let him say whatever he would like to 
say.
    And then, Senator Dodd, where we are, we have heard 
testimony from the first panel. We are near the end of 
questioning there, and then we are going to go to a second 
panel.

               OPENING STATEMENT OF SENATOR DODD

    Senator Dodd. Well, thank you, Mr. Chairman.
    My apologies to the panelists and to other subcommittees 
members who may have been here earlier. We have had, as 
oftentime happens, conflicting schedules here with other 
hearings going on. I just left a hearing on the Banking 
Committee dealing with hedge funds, which is ongoing. So I am 
going between hedge funds and elementary and secondary 
education, and we are about to have some meetings coming up 
shortly dealing with the election reform proposals with another 
group. So I am going to apologize in advance to the other 
panelists for not being able to stay as long as I would like.
    And I apologize to you, Mr. Chairman, as well.
    Let me take, if I can, a couple of minutes. This is a very 
important issue, and I have great respect for my colleague from 
Tennessee who is tremendously innovative, tremendously 
cooperative, and I have had the pleasure of working with him 
during his brief tenure in the Senate on a number of issues 
that I find tremendously innovative and creative, and I think 
that is one of the things we do not have enough of in these 
institutions, opportunities to think out of the box and a 
willingness to challenge ideas.
    The notion of having a Federal voucher program has been 
around for some time, and let me just say, as truth in 
advertising should be the case, I am a product of private and 
parochial education. My parents made those choices. I can also 
tell you my parents were vehemently opposed to the idea of 
getting a tax break for doing so. It is a choice they made, and 
they did so because that is what they wanted their children's 
education to be. Now, they could afford to make that choice, 
and I respect the fact that they did. They also felt very 
strongly about public education.
    I have often tried to point out to people that every single 
morning, not these summer mornings, but during the school year, 
some 54-55 million children go to elementary and secondary 
schools. Roughly 48 to 50 million go to public school, and 
about 5 to 6 million go to a private and or parochial school. 
That is how it breaks down. So when we talk about elementary 
and secondary education, we have a structural capacity to 
accommodate. It is important to also note that, like public 
schools, and not all private and parochial schools are equal. 
Some of are very, very different from the ones we traditionally 
think of, from the well-established private schools or well-
established parochial schools we know. Some are marginal in 
terms of the kind of schooling that is provided.
    But, nonetheless, the idea that as a practical matter we 
could take a significant percentage of the 48 to 50 million 
children in public schools and somehow structurally accommodate 
them into a private school structure that accommodates 5 or 6 
million today without putting tremendous stress and strain on 
that system is unrealistic. So I have come down to the point 
that I have always felt that our responsibility is to a good 
education for people, but our primary responsibility is to see 
to it that public education works. In many ways it does. 
Reporting on educational matters is like reporting on aviation. 
We never hear about planes that fly. We only hear about the 
ones that do not, and for good reason. The media is not going 
to spend its time at National Airport reporting each day that 
the following flights made it to their destinations; yet every 
single day across this country, there are teachers and students 
and schools in the public sector who perform magnificently, 
providing quality education and not just in affluent suburban 
communities or affluent rural areas, but in some of our inner 
cities and some of our poor rural areas, completely dedicated 
people who make a tremendous difference in the lives of people.
    And I think too often we engage in a denigration of public 
education. It becomes sort of a mantra, and I think the public 
hears so much of it and because they hear anecdotal evidence of 
systems that are not working well, and clearly there are some 
that are not working well all around the country, that somehow 
the entire public education system is perceived as inherently 
corrupt and dysfunctional, that it does not provide the kind of 
opportunities that it ought to. Again, I am not apologizing or 
suggesting in any way that the public school system is perfect 
or even near perfect, but I think our obligation in the public 
sector is to see to it that the overwhelming majority of 
children, who are every day sent by their parents to a public 
institution, have the unqualified support of public officials 
to try to get this right.
    I worry about a proposal, and again my colleague will 
correct me if I am wrong on any of this, that will provide $500 
per child to attend a private school, knowing full well the 
cost of private institutions. I point out to my colleague who 
knows this well, I am a first time father of a 2\1/2\-year-old. 
For years, I have been involved in these issues intellectually. 
Now I am becoming very practically involved in these questions. 
We are trying to decide whether or not to send Grace to a 
preschool program in the fall and looking around to what is 
available. Now, there are not a lot of public preschool 
programs on Capitol Hill. There are a couple we have looked at, 
but she is a little young for them.
    So we have looked at a couple that exist in the private 
sector on Capitol Hill, and I will tell you here that I went 
through 4 years of college at less cost than 1 year of sending 
my child to a preschool program. It is staggering to me, as 
someone who is shopping here a little bit, in terms of what we 
can afford to even think about sending Grace to. The idea that 
I might get $500 for schooling--and I know we are not talking 
about a preschool program here--realistically is not going to 
be tremendously helpful financially. If it is all I have to 
rely on to send my child on to a private school, it is not 
going to come close to meeting the obligation.
    There is an overall cost to this program of some $15 
billion a year if this proposal were to be fully implemented. 
How are we paying for this? Again, as I understand it, it would 
be paid for by freezing title I funds at current levels and 
appropriating any title I increases to the voucher proposal. At 
current levels, title I is underfunded by $7 billion. In fact, 
I offered the amendment on the floor of the United States 
Senate along with a Republican colleague, and we received about 
75 votes, at least on the authorization bill, to fully fund 
title I. To date, we have not appropriated the funds to do so, 
even though an overwhelming majority of Democrats and 
Republicans supported full funding of title I. This year alone 
we are $7 billion short on appropriations.
    At the same time, No Child Left Behind is underfunded by 
roughly $9 billion, the most recent effort we made to improve 
elementary and secondary education. If new money is available, 
I happen to believe it should be allocated to the No Child Left 
Behind Act or special education. In every community I go into 
in Connecticut, there is a sense of deep anger that we have not 
fulfilled the commitment that we made some 30 years ago to 
provide 40 percent of the funding for special education. I 
think we are at about 18 or 19 percent of the commitment, far 
short of the commitment we made.
    I am a great believer that you ought to fulfill the 
promises you have made before starting to make new ones, and we 
are not fulfilling the promises that we have made already, 
either in IDEA, No Child Left Behind, or in title I. So aside 
from some deeper objections to this idea, I think we do have a 
responsibility to keep the promises we have made, to fund 
current education programs at full funding first.
    Aside from the cost issue, I am concerned about 
accountability as well. Like other voucher proposals, this 
program would divert public funds to private schools that are 
not publicly accountable. While the proposal does make 
reference to No Child Left Behind's testing system, there is no 
mention of highly qualified teachers, qualified 
paraprofessionals, or sanctions for schools that do not make 
adequate yearly progress, all of which are required, of course, 
under the No Child Left Behind provisions for public education.
    Two years ago, of course, we passed the No Child Left 
Behind Act calling for accountability with results. How is it 
that after 2 years we can even be talking about diverting 
Federal dollars, in my view, to a system that we agreed was 
absolutely necessary to raise the bar. In addition to Congress' 
calls for accountability, it is also worth mentioning that the 
polling data indicate that a majority of Americans, not that we 
ought to be deciding public policy on polling, but just for 
added information, a majority of Americans believe that private 
schools that accept Government funds should be accountable in 
the same way that public schools are. I mentioned earlier that 
there are some five to six million children every day who go to 
a private or parochial school. All of us in this room who are 
knowledgeable about private and parochial school alternative 
opportunities know full well that there are many of these 
schools that would not even begin to pass basic accountability 
tests. There are many that do. I know that as well, but there 
are also many that do not, and that is a choice, again, people 
can make, but the idea that we would publicly finance these 
institutions without demanding the same degree of 
accountability at the expense of these children's education, I 
think would be a great shortcoming and a great disservice to 
the parents and children who attend these institutions, and I 
know full well that many of these people would abhor the idea 
of imposing Federal accountability requirements when it comes 
to these private institutions.
    It is one of the reasons they have set them up. They are 
not satisfied with public education. They do not like the rules 
and regulations. I respect their ability to make those choices, 
but the idea that you are going to receive Federal dollars, 
public dollars and simultaneously avoid having to meet the same 
kind of accountability test is just not going to happen in my 
view, and I do not think many of my colleagues would support 
such an idea.
    Aside from the cost and accountability, I think voucher 
programs also jeopardize the longstanding idea of offering 
every child equal access to education. Again, as long as civil 
rights and disability protections are not in place in full 
effect for every school accepting a child with a type of 
voucher, there can be no guarantee that every school or 
academic program receiving Federal dollars will be made 
available to every student regardless of disability, English 
proficiency, or even the propensity towards behavior problems 
or high academic achievement. Again, private institutions can 
set those standards. They have the opportunity to accept and 
reject people based on a criteria they may set for themselves. 
Again, to allow Federal dollars to be used, $15 billion of 
them, without insisting upon a degree of fairness in terms of 
how potential private school children are treated would trouble 
me very, very much.
    When it comes to private education choice, choice is given 
to schools, not to parents. Parents can choose the school to 
which they could submit their child's private school 
application, but ultimately the private institution decides 
whether or not to accept that child. For this reason, vouchers 
rarely benefit the most disadvantaged. Federal funds could go 
to schools that exclude children.
    I do agree with Senator Alexander that we need to do 
everything we can to ensure that every child in America 
receives the educational opportunity that is the foundation of 
our democracy. I totally agree with that, and I thank him for 
reiterating that point over and over again. But the way that we 
do this is to get behind public education. What we need to do 
is ensure that all public school children have access to 
quality resources in their classrooms, highly qualified 
teachers, state-of-the-art technology, high quality curricula. 
That is what I attempted to do on May 17th on the 50th 
anniversary of Brown v. Board of Education, by introducing the 
Student Bill of Rights with Chaka Fattah, a Congressman from 
Philadelphia.
    The Student Bill of Rights attempts to ensure that every 
child has equal opportunity to receive what is needed to get a 
good education. Current law requires that schools within the 
same district provide comparable educational services. This 
bill would extend that basic protection to the State level by 
requiring comparability across districts. In my home State of 
Connecticut, and I know the Chairman has heard me talk about 
this, but within the public school environment, my home State 
of Connecticut is a tale of two cities in many ways. It is 
listed as the most affluent State in the United States on a per 
capita income basis. Hartford, CT is also listed as the poorest 
city in America. Here is a State 110 miles by 50 miles that is 
the most affluent State and yet has within its boundaries the 
poorest city in the United States of America.
    So I have within the same geographical area incredibly 
qualified, tremendous public institutions, and just a few miles 
down the road, you can go to an institution where teachers are 
not certified to teach the courses they are teaching. Science 
textbooks talk about maybe one day having someone land on the 
moon. Two children in the same State and the same country may 
be going to public institutions where the disparities are 
incredible. This needs to be fixed in my view.
    How do we ever expect these children to have an equal 
opportunity to learn when the resources they have been given to 
learn are so disparate? Again, I am not suggesting it is just a 
resource question, but with scarce dollars available to try and 
improve the quality of public education, in my view to take $15 
billion of those resources and to move them into the private 
sector at a time when public education is in need in many, many 
areas, I think would be a mistake.
    And let me just conclude, if I can, with a few additional 
thoughts. All too often, whether an American child is taught by 
a highly qualified teacher in a small class, has access to the 
best courses and instructional materials, and otherwise 
benefits from educational resources that have been shown to be 
essential to a quality education still depends on where the 
child's family can afford to live. This is simply unacceptable 
and it ought to be to all of us as Americans.
    That is why the Student Bill of Rights is so important to 
our children's ability to achieve academically, to gain the 
skills they need to be responsible participating citizens in a 
very diverse democracy and to compete and succeed in the 21st 
Century's global economy. Adequate resources are vital to 
providing students with the opportunity to receive a solid 
education. This is where our efforts should be focused in my 
view and, with all due respect, not on vouchers.
    Before I close, I would be remiss if I did not talk about 
the appropriateness of the use of Senator's Pell's name, and I 
know this has been raised, but I served for almost 20, years in 
this institution in this very subcommittee with Claiborne Pell, 
one of the most remarkable people I ever served with in public 
life. Two or three things come to mind, any one of which would 
be a significant accomplishment in public life. The Northeast 
Corridor was Claiborne Pell's idea. The National Endowment for 
Arts and Humanities was Claiborne Pell's idea. The banning of 
testing of nuclear weapons on the ocean floors was Claiborne 
Pell's idea. And Pell grants were Claiborne Pell's idea. Again, 
any one of which would be, as I say, a significant 
accomplishment alone.
    One of the things we need to understand when it comes to 
Pell Grants is that there is a difference in higher education. 
While in some sense Pell grants go to students, they also go to 
the institutions as well, putting the full effect of Federal 
civil rights laws into effect. This is very different from the 
vouchers here. There is a fundamental distinction on a higher 
education level between a Pell Grant, and a Pell Grant that 
would follow a child at the elementary or secondary level 
without civil rights laws in full effect.
    So, again, I know the Chairman means absolutely no 
disrespect, in fact, probably named his proposal out of respect 
for Claiborne Pell's idea of providing a source of revenue to 
institutions as well as students to make higher education 
available to millions of people over the years. But, I think it 
does a disservice to compare a voucher for an elementary 
student or a high school student with a Pell Grant for a 
student at the higher education level.
    With that, Mr. Chairman, I appreciate immensely your 
holding a hearing on this subject matter, but I have very 
strong views that differ from my good friend.
    Senator Alexander. Thank you, Senator.
    Obviously I have got some work to do on Senator Dodd.
    I thank you for coming and for expressing your views. As I 
mentioned to Senator Reed when he was here, I have actually 
contacted Senator Pell through his former chief of staff to let 
him know that we were using his name and his idea as a working 
title here. I have great respect for him.
    You would agree, wouldn't you though, that the Pell Grant 
for college students is a voucher?
    Senator Dodd. If you say that as much as a Stafford Loan 
is, but clearly we track institutions that receive Pell Grants 
and they are required to comply with all the Federal laws of 
the country.
    Senator Alexander. This proposal also would require any 
academic program that received a Pell Grant for Kids to follow 
Title IX and Title VI of the Civil Rights Act.
    Senator Dodd. The other distinction I would make is we 
require that all children up to the age of 16 be in school. 
Higher education is an opportunity for those, obviously, who 
have the talents and the ability. It is not a necessity of 
life. There are plenty of people who are highly successful 
without necessarily going on to higher education. We have 
always drawn the distinction, I think, between higher education 
and elementary and secondary education in terms of the public's 
commitment to it. And while over the years, I think going 
back--in fact, I always point out that one of the very first 
Acts of Congress was the adoption of the Northwest Ordinance. 
In fact, they did that at the time of the American Revolution, 
which set aside lands for public education. In the middle of 
the Civil War, in fact--I have always been impressed with 
Lincoln and the Congress at that time--in the middle of the 
Civil War, they passed the Morrill Act, which I know my 
colleague from Tennessee is very familiar with, and that was, 
of course, the establishment of land grant colleges. The 
University of Connecticut in my home State is one of them. 
There are many across the country.
    And then even prior to the end of the great war of the 20th 
Century, World War II in 1945, the Congress passed the GI Bill 
which provided, of course, educational opportunities for those 
coming out of the military to go on to higher education. I have 
always seen a significant distinction between that and the idea 
of providing a voucher of public dollars for someone to go to a 
private institution for kindergarten or the first or second 
grade. I just think it is a distinction that is quite obvious 
to most people, at least it is to me.
    Senator Alexander. Well, Senator Dodd, what I am doing is I 
made a proposal. There is no legislation yet. We are going to 
be working on the legislation over the next 6 months. Many of 
the points that you raised are very good points, points I have 
heard before. What I am attempting to do is to see if there is 
anything to learn from the great success we have had in funding 
higher education, by basically giving the money to the students 
and letting it follow them to the institution of their choice, 
that we could apply to elementary and secondary education.
    Senator Ribicoff and Senator Moynihan in 1979 actually 
sought to amend the Pell Grant and make the Pell Grant itself 
applicable to elementary and secondary students. You mentioned 
shopping around for preschool. I mean, that is exactly what I 
would like for more parents to be able to do. Maybe we could 
work together on giving $1,000 or $2,000 to every parent of a 
beautiful child and let them look for a kindergarten program or 
a 4th grade program or a 3rd grade program or a preschool 
program.
    So I know that there are differences of opinion here, and 
what I am trying to do is see if there is a way to get through 
the usual debate about this, and maybe there is, maybe there is 
not. That is my hope, and I appreciate it.
    Senator Dodd. Thank you.
    Senator Alexander. Thank you.
    It is time now to go to the second panel so that we will 
have ample opportunity to hear from them. I want to thank each 
of the four of you for being here, and if you have additional 
thoughts that are raised by the hearing, I hope that you will 
submit them within the next week.
    Thank you very much.
    I will begin to introduce the witnesses while they are 
being seated to save time.
    Mr. Ellen Goldring is the Alexander Heard Distinguished 
Service Professor and Professor of Education Policy and 
Leadership at Peabody College of Vanderbilt University. That is 
a distinguished university and distinguished professorship, and 
I am biased toward the institution because I had the privilege 
of attending it.
    Robert Enlow is Executive Vice President for Programs and 
Development of the Friedman Foundation in Indianapolis, IN. 
Milton Friedman has been one of the most distinguished 
economists in America's history and has been a leading 
proponent of the idea of giving parents choices in schools.
    John Kirtley is Vice Chairman of the Alliance for School 
Choice. He is from Tampa, FL, and Mr. Kirtley is a co-founder 
of a venture capital firm, but he has been working in a variety 
of ways to give lower-income children more choices of good 
schools.
    Dr. Robert Smith for 7 years has been the Superintendent of 
the Arlington Public Schools. He has spearheaded a number of 
initiatives to improve student achievement in his schools. He 
must be a very successful superintendent to have been one for 7 
years. Superintendents are like university presidents; they 
come and go very rapidly.
    So we should have a good diversity of opinion on this 
panel, and I look forward to hearing from each of you, and 
starting with Dr. Goldring, if you each take about 5 minutes, 
that will leave me or other Senators an opportunity to ask 
questions.
    Thank you.

      STATEMENT OF DR. ELLEN B. GOLDRING, ALEXANDER HEARD 
  DISTINGUISHED SERVICE PROFESSOR AND PROFESSOR OF EDUCATION 
 POLICY AND LEADERSHIP, PEABODY COLLEGE, VANDERBILT UNIVERSITY

    Ms. Goldring. Thank you very much. It is my honor and 
pleasure to be here today to talk about Pell Grants for Kids. I 
also have a written statement for the record and I will 
summarize it briefly here.
    Senator Alexander. Thank you.
    Ms. Goldring. Decades of school choice research has 
documented two very clear consistent findings that pertain to 
our discussion today about Pell Grants for Kids. First, school 
choice is associated with high levels of parent involvement, 
commitment and empowerment; second, school choice policies must 
address questions of equity that often emerge because of 
differential access to information and transportation between 
advantaged and disadvantaged families. I am going to follow 
these two themes today and discuss their implications for Pell 
Grants for Kids.
    Perhaps different than the other members of this panel, I 
want to focus on the Pell Grant as a grant and not as a 
voucher, and most of my remarks are going to pertain to the 
question of how parents would use or could use this grant 
actually in public schools. Pell Grants for Kids, in my 
opinion, would most likely be used by public school parents to 
purchase educational services both inside and outside of school 
rather than a voucher for parents to choose a private school 
unless the parents were already in a private school.
    In my opinion, Pell Grants for Kids is too small to be 
considered an avenue for authentic or widespread school choice. 
Five hundred dollars can be helpful as a grant to buy needed 
educational services, but it is too small an amount to help a 
low-income child without other resources to attend a private 
school unless it is an inexpensive parochial school.
    Possible benefits of Pell Grants for Kids as a grant: One, 
Pell Grants for Kids could provide low-income parents access to 
educational opportunities for their children. One obvious 
difference between upper and lower-income families is the 
amount of disposable income each can spend on educational 
services and supports for their children, even within the 
public school sector. Pell Grants could help provide additional 
disposable educational resources for disadvantaged children; 
two, Pell Grants for Kids could empower parents and help them 
become more involved in their children's education. From 
lessons on school choice, the grant may provide disadvantaged 
parents with a meaningful mechanism to get involved as they 
decide when and how to spend their grant. Once making their 
choice, they may continue to stay involved to monitor their 
choice; three, Pell Grants for Kids follow the student and 
could spur increased options within the public sector.
    When we speak about school choice, public school choice in 
my case, especially school choice for poor and disadvantaged 
students, we must consider both supply and demand. Pell Grants 
could help influence the supply side, that is they may serve as 
an incentive for schools, even public schools, to recruit and 
retain disadvantaged children. While the choice option under No 
Child Left Behind requires school choice within the public 
sector for failing schools, the Pell Grants could serve as an 
added incentive for schools to work with disadvantaged student 
groups. In addition, the grants may help receiving schools or 
existing schools offer the specific services and programs 
students and parents need or want. The grant may also act as an 
incentive for schools to begin to engage and respond to 
disadvantaged parents much more seriously.
    Possible challenges: One, access to information about Pell 
Grants could be difficult. Lack of access to information is one 
of the major sources of inequity under all school choice plans. 
Economically disadvantaged families, those targeted to receive 
the Pell Grants for Kids, often do not have adequate 
information, may not be aware of their options, and may not 
have the formal and informal networks to learn about 
alternatives despite outreach and dissemination of efforts. 
Therefore, it is vitally important that a broad approach be 
implemented to providing information. We have a lot of research 
evidence on that point.
    Two, determining eligibility for Pell Grants for Kids by 
using free and reduced lunch applications may underfund the 
initiative. In most schools, as children become older, they 
tend to shy away from self-identifying in the free and reduced 
lunch programs. This tendency could deny eligible children the 
benefits of the program.
    Three, access to transportation could be an impediment to 
utilizing the Pell Grant for Kids. Expanding choice options 
requires access to transportation for disadvantaged families 
and students. Lack of transportation is often one of the most 
widespread barriers to school choice and participation in 
after-school and other type of support services. Those most in 
need of Pell Grants are also likely to be those families that 
do not have access to safe and reliable transportation.
    My final point, since I know time is ending, parents could 
be co-opted when using Pell Grants for Kids. For parents whose 
own school experiences were unhappy, unsuccessful, and painful, 
parents may not feel comfortable engaging in discussion, 
negotiation, or exchange around using their Pell Grants, 
especially if they want services or programs that are different 
from what the school already provides. School professionals may 
try to influence how the families spend their grants in order 
to support existing or their own school initiatives.
    How will parents ensure that their grants are not co-opted 
by the school? The idea that funding from Pell Grants for Kids 
could be pooled together by parents at the same school assumes 
a level of parent organization and communication that does not 
often exist in low-income disadvantaged schools. Who will 
organize these parents? How? Some schools have parent resource 
centers and outreach programs. Many do not. In the absence of 
mechanisms to support parents, it is not clear how Pell Grants 
can empower them.
    Evidence and experience suggests that the outcomes 
associated with grants and school choice programs are dependant 
on carefully crafted and implemented policies.
    Thank you for the opportunity to present my testimony on 
this timely topic.
    [The prepared statement of Ms. Goldring follows:]

                Prepared Statement of Ellen B. Goldring

    Good morning Mr. Chairman and members of the committee. My name is 
Ellen Goldring and I am the Alexander Heard Distinguished Service 
Professor and Professor of Education Policy and Leadership at 
Vanderbilt University. I appreciate the opportunity to share my views 
about the Pell Grants for Kids, particularly as they relate to school 
choice. In my testimony today I will first provide a brief overview of 
school choice and then discuss possible benefits associated with the 
Pell Grants for Kids and raise some areas of concern.
    Decades of school choice research has documented two very clear, 
consistent findings that pertain to our discussion today about Pell 
Grants for Kids: First, school choice is associated with high levels of 
parent involvement, commitment and empowerment. Second, school choice 
policies must address questions of equity that often emerge because of 
differential access to information and transportation between 
advantaged and disadvantaged families. I will briefly follow these two 
themes and discuss their implications for Pell Grants for Kids.

                               BACKGROUND

    One of the most important ways in which parents are involved in 
their children's education is through choosing the school they attend. 
Parents typically choose a school de facto, according to where they 
live. However, within the past decade, more parents are able to 
exercise explicit school choice because of specific educational 
policies, such as magnet schools, charter schools, open enrollment, tax 
credits and vouchers.
    School choice is a highly debated and disputed policy. Many believe 
school choice policies will harm the public schools, leaving them with 
lower enrollments and fewer resources to meet the needs of all 
children. Others believe school choice is exactly what is needed to 
spur public educational monopolies to excellence. Regardless of the 
contested nature of the costs and benefits of school choice, and the 
debated empirical findings about its impact on student achievement, the 
fact is, the educational landscape in this country will continue to 
include many more school choice options in the future. In my opinion, 
the most prevalent school choice options will always be in the public 
school arena, including open enrollment, magnet schools, and charter 
schools, while private school choice, involving vouchers and tax 
credits, will continue to impact fewer children.
    Public school choice has been given new prominence by the No Child 
Left Behind Act, which requires that students in failing schools be 
given the option to transfer to more successful schools in their 
districts. This is in keeping with other provisions of the act that 
seek to strengthen accountability in public education. The prospect of 
losing students is meant to operate as a sanction to spur failing 
schools to improve. However, this is not the only purpose served by 
this provision of the law. Advocates of expanded choice in public 
education do not see choice merely as a sanction. Choice is also viewed 
as a mechanism for creating more successful schools, particularly in 
disadvantaged communities where parents cannot choose better schools by 
changing residential location.
    Benefits of school choice include: (1) greater parent and student 
satisfaction, and increased parent commitment and involvement, fostered 
by an enhanced sense of ownership; (2) greater school autonomy, 
stronger school leadership, and enhanced teacher collaboration and 
professionalism; and (3) enhanced sense of school community because of 
shared values among parents, students, teachers, administrators, and 
staff. In short, choice is seen as a mechanism for establishing strong, 
successful schools in communities that have too often lacked them.
    All school choice policies face challenges pertaining to 
excellence, equity, and access. Schools are faced with recruiting and 
attracting a student body that is both racially and socioeconomically 
diverse. Much research has suggested that choice ``creams'' parents 
from upper social class families because these families have access to 
information and networks that help them manage and navigate the school 
choice process. The challenges of equity and access are even more 
poignant today as many districts are no longer under court order to 
maintain certain racial quotas due to unitary status agreements. 
Educational outcomes become more unequal as parents with time, 
interest, and knowledge take advantage of choice while students whose 
parents are less involved, have less information, or are less able to 
make good use of these opportunities, do not.
    In sum, one of the key benefits of school choice is the provision 
of matching students and families with the appropriate school. There is 
no longer a prevailing belief that there is one system that can meet 
the needs of all children. The ``one best system'' approach to 
education or the common-schooling view that all students must 
participate in the same type of education, cannot meet the current 
needs of society.
    Pell Grants for Kids would most likely be used by public school 
parents to purchase educational services both in and out of school, 
rather than as a voucher for parents to choose a private school, unless 
the parents were already at a private school. Pell Grants for Kids is 
too small to be considered an avenue for widespread school choice. Five 
hundred dollars can be helpful as a grant to buy needed educational 
services, but it is too small an amount to help a low-income child 
attend a private school, unless it is an inexpensive parochial school.

                           POSSIBLE BENEFITS:

    Pell Grants for Kids could provide low income parents access to 
educational opportunities for their children. One obvious difference 
between upper- and lower-income families is the amount of disposable 
income each can spend on educational services and supports for their 
children. This disposable income is used both as a ``private good'' for 
a parent's own child and as a pooled resource with other middle income 
families from the same school. For example, more-advantaged families 
often hire tutors or SAT/ACT coaches to assist their children in 
preparing for college. The growth of Sylvan Learning and Kaplan Test 
Prep across the country, not to mention music lessons, dance lessons 
and other after school activities, evidences this divide. Furthermore, 
it is not at all unusual for the Parent/Teacher Organization of 
advantaged schools to raise over $100,000 each year from parent 
donations. These monies are then used to ``buy'' supplemental 
educational programs for all the children in the school. Many 
elementary schools buy a foreign language teacher to offer Spanish in 
the early grades or buy additional music and art programs beyond what 
the district typically provides. Pell Grants could help provide 
additional ``disposable'' educational resources for disadvantaged 
children.
    Pell Grants for Kids could empower parents and help them become 
more involved in their children's education. Research on school choice 
documents that parents engaged in school choice are more involved in 
their children's schools than parents who do not choose. This is a very 
consistent finding across all different types of school choice, private 
and public. Parents may be more comfortable with, and supportive of a 
school they have chosen. Furthermore, after exercising choice, they may 
have the desire to prove to themselves that they made a wise decision 
and, therefore, parents may be willing to be more involved in the 
school. Parents who choose a school may be more committed to try to 
influence school policies to ensure that the school remains consistent 
and congruent with their values.
    Similar to these benefits from school choice, the Pell Grants for 
Kids may provide an avenue to help spur parent involvement. The Grant 
may provide disadvantaged parents with a meaningful mechanism to get 
involved as they decide when and how to spend the grant. Once making 
their choice, they may continue to stay involved to monitor their 
choice.
    Pell Grants for Kids target students and families who typically 
have the fewest choices. Disadvantaged families and children do not 
usually have a wide array of educational choices--they tend to attend 
schools with high concentrations of poverty. Research evidence that 
spans several decades shows a persistent relationship between the 
percent of at-risk students in a school and the financial resources 
allocated to it in terms of class size, age and condition of 
facilities, teacher-student ratios, teacher quality, and per-pupil 
expenditures. Researchers and commentators on public education have 
argued that the socioeconomic isolation of poor, minority students in 
schools is a prime cause of the continuing achievement gap. Pell Grants 
for Kids could help provide important resources to schools serving at-
risk students by targeting families that are in need and typically do 
not have choices regarding educational services and programs.
    Pell Grants for Kids follow the student and could spur increased 
options. When we speak about school choice, especially school choice 
for poor and disadvantaged students, we must consider both supply and 
demand. Pell Grants for Kids could help influence the supply side--that 
is, they may serve as an incentive for schools, even public schools, to 
recruit and retain disadvantaged children. With the choice option under 
NCLB, the Pell Grants could serve as an added incentive for schools to 
work with disadvantaged student groups. In addition, the grants may 
help receiving schools or existing schools offer the specific services 
and programs students and parents need or want. The grant may also act 
as an incentive for schools to begin to engage and respond to 
disadvantaged parents much more seriously.

                          POSSIBLE CHALLENGES:

    Access to information about Pell Grants could be difficult: One 
lesson we have learned, repeatedly, about school choice programs is the 
importance of access to information. To facilitate a system of school 
choice, or in this case, Pell Grants, parents and families must have 
information that is both accessible and understandable and that allows 
all parents, not just the most sophisticated or well-educated parents, 
to make informed decisions about how to acquire and spend the grant. 
Multiple and varied avenues of communication are important. Individual 
families can make good choices regarding the various alternatives open 
to them for their children's education if they have sufficient 
information to judge those alternatives.
    Lack of access to information is one of the major sources of 
inequity under most school choice plans. Economically disadvantaged 
families, those targeted to receive the Pell Grants for Kids, often do 
not have adequate information, may not be aware of their options, and 
may not have the formal and informal networks to learn about 
alternatives, despite outreach and dissemination efforts.
    Parents' social networks play a central and fundamental role in the 
sources and types of information available to parents to make school 
choices. Social networks are directly related to social class. In other 
words, social networks are related to occupational status, neighborhood 
stability and isolation, and membership in recreational and community 
organizations. Disadvantaged parents and those of more advantaged 
backgrounds have access to different social networks and use different 
types of information. Upper social class parents enjoy wider social 
networks with more people who have access to information. For lower-
income parents the word-of-mouth channel is the key source of 
information compared to the more deliberate district and school-level 
information dissemination activities, such as mailings, meetings and 
media outreach. For example, we often find in our research on magnet 
schools that parents continue to think that magnet schools are 
``private'' schools.
    As a result of the relationship between social-class structure 
(i.e., education, occupation, income, housing) and social networks, the 
pool of resources from which lower-income parents can draw to make 
decisions regarding Pell Grants for Kids may be somewhat smaller than 
the one available to middle and upper class parents. This is especially 
true for parents who are not employed, did not finish high school or 
never attended college, and live in unstable and transient 
neighborhoods. In the absence of the type of social networks that can 
deliver relevant and valuable information regarding grant options, 
applications and deadlines, lower-income parents may be left out. 
Therefore, it is vitally important that a broad approach be implemented 
to providing information.
    Determining eligibility for Pell Grants for Kids by using Free and 
Reduced Lunch Applications may underfund the initiative in some grades. 
Relying on free and reduced lunch forms may not be the best way to 
register for the Pell Grants. In most schools, as children become older 
then tend to shy away from self-identifying for the Free/Reduced Lunch 
programs. This tendency could deny many eligible children the benefits 
of the program.
    Access to transportation could be an impediment to utilizing Pell 
Grants for Kids. Expanding choice options requires access to 
transportation for disadvantaged families and students. Lack of 
transportation is often one of the most widespread barriers to school 
choice and participation in after-school and other types of enrichment 
activities. Those most in need of Pell Grants are also likely to be 
those families that do not have access to safe and reliable 
transportation.
    Transportation is central to access because many disadvantaged 
schools are located in high-risk neighborhoods with few community and 
educational resources. Many impoverished neighborhoods may not have a 
large number of agencies that can offer Pell Grant services, including 
services provided by nonprofit, community, civic, and religious 
organizations. Some urban planners have referred to communities with 
little or no assets as ``no-zones''--``no banks, no grocery stores, no 
community services, no hospitals'' (Greenberg & Schneider, 1994, as 
cited in Noguera, 2001, p. 196). How will parents be able to use their 
Pell Grants if they live in ``no-zones?''
    Parents could be co-opted when using Pell Grants for Kids: For 
parents whose school experiences were unhappy, unsuccessful and 
painful, parents may not feel comfortable engaging in discussion, 
negotiation or exchange around using their Pell Grants, especially if 
they want services or programs that are different from what school 
personnel advocate. School professionals may try to influence how the 
families spend their grants in order to support existing or new school 
initiatives. How will parents ensure that their grants are not co-opted 
by the school?
    Under NCLB, students in title I schools who did not meet Adequate 
Yearly Progress for 3 consecutive years are eligible for Supplemental 
Educational Services. These services are paid to providers by the Local 
Education Authority from Title I NCLB funds. How will these funds and 
services provided under NCLB be juxtaposed and differentiated by Pell 
Grants for Kids to ensure parents are in the drivers' seat and are 
making the decisions?
    Furthermore, the idea that the funding from Pell Grants for Kids 
could be pooled together by parents at the same school assumes a level 
of parent organization and communication that often does not exist in 
low-income, disadvantaged schools. Who will organize the parents? How? 
Many schools with at-risk children do not have high levels of parental 
involvement and do not have well established parent organizations. Some 
schools have Parent Outreach coordinators or Parent Resource Centers, 
but many do not. In absence of mechanisms to support parents, it is not 
clear how Pell Grants for Kids can empower them.
    Evidence and experience suggest that the outcomes associated with 
school choice are dependent upon carefully crafted and implemented 
policies. I urge the committee to consider the potential challenges 
that may face the Pell Grants for Kids program as well as strategies 
that can help the program achieve its intended goals.
    I would be glad to furnish references at the committee staff's 
request. Thank you again for the opportunity to present testimony on 
this very timely and important topic.

    Senator Alexander. Thank you, Ms. Goldring.
    Mr. Enlow.

       STATEMENT OF ROBERT C. ENLOW, EXECUTIVE DIRECTOR, 
           MILTON AND ROSE FRIEDMAN FOUNDATION, INC.

    Mr. Enlow. Thank you, Senator Alexander. Good morning and 
thank you. I am pleased to be here and honored to be invited.
    My name is Robert Enlow. I am the Executive Director--
obviously I need to fix my bio--of the Milton and Rose Friedman 
Foundation. We are a non-profit organization dedicated to 
advancing Milton and Rose's vision of educational freedom and 
options.
    I have been asked today to talk about three broad areas: 
the history and origin of school choice, the current progress 
made on school choice, and some thoughts on the future 
direction of school choice. Contrary to myth, as many of us 
know, schooling as we know it or public schooling as we know it 
is not synonymous with the ideals of our colonial Americanism 
and Founding Fathers.
    That is not to say that education was unimportant to them, 
quite the contrary. As Warren Nord notes in his book Religion 
in American Education, ``The Puritans placed a powerful 
emphasis on learning.'' One result of this, one very early 
result of this emphasis was seen in 1647 when the colony of 
Massachusetts passed something called the ``Old Deluder Satan 
Act'' which required ``towns of 50 families to appoint a 
schoolmaster to teach children how to read and write and 
something of religion.'' It also required larger towns to 
actually develop grammar schools to prepare children for 
advanced education.
    Of course, this same strong emphasis on the need for and 
importance of widely available education is seen clearly among 
our Founding Fathers. Thomas Jefferson in 1779 introduced a 
plan to establish the first statewide school system in the New 
World. He called for 20 secondary schools to be created, but 
recommended that tuition be paid for by parents except in the 
case of needy students where he offered scholarships.
    What is critical to note here is that the emphasis on 
education did not lead directly or even rapidly to a system of 
State-operated schooling. Rather, consistent with the values 
and traditions and early colonists and our founding fathers, 
formal schooling from 1630 all the way to 1830 was typically a 
mix of private academies and local denominational schools. It 
was sometimes tax supported, but primarily paid for by parents. 
Schools were predominantly privately run, entirely in control 
of local hands, and thoroughly religious. Moreover, attendance 
was strictly voluntary.
    It was not, as you know, until the 1830s and 1840s that we 
began to see the roots of our current system of government-
controlled and operated schooling. At that time, with the 
backing of Horace Mann and others like William Ruffner, the 
emphasis changed from schooling that was mostly parent-
supported and principally private run to schooling that was 
mostly State supported and principally government-run, common 
schools as we have come to call them. It was during this time 
that compulsory attendance laws began to be enacted, the first 
of which was in Massachusetts in 1852.
    Now, leaving aside the considerable controversy surrounding 
the origins of the common school movement and the motivations 
for it, the fact remains that it took fully 70 to 80 years for 
the transition to uniform education to take place. In fact, it 
was not even until 1918 until the compulsory education was 
enacted in all States. In the intervening times, schooling was 
still mainly a local function. Private academies and 
denominational schools continued to receive public support; 
however, during this time, this is when the support began to 
decrease as common schools began to take root and the States 
modified their constitutions to stop public aid to sectarian 
institutions.
    Again, this is what we are talking about today. The 
critical point to note here is the difference between schooling 
in 1630 to 1830 and that schooling that arose during the 
transition period of 1830 to 1920 is one of delivery mechanisms 
and funding. The early republic emphasized the importance of 
education for a stable society and provided some public funding 
for schooling all the while allowing parents a greater autonomy 
and enabling a wide array of private and religious schooling. 
The common school movement simply destroyed parental autonomy 
and school autonomy, that simple. It linked in a clear way 
Government financing of education through tax dollars with the 
Government administration and operation of schools.
    What happened in this period after 1920, of course, is well 
documented and I will not spend time on that discussing that 
except to say rapid centralization has occurred with schooling 
becoming increasingly bureaucratic, and uniform education moved 
from a parent-child customer-centered focus to a school-State 
education provider-centered focus.
    I make this point about the history and the origins of 
education in America only to make the simple point that the 
heart of school choice lies in the pre-common school principle 
that made a distinction between Government financing and 
Government operation of schooling. The roots of school choice 
go back to our founding fathers, but the modern trend started 
in 1950s with Milton Friedman. The roots of practical--actually 
implementation of school choice also go back very far. In Maine 
and Vermont, there have been programs since the late 1700s. 
They have been known as town tuitioning, but again, the modern 
attempts started in the 1950s as well. That is when Minnesota 
in 1955 enacted a tax deduction program to allow parents to 
offset certain educational expenses of public and private 
schools, followed in the 1970s by Christopher Jencks, who with 
the Office of Economic Opportunity proposed school choice as a 
solution to big city problems.
    Again, the next breakthrough, though, was in 1990 in 
Milwaukee when Governor Tommy Thompson and many came together 
to pass a school choice program for low-income children in the 
City of Milwaukee. The program was originally limited to 1 
percent of the student population, and eligibility was limited 
to families below the poverty level.
    Simply put, the program enacted for Milwaukee sparked a 
revolution, and these are the quick points I would like to 
make. Since 1995, we have seen an explosion in the number of 
school choice programs introduced at the State level. In fact, 
in 2003, more than 20 States introduced some type of 
legislation. Moreover, since 1996, we have seen one new program 
enacted every single year. So this is not an issue that is 
going away.
    We have also witnessed a dramatic growth in the types and 
variations of legislation offered. Again, in the early 1990s, 
it was designing a program for low-income families or small tax 
credits. Now there is a wide diversity.
    Again, the evidence, contrary to what some others have 
said, the evidence is becoming very clear on school choice. 
School choice has not led to creaming. Unlike what others have 
said, almost all credible studies show positive effects for 
students who were receiving vouchers. None shows negative 
correlation. Evidence is mounting that there is also a positive 
relationship between vouchers and public school improvements. 
The evidence of where we have come is clear.
    Senator Alexander. Mr. Enlow, you are going to have to keep 
it a little closer to 5 minutes to be fair to the other 
witnesses.
    Mr. Enlow. The only other thing, I would like to applaud 
the Senator for his effort on Pell Grants, because the fact is 
you are separating the public financing of education, which we 
should all support, from the Government administration of 
schools. You are going back to the roots of what our education 
used to be where we funded children and funded education. We 
did not fund a system. So I would like to applaud the Senator's 
proposal for that.
    Senator Alexander. Thank you very much, and your whole 
statement will be a part of our record.
    [The prepared statement of Mr. Enlow follows:]

    [GRAPHIC] [TIFF OMITTED] T4993.009
    
    [GRAPHIC] [TIFF OMITTED] T4993.010
    
    [GRAPHIC] [TIFF OMITTED] T4993.011
    
    [GRAPHIC] [TIFF OMITTED] T4993.012
    
    [GRAPHIC] [TIFF OMITTED] T4993.013
    
    [GRAPHIC] [TIFF OMITTED] T4993.014
    
    [GRAPHIC] [TIFF OMITTED] T4993.015
    
    Senator Alexander. Mr. Kirtley, welcome.

           STATEMENT OF JOHN KIRTLEY, VICE CHAIRMAN, 
                   ALLIANCE FOR SCHOOL CHOICE

    Mr. Kirtley. Good morning, Senator. I am happy to be here, 
and the first thing I have to tell you is that I am not really 
qualified to talk about this subject today, and I say that 
because I am an inadequate messenger for the thousands of low-
income parents that I have worked with in my home State of 
Florida and across the country who desire greater educational 
opportunities and freedom for their children. Only those low-
income parents could really truly articulate their desire, as 
we heard from Ms. Hill earlier, their desire for school choice.
    In 1998, I helped create a scholarship program, privately-
funded, for low-income children in Tampa, and the scholarships 
pay up to $1,500 for kids to go from public school to private 
school. Now, we intentionally made this very hard for poor 
parents to participate in. They had to contribute a significant 
amount of their own money to participate. And we did no 
advertising. It was just myself going around to churches and 
housing projects, and in 4 months, for 700 scholarships, we 
received 12,000 applications in Tampa. Now, I was stunned by 
this response. I was stunned that so many families with incomes 
well under $20,000 were willing to make such tremendous 
financial sacrifices to have a choice for their children.
    Now, I myself am a product of the Florida Public Schools, 
and I had a wonderful experience, and I think I turned out 
okay, and most kids do, but not all, and the difficulties 
facing low-income kids in public education today has been well 
documented and well debated, but what cannot be debated, in my 
opinion, is the desire of low-income parents to do the right 
thing for their children. And my experience with the 
scholarship program in Florida was repeated across the country. 
There was a national organization called The Children's 
Scholarship Fund that offered about 20,000 scholarships in 
cities across the country that were very similar, and they 
received 1.2 million applications from low-income families. In 
Baltimore, the City of Baltimore, roughly 30 percent of the 
public school children applied for a scholarship, just 
astounding.
    Now I am currently Vice Chairman, as you said, of a group 
called the Alliance for School Choice. It is a non-profit 
organization that works to bring greater educational freedom 
and school choice to low-income families across the country. We 
believe that every parent, not just those with enough money, 
should be able to choose the right school for their children. 
School choice already exists in this country if you have enough 
money, because if you do, you either move to a neighborhood 
with good public schools or you pay tuition for a private 
school. Only those parents that do not have money do not have 
choices.
    Now, some blame low graduation rates in our low-income 
areas on the inherent problems of poverty. There are some who 
say that low-income parents either do not know enough or do not 
care enough to choose the right school for their children, but 
I will tell you that based upon my experience with thousands of 
these parents, that these parents know full well and probably 
know better than anyone that the only way to a better life for 
their children is education, and they are prepared to make 
tremendous sacrifices to have a choice for their children.
    With our scholarships, these low-income parents have been 
empowered for the first time to choose the best school for 
their kids, and, remember, these scholarships are given to 
kids, not schools. So they are completely portable, and these 
parents are demanding customers. They do, in fact, switch their 
kids to different schools.
    Personally, I think this debate should not be between 
public schools and private schools. We should be less concerned 
about systems and more concerned about children. Maybe it is 
time we define our definition of public education. Do we mean 
when we say that a guaranteed seat in a government-owned, 
government-run school assigned to you by your ZIP Code, and is 
that really the best definition for success in this age? I 
think maybe we should redefine public education to mean using 
taxpayer dollars to educate children in the best way possible. 
Now, if we accept that definition, who is the best party to 
decide the best way? Personally, I think it is the parents.
    Now, I wish to urge one major change in this proposed 
legislation. I do not believe that $500 is enough to make a 
difference for a poor family. It is not enough to allow a 
significant amount of tuition help to enable a child to go to a 
private school, although there are very affordable and great 
private schools in urban areas. I would allow the tax credits 
to be consolidated by private scholarships programs like our 
own so that we could perhaps offer somewhat larger scholarship 
programs to individual poor children to enable them to really 
have a true choice in education. I might add that just in Tampa 
alone, we have over 200 schools participating in our program 
with an average tuition of about $4,000.
    I would also allow the money to be used for transportation 
to a different public school because we are not trying to say 
that public schools are better than private schools or vice 
versa. There are great schools and not so great schools of both 
kinds. All we are trying to say is that low-income parents 
should have the right to choose. Now, some will argue--as we 
have heard today, some will argue that this program should not 
exist until we get more money to the public school systems, and 
yet we have cities like Washington, DC with a per-pupil 
spending of $12,000; New Jersey, $16-$17,000, and we have 
graduation rates of less than 40 percent. I think that we need 
to break out of the rhetoric and the old thinking and it is 
time we try something new, and I think that is empowering low-
income parents.
    Now, I am going to depart from my prepared closing 
statement and say that I wish Senator Dodd was still here, 
because I myself am a recent father, and I am so blessed to be 
that, and I know that she is 1 year old, and 4 years from now 
when it comes time for me to choose the right school for her, I 
will do anything I can to find the right school, and I know he 
would too. But the problem is that we can afford to do that, 
and Ms. Hill and others like her cannot, and until we do 
something about that, we are never going to change the 
inequities that exist in public education today.
    So I really appreciate you furthering the dialogue, and I 
commend you for this program.
    [The prepared statement of Mr. Kirtley follows:]

                   Prepared Statement of John Kirtley

    Good morning. I am John Kirtley, and the first thing I want to tell 
you this morning is that I am not truly qualified to talk to you about 
this subject. I am an inadequate messenger for the thousands of low 
income parents that I have worked with in my home State of Florida and 
across the country who desire educational freedom and opportunity for 
their children. Only those low income parents could truly describe to 
you their desire for educational freedom. But I will do my best.
    In 1998 I helped create a privately-funded scholarship program for 
low income families in the Tampa Bay area. The scholarships paid up to 
$1,500 per year towards private school tuition. We intentionally made 
this a difficult program for parents; they had to pay a significant 
amount of their own money to make use of the scholarships. We did no 
advertising; we simply visited churches and housing projects and talked 
about the program. In 4 months we received over 12,000 applications for 
700 scholarships.
    I was stunned by this response. I was stunned that families with 
incomes well under $20,000 would make tremendous financial sacrifices 
to be able to send their children to the school of their own choice.
    I am myself a product of the Florida public schools, and I had a 
wonderful experience. Most children do--but not all. The challenges 
facing low income families in today's schools has been well documented 
and debated. Where there can be no debate is the desire of low income 
parents for more choices.
    My experience with the scholarship program in Florida was 
duplicated in cities across the country. The Children's Scholarship 
Fund, which helped create private scholarship programs across the 
country in 1998, received 1.2 million applications from low income 
families for 20,000 partial scholarships. In Baltimore over 30 percent 
of the families of public school children applied for a scholarship.
    I am currently Vice Chairman of the Alliance For School Choice, a 
nonprofit organization that works to bring educational freedom to low 
income families across the country. Our organization believes that 
every parent, not just those with enough money, should be able to 
choose the best school for their children. School choice already exists 
today--if you have enough money. Parents with adequate means either 
move to a neighborhood with good public schools, or they pay for 
tuition to a private school. It is only those parents without the means 
who can't make a choice.
    Some blame the low graduation rates in our low income areas on the 
inherent difficulties of poverty. There are some who say that low 
income parents either don't know enough, or don't care enough, to 
choose the right school for their children. In working with thousands 
of these parents, I have found just the opposite to be true. The low 
income parents know that education is the only way for their children 
to have a better life than they themselves have known. They are 
prepared to make tremendous sacrifices in order to be able to choose 
their children's schools.
    With our scholarships these low income parents have been empowered 
for the first time to do what is best for their children. The 
scholarships are given to children, not schools--which means they are 
completely portable to another private school. These parents are 
demanding consumers, and they do not hesitate to find use the 
scholarship at a different school if they are not satisfied.
    This debate should not be about ``public schools'' vs. ``private 
schools.'' We should be less concerned about the system and more 
concerned about the children. Perhaps it is time to re-examine our 
definition of ``public education''. Is it a guaranteed seat in a 
government-run, government-owned school assigned to you by your ZIP 
code? Is this the best definition for success? Perhaps ``public 
education'' should be defined as using taxpayer dollars to educate 
children in the best way possible. If we agree with that definition, 
who will decide what is the best way? And the best place? My experience 
has taught me that parents are the best party to make that decision.
    I wish to urge one major change in the proposed legislation. I do 
not believe $500 is enough to make a difference for these families. It 
is not enough to allow low income parents to truly make a choice. I 
would change the bill to allow the $500 tax credits to be aggregated by 
nonprofit scholarship funds that serve low income children. This way, 
the individual contributions could be combined to offer scholarships in 
the amount necessary to make tuition payments affordable for low income 
families. I would also allow the scholarships to be used to pay for 
transportation costs to a different public school. The point of this 
legislation is not to say that private schools are better than public 
schools. There are good schools and bad schools in both categories. The 
point of this bill is to help low income families gain access to the 
right school, whether it be public or private.
    This legislation, if modified as I suggested, would empower low 
income parents to make that decision. It would be a small but important 
step towards addressing the inequities that currently exist in 
education today.
    Empowering low income parents with school choice is not the only 
answer to what ails today's system of public education. However, it is 
a vital and necessary one. We need the power of parental choice as one 
of the tools in the toolbox of reform.
    Some will argue that a program such as this should not exist until 
public schools receive more money. Yet we see cities like Newark and 
Washington DC, which have the highest per pupil expenditures and the 
lowest graduation rates in the country. It is time we try something 
new--empowering low income parents with school choice.
    Again let me apologize for being an inadequate messenger for all of 
those whom I represent here today. I could never do justice to their 
desire to do what is best for their children. I wish the millions of 
parents who applied for a scholarship could be here today to tell you 
why they did. I believe we have no greater crisis in this country than 
the inequities that exist in K-12 education. I urge you to take a small 
step towards erasing those inequities with this program. Thank you.

    Senator Alexander. Thank you, Mr. Kirtley.
    Dr. Smith, welcome.

          STATEMENT OF ROBERT SMITH, SUPERINTENDENT, 
               ARLINGTON VIRGINIA PUBLIC SCHOOLS

    Mr. Smith. Thank you, Chairman Alexander, and thank you for 
the opportunity to speak here today, and I want to thank you 
for your obvious interest in improving public education. We 
thank you for your thinking about that. I just do not happen to 
think this idea is the idea that we need to implement.
    Let me give you a little background. I am the 
Superintendent of the Arlington County Public Schools, as you 
indicated earlier. We enroll about 19,000 students. We have 31 
schools and a number of separate programs, and among those 
19,000 students, we have no majority ethnic group, about 43 
percent white, about a third Hispanic, 10 percent Asian, 14 
percent African American. About 40 percent of our students 
speak a first language other than English. About a quarter of 
our total students receive special services for English as a 
second language instruction, and among that group, we have 79 
different languages and 99 different nationalities represented. 
I think by most measures, you will find we are doing fairly 
well with those populations.
    I am here today representing the American Association of 
School Administrators and the Virginia Association of School 
Superintendents, both of which organizations oppose the use of 
vouchers, and the Virginia Association, for example, has a 
position that States, and I quote here: ``VASS absolutely 
opposes tuition tax credits and any form of public money going 
to private schools under any name, such as vouchers, 
certificates, scholarships or portable entitlements.''
    I think that this proposal clearly represents a voucher, 
and I think that has been established in earlier discussion, 
that parents could use at private schools or public schools, 
and if families choose to send their children to public 
schools, they do not need a voucher. There is no tuition 
charged. They have a right to it. And if they spend their 
vouchers at private schools, it raises in my mind, at any rate, 
real questions regarding the appropriateness of using Federal 
funding for private schools, precluding increasing funds for 
current Federal education initiatives, the possibility of 
siphoning funds from current Federal educational initiatives, 
and problems with the accountability of the funds that flow to 
the private schools.
    Additionally, voters around the country have proven they do 
not support these public dollars for vouchers by a 2-to-1 
margin, the two most recent examples being in Michigan and 
California.
    Public schools are accountable for all of the dollars 
spent, including an increased accountability imposed by the 
Congress under No Child Left Behind. Most of my colleagues and 
I oppose the use of Federal dollars in the form of vouchers, 
believing that such use represents an inappropriate use of 
Federal funds, spends Federal funds without adequate 
accountability, and diverts desperately needed dollars from our 
public schools, or at least has the potential of doing that.
    Currently, Congress does not pay for all of its funding 
commitments. It would be irresponsible, I believe, to introduce 
a new program with a cost that you have estimated of up to $15 
billion a year when Congress does not fund the other priorities 
it set, such as special education and No Child Left Behind. In 
the area of special education, Congress promised back in 1975 
that it would pay for 40 percent of the national average per 
pupil expenditure for every child in special education. Today, 
Congress only funds the program at about 19 percent. In the 
upcoming school year, districts and States across the country, 
including ours, will have to cover an $11 billion Federal 
shortfall.
    We are thankful at this time that all Members of Congress 
have pledged to meet the 40 percent commitment; however, at the 
rate of the recent $1 billion increases, Congress will never 
meet that commitment. The addition of a new Federal program 
will cost billions of dollars per year, but only prevent 
Congress from fulfilling its promise.
    In Arlington, for example, we budgeted for next year school 
year slightly over $37.3 million for special education. We 
received this last year and projected for next year about $3.4 
million or 10.6 percent of that total from the Federal 
Government under IDEA. We received about $4.3 million under 
NCLB, or No Child Left Behind. As a result of additional 
requirements of that legislation, we have had to budget an 
additional $1.1 billion in local dollars to meet additional 
testing, recordkeeping, and transportation requirements imposed 
by that act. We expect to receive about $13.5 million in 
Federal funds or about 3.8 percent of our total budget for this 
coming year. If additional Federal dollars do become available, 
and we would hope that they would, we would much rather receive 
them for underfunded or unfunded Federal mandates than for 
vouchers.
    If Arlington were to receive the proposed vouchers based on 
this proposal, our district would find it difficult to deal 
with the instability funding from year to year, and this is 
because of the timing and that is something we can probably 
work with. There would be no guarantee that the same number of 
parents would use the dollars each year for their public 
schools. If parents determine where to spend the dollars at the 
beginning of June, the school districts would not get their 
dollars until August. Local budgeting would be uncertain at 
best.
    The budget for Arlington Public Schools is adopted in the 
spring preceding the next school year, and if we had 
significant numbers of students, we would have to hire new 
teachers, get new student programming in place, all at the 
beginning of the school year. We are facing that right now with 
the prospect of student transfers under No Child Left Behind.
    In closing, I would say that vouchers are not an effective 
expenditure of Federal dollars. Instead, Congress should stick 
to fulfilling the promises already made in areas such as IDEA 
and NCLB before branching out to new programs. We must ensure 
that we are providing the necessary resources to make certain 
that we provide America's public education students with the 
tools they need to succeed in life.
    Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Robert Smith, Ph.D.

    Chairman Alexander, Senator Dodd and members of the committee, my 
name is Robert Smith and I am the superintendent of the Arlington 
County Public Schools in Virginia. The Arlington Public Schools enrolls 
approximately 19,000 wonderfully diverse students across 31 schools and 
a number of special programs. Among these 19,000 students, there is no 
majority ethnic group, with 43 percent white, 32 percent Hispanic, 14 
percent African-American and 10 percent Asian. About 40 percent of 
these students speak a first language other than English, representing 
79 different languages and 99 different nationalities. Approximately 
one-quarter of our student body receives English for Speakers of Other 
Languages services and about 37 percent receive reduced or free meals.
    I am also here today representing the American Association of 
School Administrators (AASA) and the Virginia Association of School 
Superintendents (VASS) of which I am a member. Both organizations 
oppose the use of vouchers as envisioned in this proposal. For example, 
the Virginia group's legislative position states: ``VASS absolutely 
opposes tuition tax credits and any form of public money going to 
private schools, under any name, such as vouchers, certificates, 
scholarships or portable entitlements.''

                     PELL GRANT FOR KIDS AS VOUCHER

    Chairman Alexander's proposal clearly represents a voucher of $500 
that parents could use at private or public schools. If families choose 
to send their children to the public schools, the proposed vouchers 
would not be needed. If families spend their vouchers with private 
schools, it raises questions regarding the appropriateness of using 
Federal funding for private schools, precluding increasing the funds 
for current Federal educational initiatives, siphoning funds from 
current Federal educational initiatives, and the accountability of 
Federal dollars flowing to private schools. Additionally, voters around 
the country have proven that they do not support the use of public 
dollars for vouchers by a two to one margin. This was seen most 
recently in both Michigan and California.
    Public schools are accountable for every dollar spent, including an 
increased accountability to the Federal Government through No Child 
Left Behind. Most of my colleagues and I oppose the use of Federal 
dollars in the form of vouchers, believing such use would represent an 
inappropriate use of Federal funds, would spend Federal funds without 
adequate accountability and would divert desperately needed dollars 
from our public schools.

                           FUNDING PRIORITIES

    Currently, Congress does not pay for all of its funding 
commitments. It would be irresponsible to introduce a new program with 
a cost of up to $15 billion a year, when it is not funding other 
priorities such as special education and No Child Left Behind. In the 
area of special education, Congress promised back in 1975 that it would 
pay for 40 percent of the national average per pupil expenditure for 
every child in special education. Today, Congress only funds the 
program at only 18.65 percent. In the upcoming school year, districts 
and States across the country, including ours, will have to cover an 
$11 billion Federal shortfall. We are thankful at this time that all 
Members of Congress have pledged to meet the 40 percent commitment; 
however at the rate of the recent $1 billion increases, Congress will 
never meet that commitment. The addition of a new Federal program that 
will cost billions of dollars per year will only prevent Congress' 
ability to fulfill its promise in special education.
    In Arlington, we budgeted for next school year slightly over $37.3 
million dollars on special education. We received $3.4 million dollars 
or 10.6 percent of that total from the Federal Government under IDEA. 
We received $4.3 million dollars under NCLB, but as the result of 
additional requirements of that legislation Arlington Public Schools 
had to budget an additional $1.1 million in local dollars to meet 
additional testing, record keeping and transportation requirements. In 
total, we expect to receive a total of about $13.5 million dollars in 
Federal funds, or about 3.8 percent of our total budget for the 
upcoming year. If additional Federal dollars become available, we would 
much rather receive them for underfunded or unfunded Federal mandates 
than for vouchers.

                          PROGRAM FEASIBILITY

    If Arlington were to receive the proposed vouchers based on this 
proposal, our district would find it difficult to deal with the 
instability of funding from year to year. There would be no guarantee 
that the same number of parents would use the dollars each year for 
their public schools. If parents determine where to spend their dollars 
at the beginning of June and school districts will not get the dollars 
until August, local budgeting would be uncertain at best. The budget 
for Arlington Public Schools is adopted in the spring of the preceding 
year. In addition, it would be difficult to hire teachers and get new 
student programming into place all in time for the start of the school 
year. Adding an unknown number of dollars late in the summer would 
prevent any careful planning as to how to expend the new dollars.

                               CONCLUSION

    In closing, vouchers are not an effective expenditure of Federal 
dollars as the Pell Grants for Kids suggests. Instead, Congress should 
stick to fulfilling the funding promises already made in areas such as 
IDEA and NCLB before branching out to new programs. We must ensure we 
are providing the necessary resources to ensure that we provide 
America's public education students with the tools they need to succeed 
in life.
    Thank you for the opportunity to testify here today.

    Senator Alexander. Thank you, Dr. Smith, and thanks to each 
of you.
    Dr. Smith, do you agree that the Pell Grant for college 
students is a voucher?
    Mr. Smith. Depending on how you define voucher, sure.
    Senator Alexander. Well, Webster defines it as a negotiable 
certificate that can be redeemed as needed.
    Mr. Smith. I will agree that it is a voucher.
    Senator Alexander. Would you agree that the child care 
certificate on which we spend $8 billion a year, we give to 2.3 
million families and parents may spend at a variety of types of 
programs, would you agree that is a voucher?
    Mr. Smith. Sure.
    Senator Alexander. Then why does the idea of a voucher 
bring such a visceral opposition from the public school 
community? I mean, I have been through this argument for years, 
and maybe you can help me understand this better. I mean, here 
we are in higher education where the fastest growing part of 
higher education is really for-profit institutions, and 
Congress competes among ourselves to provide more Federal 
dollars to go to students who are increasingly choosing for-
profit institutions, yet I have yet to hear one president of a 
State university come up and ask that we not fund Pell Grants 
fully. Why is there that difference?
    Mr. Smith. I think part of the difference was pointed out 
earlier in that we educate all children. We do not make 
distinction among the children who live in our neighborhoods 
and come to our schools. We take them all.
    Senator Alexander. If I may, sir, you assign students to 
schools. Right?
    Mr. Smith. Sure.
    Senator Alexander. So you do not----
    Mr. Smith. We also provide choices.
    Senator Alexander. But do you write every child at the 
beginning of the year and ask their parent, ask them where they 
want their child to go to school and then do your best to put 
them there?
    Mr. Smith. No.
    Senator Alexander. So you assign kids.
    Mr. Smith. We do assign kids and we also have schools to 
which they may apply.
    Senator Alexander. So you give them a limited number of 
choices.
    Mr. Smith. Limited number, sure.
    Senator Alexander. Yes. But in the higher education system, 
I am sitting there at the University of Tennessee with 3,000 
students, more or less, who are going to show up in August. We 
do not know if they are all going to come or not. Some of them 
might go to Vanderbilt or Maryville College or Fisk. That was 
able to work pretty well. It seems to me one of the main 
reasons that we have such a strong higher education system is 
we have autonomy. We do not have all these Federal rules that 
you have to deal with all the time, and we have competition for 
faculty. We have competition for research dollars. And we have 
competition for students.
    Is there nothing in that model that ought to be introduced 
in K through 12?
    Mr. Smith. I do not know. There may be some things we 
should introduce, perhaps the Federal commitment to the 
funding, the level of funding.
    Senator Alexander. Well, what if I offered to create 
$5,000, sponsor a bill that said we will give every child in 
your district $5,000 Federal dollars to spend at any accredited 
school or academic program of their parents' choice?
    Mr. Smith. Just in that district?
    Senator Alexander. Well, we will do it all across the 
country, but including your district. That would be my 
proposal, $5,000; not $500, but $5,000.
    Mr. Smith. Would they be able to take that $5,000 outside 
of the district to private schools?
    Senator Alexander. Yes, just as they would a college.
    Mr. Smith. Then I would suggest that we would have the same 
result that you have in college, which is extremely disparate 
results based upon the college the student attends.
    Senator Alexander. But, sir, all of the best colleges in 
the world are in the United States, and we have a higher 
percentage of our students going on to college than any other 
country, and we have poor results on the average in K through 
12.
    Mr. Smith. We have very disparate results in K through 12. 
I think that is true, but I think it is also true that you have 
very disparate results in higher education.
    Senator Alexander. But----
    Mr. Smith. Even with a more select population.
    Senator Alexander. Shanghai University is just one list. 
When you are in Europe, Tony Blair and Gerhard Schroeder are 
both in political trouble, and they are putting their necks on 
the line to remodel higher education to make it look more like 
American higher education because it is so important to their 
country's future. I visited here with the former president of 
Brazil, and I asked him what would he remember when he left the 
Library of Congress residency, to go back to Brazil. He said he 
would remember the autonomy and the excellence of our great 
universities.
    And having worked with this for a long time, I think you 
must be a very successful superintendent. You have got good 
records of achievement, but why would it not be better to have 
a system in Arlington where you had very few Federal rules and 
where you had generous Federal funding to the families and let 
you compete to attract those students? And what I have tried to 
do here is to reduce your objections by saying, Well, instead 
of giving $5,000, we will give only $500; that is not enough to 
get them over to another private school; we will apply all the 
same Federal civil rights; we will make it all new dollars; 
instead of spending it in Iraq, we will spend it on education.
    But that still does not seem to provoke a glimmer of 
interest in the public school establishment toward this kind of 
funding.
    Mr. Smith. I have very strong interest in those kinds of 
dollars coming to the Arlington Public Schools, and we would 
welcome them without the Federal regulations.
    Senator Alexander. But you do not want the parents to have 
anything--can you think of anything you would allow the parents 
to have to say about how the Federal dollars are spent?
    Mr. Smith. Sure, and they do through the ballot box. And my 
major concern----
    Senator Alexander. They can either choose----
    Mr. Smith. My major concern with the allocation of dollars 
in that way is that they can choose the non-public alternatives 
where you do not have the accountability procedures.
    Senator Alexander. Yale is not a worse school because it is 
not a public school.
    Mr. Smith. I did not suggest that.
    Senator Alexander. Well, it does not have the same 
accountability procedures that University of Tennessee would or 
the University of Connecticut would.
    Mr. Smith. I can tell you that Arlington Public Schools is 
committed to educating every child that comes in its doors and 
it does not make any distinction among those children, saying 
one can come in and another cannot. That is not true of private 
schools.
    Senator Alexander. They have to come by neighborhood. They 
cannot come from the next county. And you can suspend them and 
often do.
    Do you know Ted Seizer; do you know who he is?
    Mr. Smith. Yes, I do.
    Senator Alexander. Is he a distinguished educator?
    Mr. Smith. He is.
    Senator Alexander. He wrote an article in 1968 in 
Psychology Today called ``A Proposal for Poor Children's Bill 
of Rights.'' It was to give a Federal coupon to perhaps 50 
percent of American children through their parents to be spent 
at any school. It might be as much as several thousand dollars 
a year, and what about the argument that this scheme might 
destroy public schools, Mr. Seizer said in his article. ``Those 
who would argue that our proposal would destroy the public 
schools raise a false issue. A system of public schools which 
destroys rather than develops positive human potential now 
exists. It is not in the public interest, and a system which 
blames its society while it quietly acquiesces in and 
inadequately perpetuates the very injustices it blames for its 
inefficiency is not in a public interest. If a system cannot 
fulfill its responsibilities, it does not deserve to survive, 
but if the public schools serve, they will prosper.''
    Don't you think that your school district, if parents had a 
lot of money in their pockets that was new and given to them to 
spend at educational institutions, would choose your schools?
    Mr. Smith. I think they probably would.
    Senator Alexander. Then what is the fear?
    Mr. Smith. I think the concern is having the support 
siphoned off from the public schools and going to private 
schools that serve a different set of purposes and do not have 
the same commitments to serving all children, and I think we 
have an interest in this country in making certain that all 
children learn well and become good citizens.
    Senator Alexander. Thank you very much, Dr. Smith.
    Dr. Goldring, you live in Nashville, I guess.
    Ms. Goldring. Yes, I do.
    Senator Alexander. We raised our children there. I have 
always wondered why the metropolitan school board in Nashville, 
which probably has 7,000 children now----
    Ms. Goldring. Correct.
    Senator Alexander. Something like that. Why didn't it just 
write a letter to all of the parents in February and ask them 
where they wanted their child to go to school and say list your 
first three choices and we will do our best to send them there? 
I have friends this year who are moving into Nashville, and 
they are renting an apartment rather than buying a house so 
they can be in a particular school. I mean, they are going to 
great odds to find a way to get into just the right school. Why 
have we gotten into this school assignment practice in America?
    Ms. Goldring. I think one reason, and especially in a place 
like Nashville, has to do with the history of desegregation and 
court orders. So before choice became a public school movement, 
there was student assignment by neighborhood and there were 
widely segregated schools, and then busing came, and then white 
flight came, and school boards were in the business of deciding 
where kids go to school, and that was one of the main ways in 
which they implemented their educational policies. That has 
become such a time consuming complicated system for school 
boards as enrollments change, as students move in and out of 
neighborhoods, and as they are trying to now balance the 
necessity of having equity and integrated schools, many times 
with court orders being lifted.
    I think one of the reasons why school boards do not do it 
is commitment, and we talk about will and capacity. In order to 
have a system of open choice even within the public sector, and 
some districts do open enrollment, you need a lot of will and a 
lot of capacity and commitment to be able to do that and to do 
it effectively and also to be able to do it such that it is 
really equitable, because high-income parents--and I am not 
saying that low-income parents cannot choose and I am not 
saying that they do not know what is in the best interest of 
their children, but their access to information and good 
sources of information needs to be brought to them in a 
different way than what you and I know.
    A quote that we often use from our own research when we 
talk to magnet school parents is one parent said, You know, if 
I am not in the market for a used car, I do not read the 
classified ads. So if you have always been told where you go to 
school and it is a neighborhood culture--because in Nashville, 
for example, we have magnet schools that are highly 
undersubscribed, and there can be a magnet school next to a 
housing project and the parents from the projects are not going 
to that school. And when you ask then why, first of all, they 
say they think that the magnet schools are private schools, and 
these are schools that have no entry requirement other than 
they need to fill out quite a simple form by a certain date. So 
that is one reason.
    And the second reason is their older brothers and sisters 
and everyone in the project goes to a certain school, and they 
feel connected to that neighborhood school, and that is where 
their kids always go. They may know the principal. They may 
know the teachers. So it is not part of the culture.
    So by just saying everyone is going to choose, it is not 
that simple.
    Senator Alexander. No, it is not, but in the case of Pell 
Grants, Pell Grants go to the poorest of the families who have 
children who want to go to college, and we still let them make 
the choice about where to go to school, and in terms of the 
child care vouchers, they go to some of the poorest families in 
America, and we have 2.3 million of those parents who make 
choices about the day care for their children.
    Ms. Goldring. Yes. I do not know the exact numbers, and I 
am sorry. I actually had them with me in my bag, but for the 
Pell Grants or for higher education, one needs to look at the 
college attendance rate of low-income families. When we talk 
about Pell Grants for Kids, we are talking about parents or 
teenagers that have access to higher education. We are not 
talking about the percent of the cohort, of the percent of the 
low-income cohort, that does not access the grant or does not 
even go on to higher education, and as you know from Tennessee, 
we do not have a high college-going rate. So I think this 
question about universal education and choice, using the higher 
ed analogy, we need to really look carefully about what percent 
of low-income high school graduates actually go on to college 
and access the Federal, State, and other funding opportunities, 
and I would suggest that we have a similar problem of access, 
that opportunities are there, but many low-income high school 
graduates are not availing themselves of those opportunities.
    Senator Alexander. One other question, if I may: You spoke 
of the Pell Grant as a grant.
    Ms. Goldring. Yes.
    Senator Alexander. And not a voucher, and I understand why 
you say that. I think I can probably win an argument with a 
dictionary that the Pell Grant is a voucher and the Stafford 
Loan is a voucher and the child care certificate is a voucher 
and there are a lot of vouchers, but what we have come to talk 
about in America is that Pell Grants are scholarships and 
vouchers are hated things that public school people do not like 
because it might hurt the schools and give parents who cannot 
make choices the opportunity to make bad choices. What I am 
trying to do is listen to all the objections that the public 
school leaders have and say what can I do to minimize those 
objections as I fashion a way to give parents some more choice.
    So you said that you described this as a grant. You were 
thinking in terms of public schools, and you said you thought 
the $500 was not enough to cause most families to take the 
money to enroll in another private school, which is exactly 
what Mr. Kirtley said. He has a different opinion than Dr. 
Smith. He thinks that would be a good thing. Dr. Smith thinks 
that would be a bad thing.
    Have you got any other advice for me about how to fashion a 
proposal that might bridge this debate we have been having for 
20 years in the country that says despite the fact that we 
spend Federal dollars every year for children up to age five 
and then we give their parents--I mean, you have the situation 
where a poor parent has the right to get a voucher for her day 
care and decide where to spend it. She has the right to get a 
voucher for her community college and decide where to spend it. 
But we say it is bad for her to have a voucher, a $500 voucher 
for her first grader or her high school senior.
    Now, what suggestions do you have about how to fashion a 
proposal that would both attract more Federal dollars for 
education and began to give parents more say about how the 
money is spent?
    Ms. Goldring. And at the same time not worry the public 
school?
    Senator Alexander. Well, I would like to worry them less, 
because then I will have different testimony from Dr. Smith and 
fewer speeches from Senator Dodd. I am trying to get a bill 
through the Senate.
    Ms. Goldring. I know. Let me talk about what I think 
concerns some of the public school educators first. It is fear 
that although you call it new dollars--and again, I think if 
you look at the trends--and it may be helpful to have some of 
the higher ed financial aid specialists come to testify at a 
future time. If you look at some of the trends, often what 
happens, as new funding comes in, it allows old funding to be 
reduced, and although you say new dollars, I think people are 
very nervous that today it is new dollars, maybe 10 years it is 
new dollars, but ultimately it will start meaning a shift 
either of cutting title I money or reducing funding from other 
programs to be brought into the new dollars, and then public 
schools are going to be left holding the bags on both sides. So 
I think that is one concern.
    Senator Alexander. Okay.
    Ms. Goldring. I think the other concern is a double 
standard about accountability. So if I am a public school and I 
have to meet No Child Left Behind and I have to report my data 
and I have to disaggregate and then I am in a private school 
and I accept children, do I have to be held to those same 
accountability standards, at least on outcome, and do I have to 
publicly report and do I have to use the same tests and do I 
have to be held to the same standards? And that is complicated 
because, as people said here, we want to respect private 
entities for offering a different curriculum.
    You know, as a high-income parent, you can also then buy 
your way out of accountability framework if you think your 
child is in fear of failing and not getting a high school 
diploma, because you can go to a private school that does not 
require--I imagine they do that with the vouchers. So I think 
that is the second thing.
    Senator Alexander. Don't you think parents buy their way 
into a better school if they can, rather than a worse school?
    Ms. Goldring. Well, it is not necessarily a worse school. 
No, I do not think they are buying their way into a worse [sic] 
school. I think they are buying their way into a different 
system that does not have to meet those accountability 
frameworks, and it does not mean it is better or worse. They 
could be emphasizing different things, not necessarily 
standardized tests. That was my point.
    Senator Alexander. If I may, I am afraid we are about out 
of time, and I wanted to get to Mr. Enlow and Mr. Kirtley.
    Ms. Goldring. I understand.
    Senator Alexander. Thank you. That is very, very helpful.
    Now, both of you come from the point of view of saying--I 
should not put words in your mouth. I do not think I am putting 
words in your mouth. From your written testimony and from your 
statements, you ideally would like to see a system, I gather, 
where Federal dollars went to parents and parents chose the 
schools. What advice would you have for me? You made a couple 
of suggestions about how to fashion a piece of legislation that 
would increase the number. What I am trying to do is create 
more Federal dollars for local schools than otherwise would be 
spent and create fewer strings on the dollars and give parents 
more say. Now, from the point of view of school choice 
advocates, what advice do you have for me in developing this 
legislation?
    Mr. Kirtley. Senator, if your question is, and I think you 
stated it earlier, how am going to reduce or eliminate 
opposition for the concept of parental empowerment from the 
existing public school system, I am not sure you are going to 
be able to, and I want to commend our guest from the Miami-Dade 
Public School System. You heard him talk. He actually already 
embraces the idea of choice. He knows that if they do a great 
job, that families will choose the public schools. They are not 
afraid to compete, but that was a very, very difficult thing to 
institute down in Florida, and if you are looking for 
cooperation in a situation where you are asking people to give 
up money and power, it is very hard to do.
    So I am sort of at a loss in that regard in terms of how to 
reduce the opposition.
    You know, ``voucher'' is just a word. It is just a word, 
and another word is ``accountability''. What does that really 
mean? I come from the business world. I have now dedicated 
myself to this cause, but I used to be in business, and in 
business, accountability was very simple. It meant if you do 
not do the job, you do not provide the service, you lose the 
customer. That to me is what accountability means, and if you 
are a single mom in Tampa, FL making $18,000, and you are 
assigned to a school that is not performing, you cannot make a 
choice. There is not that kind of accountability for that 
school, and it is interesting. We talked about testing and the 
like. We did a survey of all the schools in our program, the 
private schools, and 95 percent of them already administer a 
nationally-recognized reference standardized test like the 
Stanford Nine.
    The reason for that is very simple. The parents demand it. 
The market demands it. They want to know if their children are 
performing, because they are paying for part of it. They are 
empowered consumers.
    So other than the design change that I described in my 
testimony, aggregating the scholarships, I think that would be 
the one change I would recommend, and again, in terms of trying 
to convince people to give up money and power, I wish you the 
best of luck, because I have found it very difficult in the 
past.
    Senator Alexander. Mr. Enlow.
    Mr. Enlow. Unfortunately, Mr. Chairman, I have to agree 
with Mr. Kirtley that it is very difficult to overcome the 
opposition on this, but it is an educational program that you 
could continue with, as I know you will.
    One policy thing that I might suggest in addition to 
pooling the resources, allowing non-profits to pool the 
resources for parents would be one way to stimulate greater 
choices. It would also be to increase the number of options 
that parents could spend the money on. One of the things about 
Milwaukee--two things I would like to note about the Milwaukee 
program, one to combat the fiscal argument that it drains 
money. Every year, the Milwaukee program has been in operation, 
they have seen an increase in State aid per pupil to the city 
district. So this level of choice is not taking away money from 
public schools, but I also would like to say what they are 
doing is they are creating a city of options. They are creating 
multiple delivery mechanisms, cyber schools, charter schools, 
public schools, private choice schools, public-private 
partnerships, contract schools, just a whole host of different 
delivery mechanisms.
    So the more delivery mechanisms you can include in your 
legislation, I think the better and more likely it will be to 
pass.
    Senator Alexander. Thank you very much. We have gone over 
the time. It has been enormously interesting discussion for me. 
We have had a wide diversity of opinion presented, which I 
greatly appreciate.
    To summarize just for a minute, this is just the beginning 
of an effort on my part--and I hope that of other colleagues--
to try to see if we can learn something from how we fund our 
colleges and universities and apply it to help improve and 
create better access to our elementary and secondary schools. 
It seems wise to me if the way we have funded and organized the 
higher education system has produced the best colleges in the 
world, there is bound to be something we can learn from that in 
improving kindergarten through 12th grade. It seems to me one 
way to do that is to increase the autonomy of individual 
schools. Our colleges have great autonomy. In other words, they 
do not have lots of Senators and Congressmen and others telling 
them what to do. Other schools, our public schools, are loaded 
down with lots of rules and regulations. I think increasing 
autonomy for schools is one way, and I think creating more 
competition and more choices is another way, and Federal 
funding can do that in a way State funding cannot because it is 
an add-on.
    So I have tried to fashion this in a little different way 
than the typical voucher that we have talked about other 
vouchers, as the example of a D.C. voucher. We are not talking 
about taking money away from a public school and giving it to a 
private school. At least in my proposal, we are not. We are 
talking about finding new money, and of course money is always 
uncertain, but it is a matter of priority. We have a big 
budget. We have a third of all of the money in the world in the 
United States, and we need to put a higher priority on 
education. I would put it by allotting money to K through 12 
and finding a way to get the parents more involved with 
spending that money.
    That is my goal. And I may not be on quite the right track, 
but I would like help in getting on the right track, and I 
would hope my Republican colleagues and others who are adverse 
to spending more Federal dollars for public schools would 
realize that should be a priority of ours, particularly if we 
can get parents more involved, and I would hope my Democratic 
colleagues and those in the public school establishments who in 
the past have been totally opposed to this kind of voucher 
would think again and say, ``Well, if he is talking about new 
money, if he is talking about a smaller amount, and if he is 
talking about applying the same sort of nondiscrimination 
provisions, that, you know, maybe 85 percent of it would end up 
in our schools. And if it is $115 million more dollars for the 
Miami-Dade County School system than it would otherwise have, 
maybe that would be good instead of bad.''
    So I greatly appreciate the staff's hard work in putting 
this together. We would welcome any additional comments the 
witnesses have. We would like to have them in the next week. I 
think we have begun to build a good record. We are going to put 
together a working group of Senators and staff members over the 
next few months to develop legislation, and I look forward to 
introducing legislation in the next Congress.
    Thank you very much. The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

               The National Coalition for Public Education,
                                                     July 14, 2004.
Committee on Health, Education,
Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator: A hearing is scheduled before the Senate Committee on 
Health, Education, Labor, and Pensions to consider a voucher proposal 
termed ``Pell Grants for Kids.'' The National Coalition for Public 
Education (NCPE) strongly opposes the diversion of public money to 
private schools through vouchers, and therefore urges you to oppose 
this proposal.
    Cost. The proposed Pell Grants for Kids would cost $2.5 billion in 
new funds during its 1st year, just to provide a modest $500 voucher to 
low- and middle-income children entering kindergarten and 1st grade. 
Programs authorized under No Child Left Behind are already underfunded 
by more than $9 billion. If new money is available, we recommend it be 
allocated to existing public school programs, rather than to an 
experimental voucher program. Furthermore, full implementation of the 
program would inevitably lead to cuts in existing programs. Proponents 
disingenuously claim that the annual expense of $15 billion could be 
achieved without cutting existing programs, because they propose to 
divert new title I appropriations to these vouchers, and hold funding 
for the current title I programs steady at current levels. Given the 
increased costs associated with inflation and population increases, 
services would obviously suffer severe cuts without concurrent funding 
increases.
    Feasibility. According to a fact sheet distributed by the office of 
Senator Lamar Alexander, parents would designate by June 1 of each year 
a public or private school or other academic program to be the 
recipient of funds, which would be transferred by the U.S. Department 
of Education by August 1 for use during the school year. Accordingly, 
local school districts would not learn until funds were in hand the 
total amount available, rendering appropriate budgeting, hiring, 
facilities management, and other planning processes impossible. Rather 
than enhancing local control, this voucher program would hopelessly 
skew the local decision-making process.
    Accountability Because this program would divert public funds to 
private schools that are not accountable to the public, it suffers from 
the same accountability flaws as every voucher program. A review of 
news articles, especially from Florida, recounting the horrors that 
result from the lack of accountability in existing voucher programs 
should be sufficient to discourage further diversion of hard-earned 
taxpayer dollars. The fact that wrongdoers who defraud taxpayers may 
eventually be caught and brought to justice is no substitute for public 
accountability.
    Not Like Pell Grants. Although Senator Alexander asserts that his 
proposal is modeled after Pell Grants for higher education, that 
comparison ignores some vital distinctions. Pell Grants are authorized 
and funded to help students from low-income families attend college, 
because this country recognizes the benefit of providing incentives to 
attend college, as well as the need to provide financial assistance. 
Because elementary and secondary education is compulsory, no incentives 
are needed to encourage enrollment, and because it is provided free of 
charge, no financial assistance is needed to attend either. For further 
clarification of the difference between a voucher and a Pell Grant, 
please refer to the attached fact sheet.
    In a fact sheet distributed regarding the proposed Pell Grant for 
Kids, Senator Alexander's office admits that this program is a voucher. 
The Senate has repeatedly rejected vouchers, which divert funds from 
public schools to private schools that are not accountable to the 
public, and do nothing to improve our public schools. The undersigned 
organizations strongly urge you to oppose this misguided and expensive 
diversion from the real problems facing our schools today, and work 
instead for proven reforms that will provide every child access to an 
excellent public school.
    Sincerely: American Association of School Administrators, American 
Association of University Women, American Civil Liberties Union, 
American Federation of State, County and Municipal Employees (AFSCME), 
American Federation of Teachers American Humanist Association Americans 
for Religious Liberty, Americans United for Separation of Church and 
State, Anti-Defamation League, Association of Educational Service 
Agencies, Association for Supervision and Curriculum Development, 
Central Conference of American Rabbis Council for Exceptional Children 
Council of the Great City Schools, General Board of Church and Society 
of The United Methodist Church, HUUmanists (formerly Friends of 
Religious Humanism), NA'AMAT USA, National Association of Elementary 
School Principals National Association of School Psychologists, 
National Association of State Directors of Special Education National 
Black Child Development Institute Inc., National Council of Jewish 
Women, National Education Association, National Organization for Women, 
National PTA, National Rural Education Association, National School 
Boards Association, People For the American Way, Service Employees 
International Union, Union for Reform Judaism, Unitarian Universalist 
Association of Congregations United Church of Christ Justice and 
Witness Ministries Women of Reform Judaism.

                               __________

               National Coalition for Public Education: 
                   Vouchers Are NOT Like Pell Grants

    Some voucher proponents assert that vouchers are ``merely'' Pell 
Grants for elementary and secondary education, and charge public 
education supporters with hypocrisy for supporting financial assistance 
for higher education, while opposing it for K-12. This cynical 
assertion fails to recognize the huge distinctions between these 
programs.
    The Pell Grant program is the largest need-based Federal 
postsecondary student financial aid program administered by the U.S. 
Department of Education. Its purpose is to provide grant assistance to 
help students from low-income families achieve their dreams of 
postsecondary education. Because elementary and secondary education in 
this country is compulsory, no incentives are needed to encourage 
enrollment; and because it is provided free of charge, no financial 
assistance is needed either. In no instance is post-secondary education 
provided free of charge.
    A college student's receipt of Federal financial aid through a Pell 
Grant is legally considered aid to the institution, thus making 
colleges and universities subject to Federal civil rights laws, 
including:

    <bullet> Title VI of the Civil Rights Act of 1964, which prohibits 
discrimination on the basis of race, color, and national origin;
    <bullet> Title IX of the Education Amendments of 1972, prohibiting 
sex discrimination;
    <bullet> Section 504 of the Rehabilitation Act of 1973, which 
prohibits discrimination on the basis of disability;
    <bullet> Title II of the Americans with Disabilities Act of 1990; 
which prohibits disability discrimination by public entities, whether 
or not they receive Federal financial assistance; and
    <bullet> The Age Discrimination Act of 1975. Schools that do not 
comply with Federal civil rights laws are subject to loss of Federal 
funds.

    In sharp contrast, many voucher proponents insist that this aid 
does not flow to the school, but to the parent or student, specifically 
to allow participating private schools to evade Federal civil rights 
laws, and maintain discriminatory policies. For example, H.R. 684, the 
District of Columbia Student Opportunity Scholarship Act specifically 
states in section 4:
    (e) Not School Aid.--A scholarship under this act shall be 
considered assistance to the student and shall not be considered 
assistance to an eligible institution.
    To be eligible for Pell grants, institutions of higher education 
must meet a three-prong eligibility test. They must:

    <bullet> Be accredited by an agency recognized for that purpose by 
the Secretary of Education.
    <bullet> Be licensed or otherwise legally authorized to provide 
postsecondary education in the State in which it is located, and
    <bullet> Be deemed eligible and certified to participate in Federal 
student aid programs by the Department of Education. This participation 
rate is based on student loan default rates at the schools.

    Additionally, the ``accrediting agency'' must have consistent 
standards to assess schools in a number of specific area including 
success in student achievement, completion and other outcome measures 
such as default rates. In contrast, voucher proposals for elementary 
and secondary education typically do not impose any public 
accountability requirements on participating private schools, much less 
the same measures that apply to public schools.
    Due to the impressionability of young people, the Supreme Court has 
distinguished between the use of government funds in colleges and 
elementary and secondary schools, where funding might be construed as 
government endorsement of the religious message. This distinction was 
first articulated in Tilton v. Richardson, 403 U.S. 672 (1971), in 
which the Court held that ``There are generally significant differences 
between the religious aspects of church-related institutions of higher 
learning and parochial elementary and secondary schools. [C]ollege 
students are less impressionable and less susceptible to religious 
indoctrination.'' Because ``high school instruction is given in a 
structured and controlled environment and in more confined facilities 
than is usual in the open, free, and more fluid environment of a 
college campus . . . the possible perception by adolescent students 
that government is communicating a message of endorsement of religion . 
. . would be vastly different in a high school setting than the 
perception of such action by college students in a college setting.'' 
\1\
---------------------------------------------------------------------------
    \1\ Widmar v. Vincent, 454 U.S. 263 (1981). See also, Jones v. 
Clear Creek Independent School District, 977 F.2d 963 (5th Cir. 1992), 
citing Widmar for the principle that age is inversely proportional to 
impressionability, from university students to secondary school 
students.
---------------------------------------------------------------------------
    Finally, the Supreme Court has distinguished college assistance 
from programs aiding elementary and secondary schools on the basis that 
most religious colleges are not pervasively sectarian. In Tilton v. 
Richardson, the Court ruled that [since] religious indoctrination is 
not a substantial purpose of these church-related colleges, [there] is 
less likelihood than in primary and secondary schools that religion 
will permeate the area of secular education. This reduces the risk that 
government aid will in fact serve to support religious activities.
    In Witters v. Washington Department of Services for the Blind 
(1986), the Court held that a disabled student's use of vocational 
educational assistance funds for tuition at a Bible college did not 
violate the Establishment Clause because the Court viewed the program 
primarily as providing vocational assistance to the disabled, and not 
as one in which ``any significant portion of aid . . . will end up 
flowing to religious education.'' Religiously-affiliated elementary and 
secondary schools, however, are pervasively sectarian. According to its 
mission statement, for example, Villa Angela-St. Joseph High School in 
Cleveland, ``strives to bring each student to a deeper commitment to 
Jesus Christ and Gospel values.'' At Saint Ignatius High School, also 
in Cleveland, a student ``should come to realize that he is invited to 
follow Jesus and work with Him to build God's kingdom on earth.'' Part 
of the mission of Annunciation Catholic Elementary School in Hollywood, 
Florida, is to ``educate our young people . . . to be faith-filled 
Christians in the Catholic tradition.'' Clearly, Federal aid to these 
schools through a voucher could not help but flow to religious 
education.
    Pell Grants provide assistance to low income students seeking 
higher education, which is not provided free of charge, but is the key 
to success in this country. Civil rights protections and accountability 
follow this Federal investment in higher education. Elementary and 
secondary school vouchers, however, even when they are termed ``Pell 
Grants for Children,'' undermine accountability, strip students using 
them of their civil rights protections, and are not needed to promote 
attendance as is the case in higher education, since attendance is 
already compulsory, and provided free of charge to every child.

    [Whereupon, at 12:22 p.m., the hearing was adjourned.]


</pre></body></html>
